<html>
<title> - GLOBAL TERRORISM: THREATS TO THE HOMELAND, PART II</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


           GLOBAL TERRORISM: THREATS TO THE HOMELAND, PART II

=======================================================================


                                HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 30, 2019

                               __________

                           Serial No. 116-47

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                  U.S. GOVERNMENT PUBLISHING OFFICE                    
40-463 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                             
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           Van Taylor, Texas
Elissa Slotkin, Michigan             John Joyce, Pennsylvania
Emanuel Cleaver, Missouri            Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas........................................     8

                               Witnesses

Hon. Kevin K. McAleenan, Acting Secretary, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    11
  Prepared Statement.............................................    14
Mr. Christopher Wray, Director, Federal Bureau of Investigation, 
  U.S. Department of Justice:
  Oral Statement.................................................    22
  Prepared Statement.............................................    23
Mr. Russell Travers, Acting Director, National Counterterrorism 
  Center, Director of National Intelligence:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29
Mr. David J. Glawe, Under Secretary, Office of Intelligence and 
  Analysis, U.S. Department of Homeland Security.................    33

                             For the Record

The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Lousiana:
  Article........................................................    77
  Letter From the Congressional Black Caucus.....................    80
  Article........................................................    81

                                Appendix

Questions From Honorable Dina Titus for Kevin McAleenan..........    85
Question From Ranking Member Mike Rogers for Kevin McAleenan.....    86
Questions From Honorable Dina Titus for Christopher Wray.........    86
Questions From Honorable Dina Titus for Russell Travers..........    86
Questions From Honorable Dina Titus for David J. Glawe...........    87

 
           GLOBAL TERRORISM: THREATS TO THE HOMELAND, PART II

                              ----------                              


                      Wednesday, October 30, 2019

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 o'clock a.m., 
in room 310, Cannon House Office Building, Hon. Bennie G. 
Thompson, [Chairman of the committee] presiding.
    Present: Representatives Thompson, Jackson Lee, Langevin, 
Richmond, Rice, Correa, Small, Rose, Underwood, Cleaver, Green 
of Texas, Clarke, Titus, Coleman, Barragan, Demings; Rogers, 
King, McCaul, Katko, Higgins, Green of Tennessee, Taylor, 
Joyce, Crenshaw, Guest, and Bishop.
    Chairman Thompson. We are going to convene the Committee on 
Homeland Security.
    We are going to ask the members of the press to please part 
the center aisle so Members can have access to the witnesses.
    The committee is meeting today to receive testimony on 
``Global Terrorism: Threats to the Homeland, Part II.''
    Good morning. The committee, as I indicated, is meeting to 
hear from 4 expert witnesses on where we are as of this date 
with threats to the homeland.
    This committee was created in the aftermath of the 
terrorist attacks of September 11, 2001. Since the 
establishment of the Department of Homeland Security, the 
committee has focused on ensuring the Department is fulfilling 
its mission to secure the homeland.
    I take this responsibility seriously, as has every Chairman 
of this committee.
    That is why it has been the committee's practice to hold a 
hearing to assess global threats to the homeland and evaluate 
the Federal Government's efforts to confront them. Congress and 
the American people deserve to hear about the threats we face 
directly from the officials charged with our Nation's security.
    Today, I am deeply concerned about the state of the 
Department of Homeland Security. It has been 203 days since the 
Department last had a confirmed Secretary, and Acting Secretary 
McAleenan recently announced he is leaving after just 6 months 
on the job. His replacement will be the fifth person to lead 
DHS in fewer than 3 years.
    Even though Acting Secretary McAleenan is leaving tomorrow, 
from what I understand, the President has yet to announce who 
his replacement will be.
    What is the delay?
    Overnight, we learned the White House may be trying to find 
a legal loophole to install the President's pick, who is not in 
the Department's order of succession, as Acting Secretary.
    This is completely unacceptable, and such a decision would 
raise serious Constitutional questions.
    Also unacceptable is the fact that the Transportation 
Security Administration's administrator has been dual-hatted as 
acting deputy secretary of Homeland Security for the last 6 
months. TSA administrator and deputy secretary of Homeland 
Security are not part-time jobs. They each require someone's 
full attention.
    Beyond the Secretary and deputy secretary, 11 components 
and offices within DHS are operating with acting leaders, and 
in all but 2 cases the President has yet to nominate anyone to 
fill these vacancies.
    This is an unprecedented situation with real consequences 
for the Department and the more than 240,000 men and women of 
DHS working to secure the homeland. Indeed, at no time during 
my tenure on this committee have I been more concerned about 
DHS's ability to carry out its mission.
    The chaos is not limited to the Department, unfortunately. 
The President is also on his sixth National Security Advisor, 
fifth Secretary of Defense, third FBI Director, and third 
Director of National Intelligence, including acting officials.
    He also no longer has a Homeland Security Advisor or a 
White House Cybersecurity Coordinator. The President needs to 
fill positions critical to U.S. National security.
    At the same time, terrorism threats to the homeland, both 
international and domestic, are unrelenting. Just over 2 weeks 
ago, President Trump pulled American troops out of Syria. This 
abrupt exit put an end to U.S. counterterrorism missions with 
the Kurds and complicated the Pentagon's raid on ISIS leader 
Abu Bakr al-Baghdadi.
    Fortunately, their mission was successful thanks to the 
bravery and skill of our military members and intelligence 
professionals, and we honor them for their heroic service to 
our country.
    While al-Baghdadi is dead, the ISIS detainees who escaped 
Kurdish prisons pose a renewed threat to the United States, and 
conditions on the ground are ripe for ISIS to reconstitute.
    Moreover, we abandoned our Kurdish allies, prompting them 
to make a deal with our adversary, the Russian-backed Syrian 
government.
    I want to hear from our witnesses today about how these 
developments affect the global threat picture and what the 
implications are for the homeland.
    Here at home, domestic terrorism is on the rise. One year 
ago, 11 members of the Tree of Life Synagogue in Pittsburgh 
were gunned down by a perpetrator motivated by anti-Semitism 
and white supremacy.
    This year, congregants at a synagogue in Poway, California 
and shoppers at a Walmart in El Paso, Texas were killed by 
white supremacists.
    These attacks are increasingly linked to groups and 
individuals abroad, and many are exploiting social media to 
proliferate violent extremist content and incite others around 
the world.
    Recent reports indicate the National Counterterrorism 
Center has begun to look at domestic terrorism, and last month 
DHS released its first Strategic Framework for Countering 
Terrorism and Targeted Violence. I hope we can hear about their 
efforts today.
    For too long this issue was not given the attention it 
deserved, and much more remains to be done.
    Finally, I would note that the 2020 elections are just a 
year away. Despite the intelligence community's ringing the 
alarm about foreign interference in our elections, the 
President has refused to accept their conclusion that Russia 
interfered in the 2016 election. His refusal to ensure the 
integrity of our elections by leading on this issue from the 
White House sends the wrong message to our adversaries.
    It also calls into question whether the many agencies 
working to defend our elections are getting the support and 
resources they need. I hope we can speak to that issue as well.
    As I said at the outset, this committee must take its 
responsibility to oversee the Department of Homeland Security 
seriously. The security of the homeland is at stake, and our 
constituents expect no less.
    I look forward to the witnesses' valuable testimony and 
Members' important questions today.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                            October 30, 2019
    This committee was created in the aftermath of the terrorist 
attacks of September 11, 2001. Since the establishment of the 
Department of Homeland Security, the committee has focused on ensuring 
the Department is fulfilling its mission to secure the homeland. I take 
this responsibility seriously, as has every Chairman of this committee.
    That is why it has been the committee's practice to hold a hearing 
to assess global threats to the homeland and evaluate the Federal 
Government's efforts to confront them. Congress and the American people 
deserve to hear about the threats we face directly from the officials 
charged with our Nation's security.
    Today, I am deeply concerned about the State of the Department of 
Homeland Security. It has been 203 days since the Department last had a 
confirmed Secretary, and Acting Secretary McAleenan recently announced 
he is leaving after just 6 months on the job. His replacement will be 
the fifth person to lead DHS in fewer than 3 years. Even though Acting 
Secretary McAleenan is leaving tomorrow, the President has yet to 
announce who his replacement will be. What is the delay?
    Overnight, we learned the White House may be trying to find a legal 
loophole to install the President's pick, who is not in the 
Department's order of succession, as Acting Secretary. This is 
completely unacceptable, and such a decision would raise serious 
Constitutional questions.
    Also unacceptable is the fact that the Transportation Security 
Administration Administrator has been dual-hatted as acting deputy 
secretary of Homeland Security for the last 6 months. TSA administrator 
and deputy secretary of Homeland Security are not part-time jobs--they 
each require someone's full attention.
    Beyond the Secretary and deputy secretary, 11 components and 
offices within DHS are operating with acting leaders, and in all but 2 
cases the President has yet to nominate anyone to fill these vacancies. 
This is an unprecedented situation with real consequences for the 
Department and the more than 240,000 men and women of DHS working to 
secure the homeland. Indeed, at no time during my tenure on this 
Committee have I been more concerned about DHS's ability to carry out 
its mission.
    The chaos is not limited to the Department, unfortunately. The 
President is also on his sixth National Security Advisor, fifth 
Secretary of Defense, third FBI director, and third director of 
national intelligence, including acting officials. He also no longer 
has a Homeland Security advisor or a White House cybersecurity 
coordinator. The President needs to fill positions critical to U.S. 
National security.
    At the same time, terrorism threats to the homeland--both 
international and domestic--are unrelenting. Just over 2 weeks ago, 
President Trump pulled American troops out of Syria. This abrupt exit 
put an end to U.S. counterterrorism missions with the Kurds and 
complicated the Pentagon's raid on ISIS leader Abu Bakr al-Baghdadi. 
Fortunately, their mission was successful thanks to the bravery and 
skill of our military members and intelligence professionals, and we 
honor them for their heroic service to our country.
    While Al-Baghdadi is dead, the ISIS detainees who escaped Kurdish 
prisons pose a renewed threat to the United States, and conditions on 
the ground are ripe for ISIS to reconstitute. Moreover, we abandoned 
our Kurdish allies, prompting them to make a deal with our adversary--
the Russian-backed Syrian government.
    I want to hear from our witnesses today about how these 
developments affect the global threat picture and what the implications 
are for the homeland.
    Here at home, domestic terrorism is on the rise. One year ago, 11 
members of the Tree of Life Synagogue in Pittsburgh were gunned down by 
a perpetrator motivated by anti-Semitism and white supremacy. This 
year, congregants at a synagogue in Poway, California and shoppers at a 
Walmart in El Paso, Texas were killed by white supremacists. These 
attacks are increasingly linked to groups and individuals abroad, and 
many are exploiting social media to proliferate violent extremist 
content and incite others around the world.
    Recent reports indicate the National Counterterrorism Center has 
begun to look at domestic terrorism, and last month DHS released its 
first Strategic Framework for Countering Terrorism and Targeted 
Violence. I hope we can hear about their efforts today. For too long 
this issue was not given the attention it deserved, and much more 
remains to be done.
    Finally, I would note that the 2020 elections are just a year away.
    Despite the intelligence community ringing the alarm about foreign 
interference in our elections, the President has refused to accept 
their conclusion that Russia interfered in the 2016 election. His 
refusal to ensure the integrity of our elections by leading on this 
issue from the White House sends the wrong message to our adversaries.
    It also calls into question whether the many agencies working to 
defend our elections are getting the support and resources they need. I 
hope we can speak to that issue as well.
    As I said at the outset, this committee must take its 
responsibility to oversee the Department of Homeland Security 
seriously. The security of the homeland is at stake, and our 
constituents expect no less.

    Chairman Thompson. The Chair now recognizes the Ranking 
Member of the full committee, the gentleman from Alabama, Mr. 
Rogers, for an opening statement.
    Mr. Rogers. Thank you, Mr. Chairman.
    I want to thank all the witnesses for taking the time to be 
here today. I especially want to point out Acting Secretary 
McAleenan, and I am pleased that you came today. Our committee 
deserves to hear from you as the head of the Department of 
Homeland Security.
    As tomorrow is your last day at the Department, I want to 
thank you for your years of service. The 9/11 attacks motivated 
you to serve our country. Your patriotism cannot be questioned.
    I wish you Godspeed in your next adventures.
    Director Wray, Acting Director Travers, and Under Secretary 
Glawe, thank you all for taking the time to come here. I know 
it takes time to prepare for these and it is inconvenient, but 
it helps us do our jobs better.
    Mr. Chairman, today's hearing is important. The threats to 
our homeland are real. Every day terrorists plot to disrupt and 
destroy our way of life.
    It is important that we as Members of this committee 
understand those threats. What we do at this committee on a 
bipartisan basis is vital to protect the homeland.
    Just this weekend, we all were reminded of the evil that 
still seeks to attack our shores. The killing of Abu Bakr al-
Baghdadi was an important victory in the fight against ISIS. 
ISIS is responsible for the public execution of 2 U.S. 
journalists. James Foley and Steven Sotloff were doing their 
jobs, and ISIS killed them both.
    American aid worker Kayla Mueller was kidnapped, tortured, 
and killed by ISIS.
    At least 7 terrorist attacks have been carried out in ISIS' 
name in the West. Who knows how many more attacks Baghdadi was 
planning?
    Yet his death does not end the ISIS threat to our homeland, 
and ISIS is not the only threat that we face. I look forward to 
hearing more about how we are countering the threat from ISIS, 
al-Qaeda, and others who seek to harm us.
    Mr. Chairman, I do need to address the subpoena issue 
before I yield back.
    I am very frustrated at how the events of last week 
unfolded. I am frustrated that you were put in the position 
where you thought issuing subpoenas was necessary. If someone 
gives you their word, Mr. Chairman, they should keep it. I 
would like the same respect.
    We have committee rules that need to be followed, and you 
gave me your word in a colloquy that we would work together on 
subpoenas. None of that happened this time around.
    Just 2 months ago, we jointly issued a subpoena for Jim 
Watkins of 8chan. I have been willing to engage with you in the 
subpoena process. I have been with you every step of the way to 
defend this committee's mission and oversight responsibilities.
    But the rules exist to protect the rights of the Minority 
in this body. You know that from your time in the Minority. 
Rule XII and our agreement that requires us to speak 
beforehand, we sat in these same chairs for a markup last week 
about 24 hours before you issued the subpoenas. You did not say 
a word about them.
    I asked to discuss this issue on Monday this week, and I 
have not heard back from you since.
    You have also accused me of providing the Acting Secretary 
with ``faulty information'' in a letter this weekend. I find 
that implication outrageous.
    A quick conversation with me, an email, or a phone call 
would have prevented all of this. To be very clear, I probably 
would have voted for the subpoenas. You would have seen that if 
you had ever kept your promise to our Members and marked them 
up.
    Our relationship to each other is the only way anything 
gets done around here. We have to set the tone. Going forward, 
I hope that we can conduct the committee's business openly and 
in accordance with the rules.
    I yield back.
    [The statement of Ranking Member Rogers follows:]
                Statement of Ranking Member Mike Rogers
                            October 30, 2019
    I want to thank our witnesses for being here today. Acting 
Secretary McAleenan, I am pleased you came to testify. Our committee 
deserves to hear from you as the head of the Department of Homeland 
Security.
    As tomorrow is your last day at the Department, I want to thank you 
for your years of service.
    The 9/11 attacks motivated you to serve our country. Your 
patriotism cannot be questioned. I wish you Godspeed in your next 
adventures.
    Director Wray, Acting Director Travers, and Under Secretary Glawe, 
thank you all for coming before us. Your input today will help us as 
policy makers confront the global terror threats this Nation faces.
    Mr. Chairman, today's hearing is important. The threats to our 
homeland are real. Every day, terrorists plot to disrupt and destroy 
our way of life. It's important that we as Members of this committee 
understand those threats.
    What we do at this committee on a bipartisan basis is vital to 
protect the homeland. Just this weekend, we all were reminded of the 
evil that still seeks to attack our shores. The killing of Abu-Bakar 
al-Baghdadi was an important victory in the fight against ISIS.
    ISIS is responsible for the public execution of two U.S. 
journalists. James Foley and Steven Sotloff were doing their jobs and 
ISIS killed them. American aid worker Kayla Mueller, was kidnapped, 
tortured, and killed by ISIS.
    At least 7 terrorist attacks have been carried out in ISIS' name in 
the West. Who knows how many more attacks Baghdadi was planning. Yet, 
his death does not end the ISIS threat to our homeland.
    ISIS is not the only threat we face. I look forward to hearing more 
about how we are countering the threat from ISIS, al-Qaeda, and others 
who seek to do us harm.
    Mr. Chairman, I do need to address the subpoena issue before I 
yield back.
    I am frustrated at how the events of the last week unfolded. I am 
frustrated that you were put in the position where you thought issuing 
subpoenas was necessary.
    If someone gives you their word, Mr. Chairman, they need to keep 
it. I would like the same respect. We have committee rules that need to 
be followed. And you gave me your word in a colloquy that we would work 
together on subpoenas.
    None of that happened this time around. Just 2 months ago, we 
jointly issued a subpoena for Jim Watkins of 8Chan. I've been willing 
to engage with you in the subpoena process. I've been with you every 
step of the way to defend this committee's mission and oversight 
responsibilities.
    But the rules exist to protect the rights of the Minority in this 
body. You know that from your time in the Minority. Rule XII and our 
agreement require us to speak beforehand.
    We sat in these same chairs for a markup last week about 24 hours 
before you issued the subpoenas. You didn't say a word about them.
    I asked to discuss this issue with you on Monday and did not hear 
back from you. You also accused me of providing the Acting Secretary 
with ``faulty information'' in a letter over the weekend. I find that 
implication outrageous.
    A quick conversation with me, an email, or a phone call could have 
prevented all of this.
    To be very clear, I probably would have voted for the subpoenas.
    You would have seen that if you'd kept your promise to our Members 
and marked them up. Our relationship with each other is the only way 
anything ever gets done around here. We set the tone. Going forward, I 
hope that we can conduct the committee's business openly and in 
accordance with the rules.

    Chairman Thompson. Thank you very much.
    Let me just say that I hear you, Mr. Ranking Member. We 
have information shared with you and your staff that we 
provided notification of what we were about to do, and----
    Mr. Rogers. That is absolutely false.
    Chairman Thompson. Well, OK. I do not want to get into 
the----
    Mr. Rogers. I do.
    Chairman Thompson. Mechanics of it.
    Well, that is fine, but you are not Chairman. So you are 
going to have to bide your time.
    So apart from that, we will go forward. I am comfortable 
with the fact that we followed the rules of the committee.
    Mr. Rogers. You did not follow the rules of the committee, 
and I have got them here. This is a black letter rule. This is 
not arbitrary. This is not as the Ranking Member.
    Chairman Thompson. All right. I am going to try to be 
deferential to you, and if you want to speak, ask to be 
recognized, and I will recognize you. But I am not going to 
allow you just to blurt out.
    So apart from that, I responded to it accordingly, and the 
rules were changed by Republicans in this committee. At one 
point the Chair and Ranking Member jointly had to agree on 
issuing subpoenas.
    The rules have changed, and I do not have to get your 
approval to sign a subpoena, and that is the rules we operate 
on. We can provide information to you, but at the end of the 
day, it is the Chair's call.
    Mr. Rogers. May I be recognized, Mr. Chairman?
    Chairman Thompson. You are recognized.
    Mr. Rogers. Would you put the rules up on the board for 
people to see?
    I would like to offer this for the record.
    Let me read to you what we say in the rules.
    ``A. Authorization. The power to authorize and issue 
subpoenas is delegated to the Chairman of the full committee as 
provided under Rule 2(m)(3)(A)(i) of Rule XI of the Rules of 
the House of Representatives.''
    ``The Chairman shall notify the Ranking Member prior to 
issuing any subpoena under such authority. To the extent 
practicable, the Chairman shall consult the Ranking Member at 
least 24 hours in advance of a subpoena being issued under such 
authority, excluding Saturdays, Sundays, and Federal 
holidays.''
    That is language that you demanded be put in the rules 
under the last Congress when Mr. McCaul was Chairman. That is 
your requirement.
    I was sitting in the chair with you the day before. We were 
having a very wonderful relationship the day before you issued 
the subpoenas. All you had to do was tell me, ``I think we need 
to send some subpoenas out.''
    I would have said, ``Let's do it.''
    You never said a word to me, and this is your rule.
    Now, 24 hours' notice was not followed. So I am not just 
making this stuff up. You and I have had a great relationship 
for many years. We have been on this committee together for 15 
years. If you were the Ranking Member, you would be upset about 
this.
    I yield back.
    Chairman Thompson. Other Members of the committee are 
reminded that under committee rules opening statements may be 
submitted for the record.
    [The statement of Hon. Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                            October 30, 2019
    Chairman Thompson thank you for this opportunity to receive 
testimony today during this second hearing on the topic of ``Global 
Terrorism: Threats to the Homeland.''
    I am pleased to know that the impasse that existed regarding the 
Acting Secretary of Homeland Security's appearance before the Committee 
today was resolved prior to our meeting.
    I thank today's witnesses:
  <bullet> Honorable Kevin K. McAleenan, Acting Secretary, Department 
        of Homeland Security (DHS);
  <bullet> Honorable Christopher A. Wray, director, Federal Bureau of 
        Investigation (FBI);
  <bullet> Mr. Russell E. Travers, acting director, National 
        Counterterrorism Center (NCTC); and
  <bullet> Honorable David J. Glawe, under secretary, Office of 
        Intelligence and Analysis, DHS (Minority witness).
    This hearing will allow committee Members to question Government 
witnesses about world-wide terrorism threats and examine how the 
Federal Government is addressing those threats to protect the homeland.
    Members of this committee must focus on international terrorism 
threats, including the threats to the homeland resulting from the 
withdrawal of U.S. troops from Syria, and the rise in domestic 
terrorism incidents and recent mass shootings, including those inspired 
by or related to violent extremists with transnational links.
    As a Member of Congress and a senior Member of the Committees on 
Homeland Security and the Judiciary, both of which deal with National 
security issues, I have long been committed and engaged in efforts to 
develop policies that anticipate and respond to new and emerging 
challenges to the security of our Nation and the peace and safety of 
the world.
    I will never forget September 11, 2001, when 2,977 men, women, and 
children were murdered by 19 hijackers--15 of whom were Saudi 
nationals, who took control of commercial aircraft and used them as 
missiles.
    I stood on the East Front steps of the Capitol on September 11, 
2001, along with 150 members of the House of Representatives and sang 
``God Bless America.''
    September 11, 2001, remains a tragedy that defines our Nation's 
history, but the final chapter will be written by those who are charged 
with keeping our Nation and its people safe while preserving the way of 
life that terrorists sought to change.
    I visited the site of the World Trade Center Towers in the 
aftermath of the attacks and grieved over the deaths of so many of our 
men, women, and children.
    I was heartbroken over the lives lost at the Pentagon.
    Since September 11, 2001, it has been a priority of this Nation to 
prevent terrorists, or those who would do Americans harm, from boarding 
flights whether they are domestic or international.
    Over the last 17 years, since enactment of the Homeland Security 
Act, the mission of the Department of Homeland Security has expanded to 
include cyber defense of civilian agency and private-sector networks; 
protecting critical infrastructure in the form of the Nation's electric 
grid, water delivery systems, transportation networks and Federal 
election systems; and, most recently, fighting the international reach 
of white nationalism, white supremacy, and violent acts targeting 
religious minorities living within the United States.
    The struggle against violent extremism began on September 11, 2001, 
but it has extended to this day because of the continued attacks 
against religious freedom, diversity, equal rights for women, and other 
core principles that are foundational to our Nation's expression of a 
democratic republic.
    To succeed in the fight against violent extremism, our Nation's 
leadership--in the Congress and the Executive branch must work 
together.
    I am supportive of efforts to employ effective approaches to 
interdicting, disrupting, and dismantling terrorist networks.
    The previous administration focused on how best to use our Nation's 
soft power and military power for minimizing, eliminating, and 
containing terrorists' threats in the region, with a full understanding 
that over-aggressive actions militarily can pull our country into a 
precipitous military struggle that would be open-ended.
    We must strengthen and protect institutions--like our system of 
Federal elections that is under pressure from Russia and other foreign 
state actors.
    We must also work to deter those in this Nation who may seek to 
gain political advantage in domestic elections by deploying the tactics 
used by Russia in the 2016 election.
    We must support our strategic partners and find new allies who will 
join us in our fight to defeat extremism.
                           separated children
    We must not engage in immigration policy that is an afront to our 
Nation's values and in direct opposition to our National interest.
    As the founder and chair of the Children's Caucus and as a parent 
and grandparent, I cannot think of a situation more devastating than 
having the Government forcibly separate a parent from her child to a 
place unknown, for a fate uncertain, absent from any form of 
communication.
    But for months the official policy of the United States under this 
administration was to pursue a failed immigration policy that supported 
forcible removal of children ranging in age from infants and toddlers 
to adolescents from the care of adults who were fleeing violence, 
oppression, and economic desperation of Guatemala, Honduras, and El 
Salvador.
    Refugees are not criminals or terrorists, they are men, women, and 
children seeking asylum.
    While they hope to receive asylum, none of us expected that they 
would be treated as criminals or that their children would be forcibly 
separated from them.
    But shamefully that is exactly what is happening under this 
administration.
    This failed policy has hurt the United States' standing around the 
world and harmed our strategic interest in our own hemisphere.
    The separation policy was not to stop a terrorist from entering the 
United States, but it was effective in providing terrorist recruitment 
efforts with material that may be used for decades to recruit 
terrorists.
    In an article in the Washington Post the ACLU reports that an 
additional 1,500 migrant children were taken from parents by the Trump 
administration than had been previously reported.
          isis influence on tactics used by white nationalists
    Another misstep by this administration occurred when President 
Trump allowed Turkey to invade Syria to attack the Kurds our strongest 
regional ally working with the United States to stop ISIS.
    The Congress and the Executive branch have worked for well over 5 
years to defeat ISIS, with the aid of a staunch ally in the Kurds.
    The defeat of ISIS is being threatened by an invasion by Turkey in 
the effort to attack Kurds who were essential in defeating ISIS.
    It is reported that hundreds of ISIS fighters have escaped prisons 
where they were being held by Kurdish forces who are in retreat from 
the brutal onslaught of fighting caused by Turkish forces.
    Over 100,000 Kurdish refugees have entered Iraq due to Turkish 
actions making the region unstable.
    Today's witnesses testify that we are in a new era of geopolitical 
conflict.
    It is no longer a matter of governments fielding armies or 
combatants--but the emergence of what is best described as a new form 
of geo-military transnational gang activity.
    The affiliations of violent extremists' individuals and groups are 
loose, with membership remaining fluid--one individual or small group 
may identify with al-Qaeda today, and switch its identification to ISIL 
or al-Shabaab or Boko Haram, depending on which group is perceived to 
be the strongest.
    Added to the challenge of violent extremism is its ability to very 
effectively use the tools of social media to reach far beyond the 
battlefield to influence young people to join their cause.
    These groups require weak governments to enter new territory and 
must sow chaos in these areas to gain power by attacking institutions 
and people regardless of their religious or ethnic traditions to 
destabilize regions.
    They act in the name of religion but institute intra- and inter-
Muslim faith conflicts against individuals and mosques to kill 
thousands.
    Violent extremism is not new--those who struggle to hold onto an 
idyllic past or rigid view of their faith that does not tolerate non-
conformism has plagued societies throughout history.
    Today, white nationalists are targeting domestic places of worship 
for to commit violence.
    The only tools that have succeeded in overcoming violent extremism 
is the commitment of those most affected by their violence to stand 
against them.
                        plight of kurdish forces
    Unfortunately, this administration has diminished the role and the 
capacity of the State Department to keep manageable threats in check, 
while doing the hard work of coalition building so that there would be 
effective burden-sharing for actions taken.
    In the case of ISIS, the boots on the ground needed to defeat them 
had to be Egyptian, Jordanian, Saudi Arabian, Kurdish, Peshmerga with 
the full support of United States resources.
    In the end it was the Kurdish people who ended the ISIS grip on the 
Middle East.
    The Kurds offered a real opportunity to have a strategic partner 
and reliable Muslim ally in the region that the United States could 
call upon, should another ISIS or al-Qaeda threat emerged.
    How can the United States provide a credible bulwark against 
terrorism abroad if we cannot get this administration to get over its 
reticence to speaking before committees in this Congress?
    Incredible as it is, the President was planning in September 2019 
to meet with the Taliban at Camp David, an organization directly linked 
to the September 11, 2001 attacks on our Nation, while at the same time 
he discourages his political appointees and acting department heads to 
participate in this hearing to assess the threats posed by 
international terror groups, which include the Talban.
    I firmly believe that the most important lesson over the last 
decade is that the United States can want many things for the peoples 
of the impacted region, but it is the people in the impacted regions 
who must win these victories for themselves.
                               conclusion
    We must remember that after the battles are all fought and decided 
that the underlying causes for so many willing souls to commit 
themselves to kill and die for ISIS and Boko Haram may be expanding to 
other domestic groups aligned with white nationalist and white 
supremist followers.
    The battle against ISIS was won by creating a strong partnership 
with the indispensable Kurdish forces.
    There is no other group in the region to whom the United States can 
turn who can field fighters to counter the threats posed by ISIS or 
ISIS-like threats that will not require that we place troops in harm's 
way.
    The battle against extremism has entered a new phase in the United 
States.
    The demons of racism, intolerance, and racial supremacy are active 
in engaging people in a hidden struggle in opposition to the diversity 
that is our Nation's best hope for a prosperous future.
    I am a firm supporter of getting to the source of problems that 
come from the complexity of our interconnected world.
    Our Nation needs our best efforts on the behalf of peace and 
security abroad to assure that we have peace and security at home.
    Homeland security and National defense are not and should not be 
made into political issues.
    The first thing that we must address is the leadership of the 
Department of Homeland Security and a need to allow for Senate advice 
and consent to secure the confirmation of the next Secretary of 
Homeland Security.
                    history of middle east failures
    Members of this committee and the witnesses before us today 
understand that the fight against violent extremism is far from over 
and the actions by this administration that has led to betrayal of a 
valued ally can lead to erosion of the peace found at the apparent 
demise of ISIS.
    Past misdeeds in the region have led us to the insecurity that 
exists in that region.
    Part of the struggle for peace we face today is a direct 
consequence of invading Iraq without provocation or reason.
    Paraphrasing Secretary of State Colin Powell's advice to President 
George W. Bush: ``if we break it--we will own it.''
    He was warning President Bush about the folly of entering a war of 
choice with Iraq and the complexities of that region of the world that 
could spiral out of control.
    I can offer a similar warning to the current President.
    If you break the special relationship that the United States has 
with the Kurdish people in joining to fight and defeat ISIS, then 
future wars that cost American lives and treasure in that region are at 
your feet.
    Our work as Members of this committee has for well over a decade, 
focused on potential links between international terror groups and 
persons residing within the United States.
    Today, our focus remains the same, but the domestic targets of 
international terror have expanded to include members of white 
nationalist groups, neo-Nazi, and white supremist adherents.
                  threats posed by biological weapons
    I would offer that we must keep an open mind and vigilant stance 
when considering threats posed by biologics.
    Over the past 100 years, more than 500 million people died of 
infectious diseases.
    A percentage of these deaths were due to the deliberate release of 
pathogens or toxins, mostly by the Japanese during their attacks on 
China during the Second World War.
    There are 2 international treaties that outlawed biological 
weapons, but they have failed to stop countries from conducting 
offensive bio-weapons research and large-scale production of biological 
weapons.
    There are legitimate fears that modified pathogens could constitute 
devastating agents for biological warfare that may target people, 
agriculture, or animals with disastrous consequences.
    The ability of the United States to remain actively engaged in 
policing this area of National defense is complicated by this 
administration anti-trade and NATO policies that place the United 
States at odds with long-time military and economic allies.
    The Nation is at its greatest peril due to the lack of leadership 
within key components within the Department of Homeland Security.
    We must do all that we can to support the work of men and women on 
the front lines of defending our Nation and our standing in the world.
    I thank today's witnesses and look forward to their testimony.
    Thank you.

    Chairman Thompson. I welcome our panel of witnesses. Our 
first witness is Acting Secretary of Homeland Security Kevin 
McAleenan, who has served in that role since April 2019.
    Next, we have Director of the Federal Bureau of 
Investigation Christopher Wray. Director Wray has served in his 
role since 2017.
    Next, we are having Acting Director of National 
Counterterrorism Center Russell Travers, who has served in the 
role since August 2019.
    Last, we have David Glawe, who has served as the under 
secretary for intelligence and analysis at the Department of 
Homeland Security since 2017.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I will now ask each witness to summarize his or her 
statement for 5 minutes, beginning with Acting Secretary 
McAleenan.

    STATEMENT OF KEVIN K. McALEENAN, ACTING SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary McAleenan. Good morning, Chairman Thompson, 
Ranking Member Rogers, Members of the committee.
    I appear before you today to testify about the Department 
of Homeland Security's vital National security mission and our 
efforts to confront today's emerging world-wide threats.
    The men and women of DHS are dedicated professionals who 
work to safeguard the American people, our homeland, and our 
values. They represent some of the best of the country, and I 
appreciate the continued support this committee shows for them 
and the work they do each day.
    The Department of Homeland Security, as you know, was 
created in the wake of the 9/11 attacks and was charged with 
coordinating and unifying the Nation's homeland security 
enterprise. Our mission is multi-dimensional built on the 5 
pillars of prevention, protection, mitigation, response, and 
recovery.
    I would like to focus on 5 significant trends we see in the 
threat landscape and the efforts DHS is executing to combat 
them, specifically the threats we face from foreign terrorist 
organizations, domestic terrorism and targeted violence, 
transnational criminal organizations, and from malicious cyber 
activities and actors, and nation-state-level challenges to our 
interests.
    DHS was formed, first and foremost, to counter the threat 
of international terrorism and has achieved significant 
successes in mitigating the ability of foreign terrorist 
organizations to present a threat to the homeland since 9/11.
    We have achieved these successes by utilizing a range of 
tools, particularly our world-class vetting programs and 
capabilities to identify and detect foreign terrorist actors 
and prevent them from entering the country.
    In cooperation with the Federal Bureau of Investigation, 
the intelligence community, the Department of State, Department 
of Defense, and others, we prevent thousands of potential 
terrorists from entering or traveling to the United States each 
year through these efforts.
    While we have enhanced our security greatly, the threat of 
foreign terrorist organizations remains a significant concern. 
Whether through direction or inspiration, these groups seek to 
spur disaffected individuals to violence, encouraging them to 
strike the heart of our Nation and attack the unity of our 
vibrant and diverse society.
    ISIS, al-Qaeda, Lebanese Hezbollah, and their global 
networks represent significant and persistent security threats 
to the United States. We must work to ensure aggressively 
across Government and with our international partners that we 
are doing everything we can to pressure and disrupt these 
organizations and their efforts to target the United States 
homeland.
    One of the most significant emerging threats over the past 
years has been domestic actors' adoption of terrorist 
techniques to inspire and direct individuals often via the 
internet to carry out acts of terrorism and targeted violence.
    Of specific concern has been an increase in racially- and 
ethnically-motivated violence, particularly the threat posed by 
violent white supremacist extremists. Last month, DHS 
introduced a new strategic framework for countering terrorism 
and targeted violence, which explains how we will adapt the 
tools and expertise we have used to protect the country from 
foreign terrorist organizations to address the evolving 
challenges of today.
    The prevalent trend of Americans driven by violent 
extremist ideologies or personal grievances to commit acts of 
terrorism or targeted violence with little apparent warning 
creates a unique challenge to law enforcement investigation 
tools. This framework explicitly recognizes the changing threat 
landscape and calls for the whole-of-community efforts to 
enhance prevention and resilience, identify individuals who are 
on a pathway to violence, and to build off-ramps and 
intervention points.
    Importantly, the framework calls out the need to focus on 
and protect our most vulnerable populations, particularly our 
youth. It is intentionally forward-looking, and its 
understanding of technology's role as a factor that can 
exacerbate threats.
    The next major threat category in the DHS mission space is 
presented by powerful and violent transnational criminal 
organizations, or TCOs. These TCOs have diversified their 
multi-challenger businesses, profiting from drug and human 
smuggling and the movement of weapons and money.
    These TCOs organize and incentivize illicit mass migration 
and engage in human trafficking. Their violent criminal 
activity, including competition for territory, creates security 
risks at our border and throughout the hemisphere.
    DHS, on the cyber side, DHS works with the Government 
partners and the private sector to enhance our Nation's overall 
defensive posture against malicious cyber activity, protecting 
the dot-gov networks and our critical infrastructure against 
nation-state actors and cyber criminals.
    In August 2019, DHS's Cyber and Infrastructure Security 
Agency, or CISA, published its strategic intent: Defend today, 
secure tomorrow. In this document CISA laid out its director's 
operational priorities, calling out the threat from China, and 
highlighting our need to focus on supply chain security, 5G 
technology, election security, Federal cybersecurity, and 
industrial control systems.
    As acknowledged within the document, China presents the 
most pressing long-term strategic risk to the United States in 
these areas, and CISA is looking to reduce the risk of Chinese 
supply chain compromise, whether through 5G or other 
technologies.
    The foreign intelligence threat faced by DHS in today's 
global environment has also quickly evolved into one of the 
most significant threats to our country. The leading state 
intelligence threat to the U.S. interest will likely continue 
to be China, Russia, Iran, and North Korea, based on their 
capabilities, intent, and broad operational scope.
    In conclusion, every day the 240,000 men and women of the 
Department of Homeland Security work to ensure the safety and 
security of all Americans and are dedicated to building a 
brighter and more secure Nation. They deserve our support and 
our thanks.
    I continue to appreciate their efforts on behalf of the 
American people. It has been an honor to serve as their acting 
secretary and as commissioner of CBP.
    In closing, I want to note that the symmetry in this 
hearing, my 27th overall and ninth before this committee and 
its subcommittees, my first hearing was in front of then-
Subcommittee Chairwoman Sheila Jackson Lee, and both Chairman 
Thompson and then-Ranking Member King attended.
    So I think it is fitting that I close this stage of my 
Government career in front of this committee again.
    I want to thank you, Chairman Thompson, Ranking Member 
Rogers, distinguished Members of the committee for the support 
you and your staff have shown the Department of Homeland 
Security and our men and women in providing the tools we need 
to adapt to the changing landscape.
    I look forward to your questions.
    [The prepared statement of Secretary McAleenan follows:]
                Prepared Statement of Kevin K. McAleenan
                            October 30, 2019
                              introduction
    Chairman Thompson, Ranking Member Rogers, and distinguished Members 
of the committee, it is my honor to appear before you today to testify 
about the Department of Homeland Security's (DHS) vital National 
security mission and explain how we are implementing policies to 
confront today's emerging world-wide threats.
    Let me first say that the men and women of DHS are exceptional and 
dedicated professionals who work tirelessly to protect the homeland 
from foreign and domestic threats. Their efforts play a vital role in 
ensuring that all Americans can be confident in their homes, schools, 
and houses of worship, as well as in public spaces. They represent the 
core of our Department and the best of our country. I appreciate your 
continued support for them and the various missions they undertake each 
day.
           the evolving threat environment since 9/11 attacks
    As you know, our Department was created in the wake of the 
devastating 9/11 attacks and was charged with coordinating and unifying 
the Nation's homeland security enterprise. Our mission is multi-
dimensional, built on the 5 pillars of prevention, protection, 
mitigation, response, and recovery. It is a calling that has been 
heeded by thousands and a mission that has been achieved successfully 
for nearly 2 decades.
    Although many years have passed since the pivotal moment that gave 
us a permanent mission, we have not forgotten that day or relaxed at 
our post. We cannot afford to, especially with the new threats that are 
arising throughout the world.
    Today, I will share with you 7 major shifts I see in the threat 
landscape since 9/11, and the efforts DHS is executing upon to combat 
them. Specifically, I would like to speak about the threats we face 
from foreign terrorism, domestic terrorism, malicious cyber activities 
and the illicit use of emerging technologies, counterintelligence and 
foreign influence within the homeland, and the broad topic of the 
illicit movement of people and goods, particularly in the Western 
Hemisphere, which supports human smuggling and human trafficking, and 
global illicit drug sales and distribution.
    Underpinning nearly all these threat vectors is an increasing rise 
in adversarial engagement from nation-states such as China, Russia, and 
Iran. I would like to be clear at the outset that we face today nation-
state-level challenges to our interests and global democratic 
principles of a degree that we have not faced in many, many years. 
These nation-state adversaries seek to undermine, destabilize, 
discredit, and damage the United States through dynamic and multi-
dimensional strategies that target not only our physical assets, but 
also our social cohesion and our confidence in our very way of life.
                    foreign terrorist organizations
    That said, the primary reason DHS was formed was to counter the 
threat of terrorism. Therefore, the first issue I want to address in 
the threat landscape is the threat posed by Foreign Terrorist 
Organizations (FTOs), which remain a core priority of DHS's 
counterterrorism efforts.
    We have had significant successes mitigating the foreign terrorist 
threat here at home since 9/11 and continue to make substantial 
progress in our ability to detect, prevent, protect against, and 
mitigate the threats that these groups pose. We have achieved these 
successes by utilizing a range of tools to identify and detect foreign 
terrorist actors and prevent them from entering the country. To ensure 
that foreign terrorist actors cannot enter through designated ports of 
entry or exploit the immigration system, the Department maintains 
numerous vetting programs and capabilities. We prevent thousands of 
terrorist-watchlisted individuals from entering or traveling to the 
United States each year through these efforts, in cooperation with the 
Department of State, Federal Bureau of Investigation (FBI), and other 
agencies. Additionally, DHS, particularly through Immigration and 
Customs Enforcement (ICE) Homeland Security Investigations (HSI) and 
U.S. Customs and Border Protection (CBP), represents the largest 
Federal contributor of personnel, outside of the FBI, to the Joint 
Terrorism Task Forces (JTTFs). At the JTTFs, DHS officers and agents 
are engaged in a majority of counterterrorism investigations every year 
and employ their unique authorities and capabilities every day to 
identify, disrupt, and dismantle threats associated with foreign 
terrorist organizations. Furthermore, our DHS component agencies patrol 
and rigorously enforce land, air, and sea borders, offering a critical 
final line of defense.
    However, in spite of these successes, the threat of foreign 
terrorist organizations remains a significant concern. Whether through 
direction or inspiration, these groups seek to spur our youth and our 
disaffected to violence--encouraging them to strike the heart of our 
Nation and attack the unity of our vibrant, diverse society. ISIS, al-
Qaeda, Lebanese Hezbollah, returning foreign terrorist fighters, and 
those still in prison in theater represent significant, persistent, and 
long-term National security threats to the United States.
    Since 2011, the situation in Iraq and Syria has marked one of the 
most significant challenges to our ability to track and combat foreign 
terrorist actors. As many of you know, failed states and lawless areas 
represent opportunities for the restructuring, rearmament, 
consolidation, and emergence of FTOs. These organizations may target 
our interests and aspire to target us here at home. Given the 
opportunity to identify and control safe havens, they have proven 
capable at directing such attacks beyond the boundaries of a geographic 
region.
    We must ensure that we continue to work aggressively across our 
Government, and with our international partners, to pressure and 
disrupt ISIS and other terrorist organizations targeting the United 
States homeland. DHS will continue to work closely with our 
international partners in the European Union and around the world to 
ensure that we are leveraging our expertise in screening, vetting, and 
border security--particularly in areas known to be vulnerable to large 
influxes of migration from this region, as these locations offer 
significant opportunities for exploitation by our FTO adversaries--to 
enhance our partners' capabilities.
    We need not only focus on detained ISIS fighters, but also on 
gaining a better understanding of those individuals who have been 
forced into displaced persons camps within the region and subsequently 
potentially subjected to attempts from hardened ISIS fighters or 
sympathizers to radicalize them to violence. Furthermore, we must 
recognize that the threat from women and teenagers radicalized to 
violence is potentially as critical today as that from men. We must 
adapt to this reality.
 dhs strategic framework for countering terrorism and targeted violence
    Perhaps one of the most significant evolutions over the past few 
years has been domestic actors' adoption of FTO techniques to inspire 
individuals via the internet to carry out acts of terrorism and 
targeted violence. Of specific concern has been an increase in racially 
and ethnically motivated violence. In September, DHS introduced a new 
Strategic Framework for Countering Terrorism and Targeted Violence, 
which explains how we will use the tools and expertise that have 
protected the country from foreign terrorist organizations to address 
the evolving challenges of today. The Strategic Framework is 
intentionally forward-looking in its understanding of technology's role 
as a factor that can exacerbate problems, but also one that can provide 
new solutions to combat the threats we confront. We have begun the 
implementation of the Framework and will publish a public Action Plan 
that captures how DHS is working alongside our interagency partners to 
see this vision to fruition by the end of the calendar year.
    The framework is designed to assess DHS's past and provide a 
guidepost to its future. Today, we face a growing threat from domestic 
actors inspired by violent extremist ideologies. The prevalent trend of 
Americans driven by violent extremist ideologies or personal grievances 
to commit acts of terrorism, mass violence, or targeted violence with 
little apparent warning creates a unique challenge to traditional law 
enforcement and investigation methods. We must address and prevent the 
mass attacks that have too frequently struck our houses of worship, our 
schools, our workplaces, our festivals, and our shopping spaces. The 
Framework lays out a comprehensive approach to enhancing our prevention 
capabilities here at home in an age of complex and multidimensional 
threats, regardless of ideology. Importantly, the framework explicitly 
recognizes the need to focus on and protect our most vulnerable 
populations, particularly our youth.
    The Strategic Framework also introduces a new annual assessment 
that will examine the state of the threat to the Nation. This new 
assessment will help to inform all levels of government and the broader 
public about the various threats the homeland faces each year. Within 
this report we will analyze the threat of white supremacist violent 
extremism, one type of racially and ethnically motivated violent 
extremism.
          acts of ``domestic terrorism'' and targeted violence
    There is no moral ambiguity on this issue. Racially- and 
ethnically-motivated violent extremism, including violent white 
supremacy extremism, is one the most potent forces driving acts of 
domestic terrorism. Lone attackers, as opposed to cells or 
organizations, generally perpetrate these attacks motivated by this 
ideology, but they are also part of a broader movement. White 
supremacist violent extremists, for example, have adopted an 
increasingly transnational outlook in recent years, largely driven by 
technological forces. Similar to how ISIS inspired and connected with 
potential radical Islamist terrorists, white supremacist violent 
extremists connect with like-minded individuals on-line.
    At the Federal level, the FBI and the Department of Justice (DOJ) 
are the U.S. Government (USG) leads for investigating violent extremism 
and acts of terrorism and prosecuting related individuals, while DHS 
informs, equips, and trains our homeland security partners to enhance 
their prevention and protection capabilities. DHS's primary 
responsibilities include: (1) Informing, equipping, and training State, 
local, Tribal, and territorial governments, civil society, and the 
private sector to take preventative and protective actions. (2) In 
conjunction with the FBI, DHS produces joint strategic products 
identifying trends as well as findings and lessons learned from acts of 
domestic terrorism.
    To this end, in April, we announced the creation of the Office of 
Targeted Violence and Terrorism Prevention (TVTP)--the primary entity 
responsible for driving the prevention mission. TVTP is a program 
office that uses awareness briefings, strategic engagements, technical 
assistance, information sharing and grants to catalyze the formation 
and expansion of locally-based prevention efforts. TVTP also looks 
across the Department to identify complementary efforts that amplify 
this work by addressing gaps through the creation and deployment of 
prevention programs that support these State and local efforts. To 
accomplish this, TVTP works alongside the United States Secret 
Service's (USSS), National Threat Assessment Center (NTAC), 
Cybersecurity Infrastructure Security Agency (CISA), and Federal 
Emergency Management Agency (FEMA) to ensure all of DHS's office and 
components have the necessary tools to prevent domestic terrorism and 
targeted violence.
            weapons of mass destruction and health security
    The Department fully concurs with the Director of National 
Intelligence (DNI) that the weapons of mass destruction (WMD) threat 
continues to rise. Specific to the homeland, the period of sustained 
chemical weapons use on battlefields in the Middle East (Syria and 
Iraq), coupled with the ever-expanding on-line proliferation of related 
expertise, could inspire chemical attacks against U.S. interests at 
home and abroad. These attacks in Syria and Iraq, along with the very 
public Russian Novichok use in the U.K. and North Korean VX use in 
Malaysia, have flouted international norms against the use of chemical 
weapons, raising the risk of more brazen attacks in the future.
    Furthermore, the increased diversity in biological and health-
related threats is concerning. Advances in biotechnology are changing 
the threat agent landscape, and the decreasing cost and access of dual-
use technologies and materials will inevitably expand the threat actor 
landscape as well.
    These issues, coupled with the already-complex risks from emerging 
infectious diseases, and food, agricultural, and veterinary threats, 
require an elevated integrator and broader all-hazards approach, 
necessitating organizational change. To this end, in December 2018, the 
passage of Pub. L. 115-387, the Countering Weapons of Mass Destruction 
Act of 2018 finalized the creation of DHS's Office of Countering 
Weapons of Mass Destruction (CWMD)--the primary entity responsible for 
driving the CWMD planning, detection, and protection missions and the 
Department's health security. We are actively working to overcome the 
routine challenges of organizational transition as we build out this 
new office.
    The office is also the Department lead on CWMD issues and works 
with interagency partners including the Assistant Secretary for 
Preparedness and Response at the Department of Health and Human 
Services, the National Nuclear Security Agency at the Department of 
Energy, and Special Operations Command at the Department of Defense to 
establish policy and operational plans to keep the United States secure 
from Chemical, Biological, Radiological, and Nuclear and other emerging 
threats.
                cyber threats and emerging technologies
Cyber Threats
    DHS, our government partners, and the private sector are all 
engaging in a strategic and unified approach toward improving our 
Nation's overall defensive posture against malicious cyber activity. In 
2018, the Department published the DHS Cybersecurity Strategy, 
outlining a strategic framework to execute our cybersecurity 
responsibilities during the next 5 years. The National Cyber Strategy, 
released later that year, reiterates the need to acquire U.S. 
technology and capture U.S. data, communications, and intelligence 
property to support its goal of collaboration being the world leader in 
technology development and strengthens the Government's commitment to 
work in partnership with industry to combat cyber threats and secure 
our critical infrastructure. Together, the National Cyber Strategy and 
DHS Cybersecurity Strategy guide DHS's cybersecurity efforts.
    DHS is working with the U.S. Coast Guard to build out its 
cybersecurity capacity in order to protect U.S. ports and shipping as 
well as implement standards at those foreign ports that have a U.S. 
National security interest. The U.S. Coast Guard is providing written 
guidance to conduct cyber risk assessments of these ports.
    The Cyberecurity and Infrastructure Security Agency (CISA), 
operates at the intersection of the Federal Government, State and local 
governments, the private sector, international partners, law 
enforcement, intelligence, and defense communities. Division N of Pub. 
L. 114-113, the Cybersecurity Act of 2015, established DHS as the 
Federal Government's central hub for the sharing of cyber threat 
indicators and defensive measures. Additionally, Pub. L. 113-283, the 
Federal Information Security Modernization Act of 2014, provides DHS 
with key responsibilities for protecting Federal networks. CISA works 
to enhance information sharing with partners and stakeholders, 
domestically and internationally, to help critical infrastructure 
entities and Government agencies strengthen their cyber posture.
    By bringing together all levels of government, the private sector, 
international partners, and the public, CISA strengthens the resilience 
of our Nation's critical infrastructure and enables collective defense 
against cybersecurity risks. Specifically, CISA is working through the 
Critical Infrastructure Partnership Advisory Council (CIPAC) structure 
to engage with private-sector stakeholders, especially the 
Communications and Information Technology Sector Coordinating Councils 
and the Enduring Security Framework Operations Working Group to 
collaborate on the posed by supply chain vulnerabilities and the 
adoption of 5G technologies. DHS is also leading, in coordination with 
the IT and Communications Sector Coordination Councils, the ICT Supply 
Chain Risk Management Task Force with the critical mission of 
identifying and developing consensus strategies that enhance ICT Supply 
Chain security. The ICT SCRM Task Force's participants include 20 
Federal partners, as well as 40 of the largest companies in the 
Information Technology and Communications sectors.
    Cyber threats remain one of the most significant strategic risks 
for the United States, threatening our National security, economic 
prosperity, and public health and safety. Nation-states, cyber 
criminals, and criminal hackers, are increasing the frequency and 
sophistication of their malicious cyber activities. In a 2018 report, 
Foreign Economic Espionage in Cyberspace, the United States' National 
Counterintelligence and Security Center stated, ``[w]e anticipate that 
China, Russia, and Iran will remain aggressive and capable collectors 
of sensitive U.S. economic information and technologies, particularly 
in cyber space.'' Strategic competitors such as China, Russia, and Iran 
are developing and using advanced cyber capabilities in attempts to 
undermine critical infrastructure, target our livelihoods and 
innovation, steal our National security secrets, and threaten our 
democratic institutions.
    Vulnerabilities in supply chains--either developed intentionally 
for malicious intent or unintentionally through poor security 
practices--can enable data and intellectual property theft, loss of 
confidence in the integrity of the system, or exploitation to cause 
system and network failure. Increasingly, these vulnerabilities can be 
viewed as a principal route into our most critical systems and 
technologies, and we are increasingly concerned with aggressive actions 
by potential foreign adversaries.
5G Technology
    Ultimately, 5G technology may enable significant advances in our 
society and the prosperity of the United States, but will also usher in 
an age of significantly greater cyber vulnerability. Advances in 5G 
technology, the internet of things (IoT), and other emerging 
technologies are driving significant transformation in how we 
communicate, operate our critical infrastructure, and conduct economic 
activity. This represents the next generation of networks that will 
enhance the bandwidth, capacity, and reliability of mobile 
communications. The United States and South Korea launched 5G on a 
limited basis at the end of 2018, and more countries are rolling it out 
this year. According to the Global System for Mobile Alliance (GSMA), 
5.1 billion people, or 67 percent of the global population, are 
subscribed to mobile services. It is expected that 5G networks will 
cover 2.7 billion people, or 40 percent of the global population, by 
2025.
    The first generation of wireless telecommunications networks in the 
United States was deployed in 1982, and its capabilities were limited 
to basic voice communications. Later generations added capabilities 
like: Text, picture, and multimedia messaging; Global Positioning 
System (GPS) location; video conferencing; and multi-media streaming. 
5G networks will support greater capacity for tens of billions of 
sensor and IoT smart devices, and ultra-low latency necessary for 
highly reliable, critical communications. According to GSMA, between 
2018 and 2025, the number of global IoT connections will triple to 25 
billion. Autonomous vehicles, critical manufacturing, medical doctors 
practicing remote surgery, and a smart electric grid represent only a 
small fraction of the critical technologies and economic activity that 
5G will support. These dramatic advancements in telecommunications and 
technologies associated with them come with increased risk to the 
Nation's critical infrastructure.
    Risks to mobile communications generally include such activities as 
call interception and monitoring, user location tracking, cyber actors 
seeking financial gain through banking fraud, social engineering, 
ransomware, identity theft, or theft of the device, services, or any 
sensitive data. Integrating 5G into current wireless networks may 
convey existing vulnerabilities and impact 5G network security. 
Capabilities of 5G will allow for exponentially more data transmission 
across networks. Data on 5G networks will flow through interconnected 
cellular towers, small cells, and mobile devices and may provide 
malicious actors additional vectors to intercept, manipulate, or 
destroy critical data. Due to the nature of 5G network architecture, 
many more pieces of cellular equipment will be present in the physical 
world.
    The National Cyber Strategy, released later that year, also 
reiterates the need to acquire U.S. technology and capture U.S. data, 
communications, and intelligence property to support its goal of 
collaboration being the world leader in technology development and 
strengthens the Government's commitment to work in partnership with 
industry to combat cyber threats and secure our critical 
infrastructure. Together, the National Cyber Strategy and DHS 
Cybersecurity Strategy guide DHS's cybersecurity efforts to prioritize 
the development of secure and reliable advanced information technology 
risks posed by supply chain vulnerabilities and the adoption of 5G 
technologies. To manage and address the risks posed by 5G, the U.S. 
Government is taking an interagency approach, led by the White House. 
National Security Council (NSC) Cybersecurity Directorate and the 
National Economic Council co-lead a regular 5G interagency Policy 
Coordination Committee (PCC) through the National Security Presidential 
Memoranda (NSPM)--4 process. DHS participates in these meetings and 
they provide an excellent opportunity to discuss and come to decisions 
on key G5 issues.
Unmanned Aircraft Systems
    Criminal entities and terrorist organizations continue to promote 
and use unmanned aircraft systems (UAS) for illicit activity in order 
to support surveillance, smuggling, and harassment and, at times, use 
as weapons. The UAS threat to critical infrastructure and security 
activities will likely increase soon as the number of UAS introduced 
into the National airspace continues to increase, and the use of 
technical means to detect, track, and disrupt malicious UAS operations 
will likely remain limited. In order to combat the rising threat of 
UAS, DHS conducts counter aircraft system (CUAS) operations authorized 
by law, to disrupt malicious use of UAS at facilities or DHS supported 
activities within the United States, and as designated by the Secretary 
of DHS.
                      supporting election security
    Leading up to the 2018 midterms, DHS worked together with Federal 
partners, State and local election officials, and private-sector 
vendors to provide information and capabilities to enable them to 
better defend their election infrastructure. This partnership led to a 
successful model that we aim to continue and improve upon in the 2020 
election cycle.
    To date, because of our holistic USG-wide response to this threat, 
there is no evidence that any identified activities of a foreign 
government or foreign agent had a material impact on the integrity or 
security of election infrastructure or political or campaign 
infrastructure used in the 2018 midterm elections for the U.S. 
Congress. We must be uniform and clear in our communication of this 
fact to the American Public.
    We must make the important distinction between malign foreign 
attempts to influence U.S. public opinion and actual incidents attacks 
on activities targeting/against our election infrastructure. While we 
see many examples of the first each every day--Russia and other foreign 
countries, including China and Iran, conduct malign influence 
activities and messaging campaigns targeting the United States to 
advance their strategic interests--there is no evidence of successful 
exploitation of our election or political campaign infrastructure. We 
must combat both election infrastructure threats and malign foreign 
influence campaigns holistically as a U.S. Government and U.S. society, 
building resistance and resilience to attempts by foreign nation-state 
adversaries to pull at the seams of our diverse social fabric and sow 
discord in our political process.
    DHS is holistically dedicated to the security of our electoral 
process as it is a vital National interest. We regularly coordinate 
with the intelligence community and law enforcement partners, as well 
as relevant private-sector entities, to assess the scale and scope of 
malicious cyber activity potentially targeting the U.S. election 
infrastructure. It is our goal to ensure the American people enter the 
voting booth with the confidence that their vote counts and is counted 
correctly.
    In advance of the 2020 Federal Election, DHS's Countering Foreign 
Influence Task Force (CFITF) is expanding on both operational support 
activities and public awareness and engagement. DHS established the 
CFITF to facilitate public awareness, partner engagement, and 
information sharing as it relates to malign foreign influence threats, 
including those targeting United States elections. These efforts are 
done in close coordination with and support to the FBI and its malign 
influence efforts. The CFITF is growing the number of participants, 
subsequently increasing lines of communication between the platforms 
being exploited and the victims of that exploitation.
    CISA, in coordination with our interagency partners, is also 
helping Americans recognize and avoid foreign disinformation operations 
impacting our elections through innovative efforts like the 
#WarOnPineapple campaign. The #WarOnPineapple is aimed at educating 
Americans on the use of malign foreign influence campaign tactics by 
highlighting a topic that citizens can easily relate to: The 
divisiveness of pineapples on pizza. Through this work, CISA is helping 
Americans recognize and avoid foreign disinformation operations 
impacting homeland security, including our elections.
                          counterintelligence
    The foreign intelligence threat faced by DHS in today's global 
environment has quickly evolved into one of the most significant 
threats to our country in decades. Although the leading state 
intelligence threats to U.S. interests will likely continue to be 
China, Russia, Iran, and North Korea--based on their capabilities, 
intent, and broad operational scope, other Foreign Intelligence 
Entities (FIE) in Latin America, South Asia, the Middle East, and East 
Asia pose local and regional intelligence threats to U.S. interests 
which cannot be ignored. Additionally, non-state actors, including 
international terrorist organizations, transnational criminal 
organizations (TCOs), drug trafficking organizations (DTOs), and 
foreign cyber actors will likely continue to employ and improve their 
intelligence collection capabilities using human, technical, and cyber 
means in efforts to obtain and exploit sensitive DHS information and 
National security programs.
    As China's intelligence services continue to grow, they utilize and 
imbed into America's academic and scientific communities and pose a 
significant risk to economic and National security through technology 
transfer via foreign direct investment, venture capital investments, 
joint ventures, licensing agreements, cyber espionage, traditional 
espionage, and Talent Programs. The Chinese Government's Talent 
Programs are aimed at targeting and recruiting overseas Chinese and 
foreign experts, among them academics and business entrepreneurs, in 
strategic sectors to teach and work in China. Through its various 
Talent Programs, China has targeted foreign experts in the United 
States in order to acquire technology and know-how that is directly 
aligned with China's Five-Year Plans, science and technology, economic, 
and military modernization efforts. U.S. academic institutions are at 
particularly risk of exploitation due to their openness and 
collaborative research approaches.
    Chinese citizens who come to the United States to study or teach at 
U.S. academic institutions also present a significant risk of 
technology transfer. While they competitively develop their science and 
technology workforce, we must continue to lead and out-produce China in 
this area. The most immediate threats have far-reaching and enduring 
implications to U.S. National security: Influence operations, critical 
infrastructure, supply chain, as well as traditional and economic 
espionage. Developing technologies and artificial intelligence (AI) 
systems will influence the way we engage in National security in the 
future. It is essential that we lead the global AI race to ensure that 
we are ready for National security threats of the future.
      illegal cross-border movements of people and goods: illegal 
immigration, human trafficking, human smuggling, and the global illicit 
                               drug trade
Illegal Immigration
    This year, our Nation has experienced an unprecedented and 
unsustainable humanitarian and National security crisis at the 
Southwest Border. This crisis has presented unique challenges that our 
Department has never seen. Nevertheless, this administration has taken 
extraordinary and successful steps to secure our borders and restore 
integrity to our immigration system.
    As you all know, the scale of illegal immigration encountered by 
DHS this year, including the number of families and children crossing 
the border, has been unparalleled in recent history. The increased 
shift to more families and children and the overwhelming numbers 
profoundly affect our ability to patrol the border, ensure strong 
interior enforcement, and diminishes our ability to prevent deadly 
illicit drugs and dangerous people from entering our country. It also 
detracts from our ability to facilitate lawful trade and travel.
    Every day, DHS employees from CBP and ICE work to reduce the 
illegal crossings into our country. CBP focuses primarily on enforcing 
U.S. immigration laws at and between the ports of entry while ICE is 
charged with enforcing immigration laws in the interior of the country. 
DHS is receiving international cooperation. Mexico and our Central 
American partners are also stepping up to help stop the flow of illegal 
migrants. Further, with the help of the U.S. military, CBP is on track 
to build 450-500 new miles of border wall by the end of 2020.
    In the case of the foreign terrorist threat, border security is a 
zero-sum challenge. Similarly, with an on-going opioid epidemic in our 
country that has led to staggering numbers of casualties through 
overdose and violence, each drug shipment that illegally crosses our 
border is, in effect, responsible for the loss of American lives. 
Consequently, the challenge of illegal immigration--which diverts our 
resources along the border from our critical counterterrorism and 
counter narcotics missions--represents a critical National security 
concern.
    We must continue to recognize the zero-sum nature of border 
security and address the significant increases in mass migration. This 
involves not just building the border wall that will conserve 
overstretched law enforcement resources, but also fixing our 
immigration laws that serve as ``pull factors'' for illegal immigration 
and working with our foreign partners to alleviate the ``push factors'' 
in Latin American countries, particularly within El Salvador, 
Guatemala, and Honduras, that cause mass departures in the first place.
Global Illicit Drug Trade
    The United States is in the midst of an opioid epidemic that is 
being fueled by the smuggling and trafficking of heroin, illicit 
fentanyl, fentanyl analogues, and other synthetic opioids. Based on 
investigative efforts, United States law enforcement has identified 
China and Mexico as primary sources of the U.S. illicit fentanyl 
threat.
    Due to President Trump's engagement with Chinese President Xi, 
China added fentanyl to the country's list of controlled substances, 
effective May 1, 2019. Chinese fentanyl being shipped directly to the 
United States decreased significantly. Illicit fentanyl, fentanyl 
analogues, and their immediate precursors are most often produced in 
China. From China, these substances are shipped primarily through 
international mail or express consignment carriers (such as DHL, FedEx, 
or UPS) directly to the United States or, alternatively, shipped 
directly to transnational criminal organizations (TCOs) in Mexico.
    Since May 1, 2019 it appears opioid traffickers have started 
altering their methods by either trafficking non-fentanyl opioids such 
as U-48800 to the United States as it is not scheduled in China, which 
is illegally shipped directly to the United States through the 
international mail or consignment carriers. Criminals and criminal 
organizations are also sending pre-precursor chemicals such as 4-AP to 
Mexico where Mexican cartels are synthesizing their own fentanyl from 
these chemicals. While the direct shipment of Chinese fentanyl to the 
United States has dramatically dropped, China is still ultimately 
responsible for most of the fentanyl reaching the United States due to 
its supply of pre-precursors to transnational criminal organizations in 
Mexico.
    Once in the Western Hemisphere, fentanyl or fentanyl analogues are 
prepared and mixed with other narcotics and fillers and/or pressed into 
pill form, and then moved to the illicit U.S. market where demand for 
prescription opioids and heroin remain at epidemic levels. In some 
cases, regional distributors smuggle industrial pill presses and 
components into the United States to operate illicit fentanyl tableting 
operations domestically.
    Mexican cartels have seized upon the profit potential of illicit 
synthetic opioids and intend to grow their share of this illicit 
market. Given its low cost coupled with high potency, one kilogram of 
fentanyl can generate almost $10 million in revenue on the illicit 
market. We are now seeing instances in which precursors originating in 
China and smuggled into the United States have traveled through the 
United States, destined for the U.S. Southwest Border locations.
    The Mexican cartels have then smuggled the precursors out of the 
country, synthesized them into illicit fentanyl, and imported the 
finished product back into the United States for distribution and 
consumption. The final product may be advertised as heroin, and the 
end-user may not be aware of the presence of fentanyl.
Migrant Smuggling and Human Trafficking
    Alongside illegal immigration and human smuggling, human 
trafficking continues to pose a humanitarian and law enforcement 
challenge. Migrant smuggling and human trafficking are often used 
interchangeably in error when they are two distinct crimes. Migrant 
smuggling is a crime committed against the sovereignty of a state, 
while human trafficking is a crime of exploitation against an 
individual. Migrant smuggling involves the provision of a service--
typically, transportation or fraudulent documents--to an individual who 
voluntarily seeks to enter a foreign country illegally. Human 
trafficking on the other hand, is a crime compelling an individual to 
perform forced labor or a commercial sex act through force, fraud, or 
coercion; or compelling a minor to perform a commercial sex act, 
regardless of force, fraud, or coercion. Immigration status or country 
of citizenship is not an element of human trafficking, nor is movement 
across an international border. Human trafficking is also an 
underreported crime because victims rarely come forward to seek help. 
This may be because they are unable to do so or because their 
vulnerabilities are being exploited, preventing them from seeking 
assistance. Proper identification, assistance, and protection of 
victims is essential to successfully combating this crime.
Transnational Crime Organizations
    Based on the collection of intelligence and investigatory evidence 
from USCG, CBP, and ICE, we observe that human smuggling enterprises 
and the drug cartels maintain a symbiotic relationship. Certain members 
of these criminal enterprises control the major United States and 
foreign illicit drug markets, and others control the ``smuggling 
flow,'' otherwise known as the ``illicit pathways.'' It is critical to 
both our values as a Nation and the long-term stability of our Western 
Hemisphere--including the health and prosperity of our Latin American 
partners--that we work to disrupt these smuggling and trafficking 
organizations, protect the vulnerable populations they exploit, and 
help to build and strengthen our foreign partners' domestic 
institutions and societies to protect their citizenries.
    As we all know, cartels and other transnational organized crime 
(TOC) networks serve as organizing forces behind the illicit mass 
migration and migrant smuggling and human trafficking I discussed just 
a moment ago. These TOC networks threaten the homeland, support hostile 
foreign powers, and drive regional instability, crime, corruption, and 
violence. TOC networks maintain a diverse portfolio of crimes, 
including fraud, human trafficking, kidnapping, and extortion. They are 
also heavily involved in human, weapon, bulk cash, and drug smuggling 
through their sophisticated criminal networks.
    TOC networks are motivated by money and power and have little 
regard for human life. These networks are commodity-agnostic--a human 
being is moved along with no more care than a gun or a bundle of drugs. 
When desperate aliens enter these networks, they may find themselves 
beaten, assaulted, raped, and even killed by network members.
    TOC networks continually adjust their operations to avoid detection 
and interdiction by law enforcement, and--like legitimate businesses--
are quick to take advantage of improved technology, cheaper 
transportation, and better distribution methods.
    DHS uses a multi-layered threat-based strategy--conducts overseas 
operations and capacity building, at-sea interdictions, border 
interdictions, and interior enforcement activities--to leverage its 
unique criminal, civil, military, and administrative authorities to 
achieve mission objectives and counter TOC.
                               conclusion
    Every day, the 240,000 men and women of the Department of Homeland 
Security work to ensure the safety and security of all Americans and 
are dedicated to building a brighter future. They deserve our support 
and thanks.
    I want to thank you, Chairman Thompson, Ranking Member Rogers, 
distinguished Members, and staff for the support you have shown the 
Department and the work undertaken by this committee to ensure DHS has 
the tools it needs to adapt to the changing threat environment.
    I look forward to your questions.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Director Wray to summarize his statement 
for 5 minutes.

  STATEMENT OF CHRISTOPHER WRAY, DIRECTOR, FEDERAL BUREAU OF 
           INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Wray. Good morning, Chairman Thompson, Ranking Member 
Rogers, Members of the committee. I am honored to be here today 
representing the roughly 37,000 men and women of the FBI.
    It has now been just over 2 years since I became FBI 
director in which time I have visited all 56 of our field 
offices, meeting with State and local partners from every State 
represented on this committee. I have met with every 
headquarters division, scores of our foreign law enforcement 
partners, business and community leaders, and crime victims and 
their families.
    Those interactions have given me a much better sense of 
what we are up against. Quite frankly, the threats out there 
are not the same from a decade ago. They are evolving in scale, 
in impact, in complexity, in agility, and the FBI is moving 
forward to meet those threats head-on.
    In fact, over just the past 6 or 7 months, the FBI has 
thwarted or disrupted terrorism-related plots, both domestic 
terrorism and international terrorism. Our Joint Terrorism Task 
Forces have made arrests in at least two-thirds of the States 
represented on this committee just since April, and that is not 
including all of our hate crime arrests and all the other kinds 
of important work that we do.
    So preventing terrorist attacks continues to be the FBI's 
top priority. Even as we recognize our country's important 
recent achievements with the death of al-Baghdadi and our fight 
against ISIS in the Middle East, we know that we have to stay 
vigilant against the threat both overseas and here at home.
    We are also laser-focused on preventing attacks on those 
already in the United States, people inspired by foreign 
terrorists, what we call the home-grown violent extremists. 
Often lone actors, these are folks inspired by foreign 
ideologies, but who are self-radicalized largely on-line 
through websites and encrypted messaging platforms rather than 
in some remote training camp or cave.
    We are also keenly focused in today's world on threat of 
domestic terrorism, attacks carried out by people inspired by a 
variety of violent extremist ideologies. I am talking about 
everything from anarchist groups to racially-motivated violent 
extremist groups.
    Again, these are threats that began mostly on-line. 
Terrorism today moves at the speed of social media. To confront 
these threats, we are working closely with our Federal, State, 
and local law enforcement partners and reaching out to the 
communities we serve.
    Our efforts are paying off. But these cases present unique 
challenges in part because in this country, we do not 
investigate a person just because of his or her beliefs, and 
these people, like the home-grown violent extremists I was 
referring to a minute ago, can also move very quickly with 
little warning from espousing radical views to attack.
    I can tell you after having personally walked through the 
crime scene at the Tree of Life Synagogue and having visited 
the teams from the mass shootings both in El Paso and in Dayton 
that this threat is never far from our minds and is a focus 
across the FBI.
    The major threats we are focused on today are too numerous 
to mention in my opening, but I look forward to answering 
questions about a number of them as I respond to your 
questions.
    In particular on the cyber front, we see a wider-than-ever 
range of actors, attack methods, and targets, including things 
like sophisticated ransomware attacks on municipalities and 
critical infrastructure. It is a threat that we are meeting by 
partnering with the victims, with State and local authorities 
and in particular, with our Federal partners, especially DHS 
and other agencies.
    On the counterintelligence front, we are especially focused 
on China. They are using an expanding set of nontraditional 
methods, blending both lawful and unlawful techniques.
    So on the one hand, to come after the United States, on the 
one hand, you have got things like corporate acquisitions, 
funding of research, but then woven into those you have cyber 
intrusions, stealing trade secrets, and a whole variety of 
supply chain threats.
    Even as I sit here today testifying before this committee, 
the FBI has over 1,000 investigations involving attempted theft 
of U.S.-based technology that lead back to China, involving 
nearly all 56 of our field offices and almost every industry 
and sector.
    So this is not just a big city problem. It hits the 
heartland. The men and women of the FBI dedicate themselves 
every day to keeping the American people safe. I want to thank 
this committee for your support for our FBI workforce. I can 
tell you it makes all the difference in the world to our 
hardworking agents, analysts, and professional staff both all 
over this country, but also around the world.
    So thank you, again, for the opportunity to appear before 
you today.
    [The prepared statement of Mr. Wray follows:]
                 Prepared Statement of Christopher Wray
                            October 30, 2019
    Good morning Chairman Thompson, Ranking Member Rogers, and Members 
of the committee. Thank you for the opportunity to appear before you 
today to discuss the current threats to the United States homeland. Our 
Nation continues to face a multitude of serious and evolving threats 
ranging from home-grown violent extremists (``HVEs'') to cyber 
criminals to hostile foreign intelligence services and operatives. 
Keeping pace with these threats is a significant challenge for the FBI. 
Our adversaries--terrorists, foreign intelligence services, and 
criminals--take advantage of modern technology to hide their 
communications; recruit followers; and plan, conduct, and encourage 
espionage, cyber attacks, or terrorism to disperse information on 
different methods to attack the U.S. homeland, and to facilitate other 
illegal activities.
    Just as our adversaries evolve, so, too, must the FBI. We live in a 
time of acute and persistent terrorist and criminal threats to our 
National security, our economy, and indeed our communities. These 
diverse threats underscore the complexity and breadth of the FBI's 
mission: To protect the American people and uphold the Constitution of 
the United States.
                            counterterrorism
    Preventing terrorist attacks remains the FBI's top priority. 
However, the threat posed by terrorism--both international terrorism 
(``IT'') and domestic violent extremism--has evolved significantly 
since 9/11.
    The most persistent threats to the Nation and to U.S. interests 
abroad are home-grown violent extremists (``HVEs''), domestic violent 
extremists, and foreign terrorist organizations (``FTOs''). The IT 
threat to the United States has expanded from sophisticated, 
externally-directed FTO plots to include individual attacks carried out 
by HVEs who are inspired by designated terrorist organizations. We 
remain concerned that groups such as the Islamic State of Iraq and ash-
Sham (``ISIS'') and al-Qaeda have the intent to carry out large-scale 
attacks in the United States.
    The FBI assesses HVEs are the greatest, most immediate terrorism 
threat to the homeland. These individuals are FTO-inspired individuals 
who are in the United States, have been radicalized primarily in the 
United States, and are not receiving individualized direction from 
FTOs. We, along with our law enforcement partners, face significant 
challenges in identifying and disrupting HVEs. This is due, in part, to 
their lack of a direct connection with an FTO, an ability to rapidly 
mobilize, and the use of encrypted communications.
    In recent years, prolific use of social media by FTOs has greatly 
enhanced their ability to disseminate messages. We have also been 
confronting a surge in terrorist propaganda and training available via 
the internet and social media. Due to on-line recruitment, 
indoctrination, and instruction, FTOs are no longer dependent on 
finding ways to get terrorist operatives into the United States to 
recruit and carry out acts of terrorism. Terrorists in ungoverned 
spaces--both physical and virtual--readily disseminate propaganda and 
training materials to attract easily-influenced individuals around the 
world to their cause. They motivate these individuals to act at home or 
encourage them to travel. This is a significant transformation from the 
terrorist threat our Nation faced a decade ago.
    Despite their territorial defeat in Iraq and Syria, ISIS remains 
relentless and ruthless in its campaign of violence against the West 
and has aggressively promoted its hateful message, attracting like-
minded violent extremists. The message is not tailored solely to those 
who overtly express signs of radicalization. It is seen by many who 
enter messaging apps and participate in social networks. Ultimately, 
many of the individuals drawn to ISIS seek a sense of belonging. 
Echoing other terrorist groups, ISIS has advocated for lone-offender 
attacks in Western countries. Recent ISIS videos and propaganda have 
specifically advocated for attacks against soldiers, law enforcement, 
and intelligence community personnel.
    Many foreign terrorist organizations use various digital 
communication platforms to reach individuals they believe may be 
susceptible and sympathetic to violent terrorist messages. However, no 
group has been as successful at drawing people into its perverse 
ideology as ISIS, which has proven dangerously competent at employing 
such tools. ISIS uses traditional media platforms as well as wide-
spread social media campaigns to propagate its ideology. With the broad 
distribution of social media, terrorists can spot, assess, recruit, and 
radicalize vulnerable persons of all ages in the United States either 
to travel to foreign lands or to conduct an attack on the homeland. 
Through the internet, terrorists anywhere overseas now have direct 
access to our local communities to target and recruit our citizens and 
spread their message faster than was imagined just a few years ago.
    The threats posed by foreign fighters, including those recruited 
from the United States, are very dynamic. We will continue working to 
identify individuals who seek to join the ranks of foreign fighters 
traveling in support of ISIS, those foreign fighters who may attempt to 
return to the United States, and HVEs who may aspire to attack the 
United States from within.
    ISIS is not the only terrorist group of concern. Al-Qaeda maintains 
its desire for large-scale, spectacular attacks. While continued 
counterterrorism pressure has degraded the group's Afghanistan-Pakistan 
senior leadership in the near-term, al-Qaeda is more likely to focus on 
building its international affiliates and supporting small-scale, 
readily-achievable attacks in key regions such as east and west Africa. 
Simultaneously, over the last year, propaganda from al-Qaeda leaders 
seeks to inspire individuals to conduct their own attacks in the United 
States and the West.
    In addition to FTOs, domestic violent extremists collectively pose 
a steady threat of violence and economic harm to the United States. 
Trends may shift, but the underlying drivers for domestic violent 
extremism--such as perceptions of Government or law enforcement 
overreach, socio-political conditions, racism, anti-Semitism, 
Islamophobia, and reactions to legislative actions--remain constant. 
The FBI is most concerned about lone-offender attacks, primarily 
shootings, as they have served as the dominant lethal mode for domestic 
violent extremist attacks. More deaths were caused by domestic violent 
extremists than international terrorists in recent years.
    The recent attacks in Texas and California underscore the continued 
threat posed by domestic violent extremists and perpetrators of hate 
crimes. Such crimes are not limited to the United States and, with the 
aid of internet like-minded hate groups, can reach across borders. To 
combat the threat at home, the FBI established the Domestic Terrorism-
Hate Crimes Fusion Cell, in spring 2019. Composed of subject-matter 
experts from both the Criminal Investigative and Counterterrorism 
Divisions, the fusion cell offers program coordination from FBI 
Headquarters, helps ensure seamless information sharing across 
divisions, and augments investigative resources.
    As the threat to harm the United States and U.S. interests evolves, 
we must adapt and confront these challenges, relying heavily on the 
strength of our Federal, State, local, and international partnerships. 
The FBI uses all lawful investigative techniques and methods to combat 
these terrorist threats to the United States. Along with our domestic 
and foreign partners, we are collecting and analyzing intelligence 
concerning the on-going threat posed by foreign terrorist organizations 
and home-grown violent extremists. We continue to encourage information 
sharing, which is evidenced through our partnerships with many Federal, 
State, local, and Tribal agencies assigned to Joint Terrorism Task 
Forces around the country. Be assured, the FBI continues to strive to 
work and share information more efficiently, and to pursue a variety of 
lawful methods to help stay ahead of these threats.
                          counterintelligence
    The Nation faces a continuing threat, both traditional and 
asymmetric, from hostile foreign intelligence agencies. Traditional 
espionage, often characterized by career foreign intelligence officers 
acting as diplomats or ordinary citizens, and asymmetric espionage, 
typically carried out by students, researchers, or businesspeople 
operating front companies, is prevalent. Foreign intelligence services 
not only seek our Nation's state and military secrets, but they also 
target commercial trade secrets, research and development, and 
intellectual property, as well as insider information from the Federal 
Government, U.S. corporations, and American universities. Foreign 
intelligence services continue to employ more creative and more 
sophisticated methods to steal innovative technology, critical research 
and development data, and intellectual property, in an effort to erode 
America's economic leading edge. These illicit activities pose a 
significant threat to National security and continue to be a priority 
and focus of the FBI.
    Foreign influence operations--which may include covert actions by 
foreign governments to influence U.S. policy decisions, political 
sentiment or public discourse--are not a new problem. But the 
interconnectedness of the modern world, combined with the anonymity of 
the internet, have changed the nature of the threat and how the FBI and 
its partners must address it. The goal of these foreign influence 
operations directed against the United States is to spread 
disinformation, sow discord, push foreign nations' policy agendas, and 
ultimately undermine confidence in our democratic institutions and 
values. Foreign influence operations have taken many forms and used 
many tactics over the years. Most widely reported these days are 
attempts by adversaries--hoping to reach a wide swath of Americans 
covertly from outside the United States--to use false personas and 
fabricated stories on social media platforms to discredit U.S. 
individuals and institutions. However, other influence operations may 
include targeting U.S. officials and other U.S. persons through 
traditional intelligence tradecraft; criminal efforts to suppress 
voting and provide illegal campaign financing; concealing efforts to 
influence U.S. Government activities, cyber attacks against voting 
infrastructure, along with computer intrusions targeting elected 
officials and others; and a whole slew of other kinds of influence, 
like both overtly and covertly manipulating news stories, spreading 
disinformation, leveraging economic resources, and escalating divisive 
issues.
    Almost 2 years ago, I established the Foreign Influence Task Force 
(``FITF'') to identify and counteract malign foreign influence 
operations targeting the United States. The FITF is uniquely positioned 
to combat this threat. The task force now brings together the FBI's 
expertise across the waterfront--counterintelligence, cyber, criminal, 
and even counterterrorism--to root out and respond to foreign influence 
operations. Task force personnel work closely with other U.S. 
Government agencies and international partners concerned about foreign 
influence efforts aimed at their countries, using 3 key pillars.
    Currently there are open investigations with a foreign influence 
nexus spanning FBI field offices across the country. Second, we are 
focused on information and intelligence sharing. The FBI is working 
closely with partners in the intelligence community and in the Federal 
Government, as well as with State and local partners, to establish a 
common operating picture. The FITF is also working with international 
partners to exchange intelligence and strategies for combating what is 
a shared threat. The third pillar of our approach is based on strong 
relationships with the private sector. Technology companies have a 
front-line responsibility to secure their own networks, products, and 
platforms. But the FBI is doing its part by providing actionable 
intelligence to better enable the private sector to address abuse of 
their platforms by foreign actors. Over the last year, the FBI has met 
with top social media and technology companies several times, provided 
them with Classified briefings, and shared specific threat indicators 
and account information, so they can better monitor their own 
platforms.
    But this is not just an election-cycle threat. Our adversaries are 
continuously trying to undermine our country, whether it is election 
season or not. As a result, the FBI must remain vigilant.
    In addition to the threat posed by foreign influence, the FBI is 
also concerned about foreign investment by hostile nation-states. Over 
the course of the last 7 years, foreign investment in the United States 
has more than doubled. Concurrent with this growth, foreign direct 
investment (``FDI'') in the United States has increasingly become a 
National security concern, as hostile nations leverage FDI to buy U.S. 
assets that will advance their intelligence, military, technology, and 
economic goals at the expense of U.S. National security. The Committee 
on Foreign Investment in the United States (``CFIUS''), an Executive 
branch committee chaired by the Department of Treasury, was statutorily 
created to address potential risks to U.S. National security resulting 
from foreign acquisitions or mergers with U.S. companies. As part of 
this process, the FBI provides input and analysis to the National 
Intelligence Council within 8 days of a CFIUS filing and a risk 
assessment to the Department of Justice within 30 days of a CFIUS 
filing. As a result of the Foreign Investment Risk Review Modernization 
Act (``FIRRMA''), which was enacted last year, the FBI anticipates its 
workload to increase dramatically.
                             cyber threats
    Virtually every National security threat and crime problem the FBI 
faces is cyber-based or facilitated. We face threats from state-
sponsored hackers, hackers for hire, organized cyber syndicates, and 
terrorists. On a daily basis, these actors seek to steal our state 
secrets, our trade secrets, our technology, and the most intimate data 
about our citizens--things of incredible value to all of us and of 
great importance to the conduct of our Government business and our 
National security. They seek to hold our critical infrastructure at 
risk, to harm our economy and to constrain our free speech.
    As the committee is well aware, the frequency and severity of 
malicious cyber activity on our Nation's private-sector and Government 
networks have increased dramatically in the past decade when measured 
by the amount of corporate data stolen or deleted, the volume of 
personally identifiable information compromised, or the remediation 
costs incurred by U.S. victims. We expect this trend to continue. 
Within the FBI, we are focused on the most dangerous malicious cyber 
activity: High-level intrusions by state-sponsored hackers, global 
organized crime syndicates, and other technically sophisticated and 
dangerous actors. FBI agents, analysts, and computer scientists are 
using technical capabilities and traditional investigative techniques--
such as sources, court-authorized electronic surveillance, physical 
surveillance, and forensics--to counter these threats. We continue to 
actively coordinate with our private and public partners to pierce the 
veil of anonymity surrounding cyber-based crimes.
    Botnets used by cyber criminals have been responsible for billions 
of dollars in damages over the past several years. The wide-spread 
availability of malicious software (malware) that can create botnets 
allows individuals to leverage the combined bandwidth of thousands, if 
not millions, of compromised computers, servers, or network-ready 
devices to disrupt the day-to-day activities of governments, 
businesses, and individual Americans. Cyber threat actors have also 
increasingly conducted ransomware attacks against U.S. systems, 
encrypting data and rendering systems unusable--thereby victimizing 
individuals, businesses, and even emergency service and public health 
providers.
    Cyber threats are not only increasing in size and scope, but are 
also becoming increasingly difficult and resource-intensive to 
investigate. Cyber criminals often operate through on-line forums, 
selling illicit goods and services, including tools that lower the 
barrier to entry for aspiring criminals and that can be used to 
facilitate malicious cyber activity. These criminals have also 
increased the sophistication of their schemes, which are more difficult 
to detect and more resilient to disruption than ever. In addition, 
whether located at home or abroad, many cyber actors are obfuscating 
their identities and obscuring their activity by using combinations of 
leased and compromised infrastructure in domestic and foreign 
jurisdictions. Such tactics make coordination with all of our partners, 
including international law enforcement partners, essential.
    The FBI is engaged in a myriad of efforts to combat cyber threats, 
from improving threat identification and information sharing inside and 
outside of the Government to developing and retaining new talent, to 
examining the way we operate to disrupt and defeat these threats. We 
take all potential threats to public- and private-sector systems 
seriously and will continue to investigate and hold accountable those 
who pose a threat in cyber space.
                               conclusion
    In closing, the work being done by the FBI is immeasurable; 
however, we cannot afford to be complacent. We must seek out new 
technologies and solutions for the problems that exist today as well as 
those that are on the horizon. We must build toward the future so that 
we are prepared to deal with the threats we will face at home and 
abroad and understand how those threats may be connected.
    Chairman Thompson, Ranking Member Rogers, and Members of the 
committee, thank you again for this opportunity to discuss the FBI's 
efforts to combat the myriad of threats it faces. I appreciate your 
continued support and look forward to answering any questions you might 
have.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Acting Director Travers to summarize his 
statement for 5 minutes.

    STATEMENT OF RUSSELL TRAVERS, ACTING DIRECTOR, NATIONAL 
   COUNTERTERRORISM CENTER, DIRECTOR OF NATIONAL INTELLIGENCE

    Director Travers. Chairman Thompson, Ranking Member Rogers, 
Members of the committee, it is a privilege to be here to 
represent the men and women of the National Counterterrorism 
Center.
    In the years since 9/11, the U.S. counterterrorism 
community and its many partners have achieved significant 
successes against terrorist groups around the globe. Perhaps 
most importantly, coalition operations against ISIS in Iraq and 
Syria deprived a group of its so-called caliphate.
    But in addition, on-going CT efforts across Africa, the 
Middle East, and South Asia continue to diminish the ranks of 
al-Qaeda and ISIS, removing dozens of experienced leaders and 
operatives every year.
    Interagency efforts at home to enhance our defenses here 
have resulted in continued progress in safeguarding the 
homeland from terrorist attacks. There is, indeed, a lot of 
good news.
    But we need to be cautious because challenges remain. I am 
going to focus on just 3.
    First, military operations have bought us time and space as 
we address the terrorist global threat, but the diverse, 
diffuse, expanding nature of that threat remains a significant 
concern.
    After 9/11, we were primarily focused on the threat 
emanating from a single piece of real estate along the Apian-
PAC border. Eighteen years later, as Director Wray, has 
indicated, we have a very diffuse threat. We have a home-grown 
violent extremist threat.
    We have 20 ISIS branches and networks ranging from hundreds 
to thousands of individuals. We have al-Qaeda and its 
affiliates and branches' affiliates. We have foreign fighters 
that flock to Iraq and Syria from over 100 countries. We have 
Iran and its proxies, and there is a growing terrorist threat 
from racially- and ethnically-motivated extremists around the 
globe.
    By any calculation, there are far more radicalized 
individuals now than there were at the time of 9/11. This 
highlights the importance of terrorism prevention. While some 
aspects of the threat can be dealt with through kinetic 
operations, the residents of the ideology will not be dealt 
with by military or law enforcement operations alone.
    The world has a lot of work to do in the non-kinetic realm 
to deal with radicalization and underlying causes.
    The second challenge I would highlight stems from the 
terrorist's ability to exploit technology and the attributes of 
globalization. They are good at it, and they are very 
innovative.
    We have seen the use of encrypted communications for 
operational planning and the use of social media to spread 
propaganda and transfer knowledge between and amongst 
individuals and networks. We see the use of drones and UASes 
for swarm attacks, explosive deliveries, and even assassination 
attempts.
    High-quality, fraudulent travel documents will increasingly 
undermine a named space screening and vetting system and 
thereby threaten border security.
    We will see greater use of cryptocurrencies to fund 
operations, and the potential terrorist use of chemical and 
biological weapons has moved from a low-probability eventuality 
to something we consider to be much more likely.
    In many cases, terrorist exploitation of technology has 
outpaced the associated legal and policy framework needed to 
deal with the threat.
    Looking out 5 years, we are particularly concerned with the 
growing adverse impact encryption will have on our 
counterterrorism effort.
    The third challenge I would highlight relates to a concern 
about complacency. Our whole-Government approach to 
counterterrorism over the past 18 years has kept the country 
pretty safe. In our view, the near-term potential for larger-
scale, externally-directed attacks against the homeland has at 
least temporarily declined as a result of U.S. and allied 
actions around the globe.
    But as noted earlier, the threat itself continues to 
metastasize and will require very close attention in the years 
ahead. In a crowded National security environment, it is 
completely understandable that terrorism may no longer be 
viewed as the No. 1 threat to the country, but that begs a host 
of questions.
    What does the National risk equation look like as the 
country confronts a very complex international security 
environment?
    How do we optimize our CT resources in the best interest of 
the country?
    If we're going to reduce efforts against terrorism, how do 
we do so in a manner that does not inadvertently reverse the 
gains of the past 18 years?
    These are all complicated questions that will require 
serious discussion both within the Executive and Legislative 
branches.
    Thank you, Mr. Chairman. I look forward to your questions.
    [The prepared statement of Director Travers follows:]
                 Prepared Statement of Russell Travers
                            October 30, 2019
    Thank you, Chairman Thompson, Ranking Member Rogers, and Members of 
the committee, for the opportunity to be with you today. I will begin 
with a brief overview of the terrorism threat before discussing 
homeland and overseas threats in more detail. I will close my opening 
remarks with a discussion of global trends impacting counterterrorism 
efforts, along with comments on the way forward, from NCTC's 
perspective.
                       terrorism threat overview
    The United States and its allies continue to pursue an aggressive 
global campaign against a complex array of terrorist actors. Operating 
across Africa, Asia, and the Middle East, U.S. and partner forces have 
killed or captured thousands of terrorist leaders and operatives since 
September 11, exemplified this past weekend in the heroic removal of 
the brutal ISIS in Iraq and Syria leader, Abu Bakr al-Baghdadi. These 
removals degrade the ability of terrorists to organize, communicate, 
and strike the United States. Working unilaterally or with partner 
nations, the United States has disrupted numerous attack plots, saving 
the lives of countless potential victims. At home, Federal, State, and 
local intelligence and law enforcement agencies--working in close 
cooperation--continue to counter terrorist activity. Enhanced border 
security efforts have constrained groups' ability to infiltrate the 
United States, and we now assess the most predominant terrorist threat 
to the homeland to emanate from U.S.-based lone actors. Additionally, 
the U.S. Government and private-sector allies have made significant 
strides curtailing terrorists' on-line presence.
    While these efforts have diminished the terrorist threat to the 
United States, we have enjoyed less success staunching terrorist growth 
overseas. Over a year ago, NCTC warned that the terrorist threat was 
becoming more diverse, dispersed, and unpredictable; unfortunately, 
these trends have only continued, posing an increasingly complex 
challenge for the United States and its allies. In several regions, we 
continue to observe the expansion or revival of familiar threats, as 
well as the emergence of new ones.
  <bullet> First, the overall threat from radical Islamic terrorists 
        has not abated and, in some regions, is growing. Prominent 
        groups including ISIS and al-Qaeda are expanding into new areas 
        and reinforcing their networks' cohesion, bolstering the 
        overall movement's reach, resiliency, and threat to U.S. 
        interests.
  <bullet> At the same time, the United States is confronting an 
        aggressive Iran and its network of terrorist proxies, who are 
        employing violence to undermine U.S. pressure and influence 
        throughout the Middle East. Tehran, including the Islamic 
        Revolutionary Guard Corps-Quds Force (IRGC-QF), and its 
        formidable allies like Lebanese Hizballah are strengthening 
        their relationships with a wide array of militants and 
        exporting advanced tactics and weaponry--capabilities that can 
        be turned against U.S. personnel with little warning.
  <bullet> Finally, high-profile attacks in the United States and 
        abroad--most notably the March attacks against mosques in 
        Christchurch, New Zealand and the August attack in El Paso, 
        TX--highlight that the United States is facing threats from a 
        broader range of terrorist actors, to include violent 
        extremists motivated by racial and ethnic hatred. While 
        primarily a lone actor threat, these violent extremists in the 
        United States and abroad are deftly using technology to recruit 
        others to their extreme ideology.
    Several broader global trends are adding to the complexity of the 
terrorist threat landscape including the availability of disruptive 
technologies, enduring conflicts and instability, the drift of focus 
and resources away from CT, and the rising global influence of U.S. 
competitors. These concurrent and interrelated dynamics are 
increasingly affecting--at times negatively--our ability to mobilize or 
sustain effective pressure against terrorists. In this environment, 
staying ahead of terrorist adaptation requires an increasingly nimble 
U.S. response that better leverages foreign allies, private-sector 
partners, and whole-of-Government resources.
                  the terrorist threat to the homeland
    Throughout 2019, persistent United States and allied CT pressure 
against key al-Qaeda and ISIS leaders and operatives have continued to 
degrade these groups' ability to launch terrorist attacks against the 
United States. Radical Islamist terrorists' external plotting 
capabilities may have been further hampered by the demands of 
sustaining large-scale insurgent campaigns, combatting capable local 
U.S. allies, or fighting other militant competitors.
    Despite our successes, leaders of both al-Qaeda and ISIS retain the 
intent to strike the United States and have proven resourceful in 
finding ways to evade U.S. defenses. I would refer to the example of 
al-Qaeda in the Arabian Peninsula (AQAP) which, while fighting an 
insurgency in Yemen, nevertheless attempted 3 external operations 
against U.S. aviation between 2009 and 2012 using novel explosive 
designs. Currently, al-Qaeda, ISIS, and several of their local 
affiliates and branches retain key competencies and resources--
including explosives expertise and foreign operatives--that could 
support attacks in the United States or the West. Further declines in 
CT pressure could enable them to quickly reinvigorate or expand 
external plotting. This could include additional attacks against 
aviation, which remains of great interest to terrorists because of the 
potential economic and psychological impacts.
    As we sustain pressure against radical Islamic terrorists' external 
operations capabilities, we will likely continue to face a more 
persistent threat from U.S.-based home-grown violent extremists, which 
we assess represent the preeminent Sunni terrorist threat to the United 
States. While there has only been one such attack in the United States 
this year, it remains a serious threat and poses an enduring detection 
challenge because of these attackers' lack of direct connections to 
known violent extremists or terrorist groups, their use of easy-to-
acquire weapons and tactics and tendency to operate alone or in small 
groups. In addition, radical Islamist terrorist groups overseas 
continue to promote lone actor attacks through their media outlets, 
viewing them as an efficient tactic to terrorize the United States and 
other opponents.
    The threat from terrorists motivated by ideologies unconnected to 
the radical Islamist terrorism are also a concern. Since the beginning 
of 2018, these terrorists have conducted the vast majority of lethal 
homeland terrorist attacks. Most of these attacks were perpetrated by 
lone actors adhering to a racially- or ethnically-motivated violent 
extremist ideology who have been radicalized, in part on-line, and 
motivated by a range of grievances associated with political and/or 
social agendas. While most of these actors have used readily-available 
firearms and edged weapons against soft targets, 2019 has been the most 
lethal year for these attacks since 1995.
    Finally, Iran and Hizballah's on-going efforts to expand their 
already robust global networks also threaten the homeland. The arrests 
last year of Iranian operatives and diplomats in the United States and 
Europe linked to attack plotting underscore Tehran's determination to 
use violence against its adversaries around the world, potentially 
including within the United States. Additionally, the arrest in July of 
a Hizballah-trained operative in New Jersey who conducted surveillance 
of U.S. landmarks on behalf of the group is emblematic of the reach of 
its sophisticated global network, which has been active in Europe, 
South America, and Africa.
                     the terrorist threat overseas
    While our CT campaign has diminished terrorists' external attack 
capabilities, our efforts to curtail radical Islamic terrorist growth 
and the threat to U.S. interests overseas have proven less successful. 
Radical Islamic terrorist groups are now operating in more countries 
around the world than ever before, threatening a widening circle of 
U.S. interests and allies.
    I will begin with ISIS in Iraq and Syria, where United States and 
coalition efforts have eliminated the physical caliphate and removed 
the group's long-time leader, Abu Bakr al-Baghdadi, demoralizing ISIS 
fighters and demonstrating the persistence of U.S. and coalition forces 
to eliminate terrorist threats wherever they are. However, the 
terrorism threat persists as ISIS has successfully transitioned to a 
clandestine insurgency consisting of thousands of committed operatives 
across the 2 countries. ISIS cells continue to conduct a diminished but 
steady rate of IED attacks, raids, and ambushes against local security 
forces and other opponents. ISIS fighters are attempting to evade local 
counterterrorism pressure by using safe havens in rural, under-governed 
areas of northern and western Iraq and eastern Syria. Senior leaders 
have publically encouraged adherents to be patient and persevere, 
pointing to the group's previous successes rebounding from setbacks.
    In an effort to enable its revival and attract new recruits, the 
group continues to stoke and exploit Sunni fears of sectarian violence 
and economic and political marginalization while targeting populations 
vulnerable to ISIS's appeals, including refugees. ISIS leaders since at 
least mid-September have also prioritized the freeing of thousands of 
detained members in prison and IDP camps across Iraq and Syria. The 
release and reintegration of these veteran operatives would greatly 
augment the group's operations, mirroring the dynamic we saw play out 
in 2013. Finally, ISIS leaders will likely move to exploit the recent 
instability and the attrition and co-option of CT forces in 
northeastern Syria to reinvigorate their insurgent and external 
operations efforts.
    Outside of Iraq and Syria, ISIS's global network remains robust 
and--in some areas--is expanding, thanks to its approximately 20 global 
branches and networks. This year, the group publically announced new 
branches in Mozambique, Pakistan, and Turkey, underscoring leaders' 
determination to sustain their global reach amidst setbacks in Iraq and 
Syria. The capabilities of these branches and networks vary, but ISIS 
groups in Afghanistan, the Philippines, the Sinai Peninsula, and West 
Africa have the capacity to conduct sophisticated attacks against local 
security forces and target U.S. interests and personnel. Even networks 
lacking direct connection to ISIS core can be deadly--the attacks in 
April in Sri Lanka that killed over 290 people--including 4 Americans--
serves as a salient reminder of ISIS's reach and threat to U.S. 
citizens. Additionally, the far-flung ISIS enterprise retains a degree 
of cohesion: ISIS this year launched several synchronized attack and 
propaganda campaigns in which numerous branches and networks 
participated, which is an indicator of enhanced connectivity.
    Meanwhile, al-Qaeda and its affiliates continue to target U.S. 
interests, expand their regional insurgencies, and strengthen their 
connectivity. Senior leaders, including several based in Iran, oversee 
these global efforts, sustaining the network's cohesion. In September, 
group leader Ayman al-Zawahiri praised the 9-11 attacks, reiterated his 
call for attacks against U.S. and Israeli targets, and urged extremists 
to travel to radical Islamist terrorist battlefields, highlighting al-
Qaeda's multi-pronged strategy. In addition, the group leaders' 
announcement in January of a ``Jerusalem Will Never Be Jewish'' 
campaign in response to the move of the U.S. embassy to Jerusalem 
underscores their efforts to tie the group's regional efforts to al-
Qaeda's overall global agenda campaigns. Two attacks in Kenya and Mali, 
conducted by al-Shabaab and the al-Qaeda-aligned, West Africa-based 
Jama'at Nusrat al-Islam wal-Muslimin (JNIM), have since been included 
under this campaign.
    Al-Qaeda's regional insurgencies continue to achieve varying levels 
of success. In Somalia, al-Shabaab has ramped up its campaign against 
African Union forces, the local government, and U.S. and Western 
personnel. In September, the group launched a large-scale assault on a 
base in Baledogle that houses U.S. military personnel. In Mali and 
other parts of West Africa, JNIM and allied fighters have ramped up 
their attacks against international peacekeepers and local security 
forces, exacerbating instability and humanitarian conditions. In North 
Africa, local CT operations in Libya and Tunisia have probably stunted 
the growth of al-Qaeda in the Lands of the Islamic Maghreb (AQIM), but 
the group continues to pose a threat to government and Western targets 
throughout the region.
    In Yemen, AQAP has sustained its insurgent campaign and may expand 
their efforts as continuing political instability threatens to diminish 
CT pressure against the group. In Syria, Hurras al-Din--an al-Qaeda 
aligned group consisting of veteran extremists--is working to advance 
the group's global agenda, although the deaths of at least 1 senior 
operative and the tenuous status of its safehaven in northwest Syria 
could impede their efforts. In Afghanistan, the death in September of 
the leader of al-Qaeda in the Indian Subcontinent (AQIS) may disrupt 
their regional operations. Finally, al-Qaeda retains its long-standing 
ties to the Haqqani Network and other militant networks active in 
Afghanistan and Pakistan that frequently target U.S. personnel.
    In Iran, the regime continues to use terrorism to threaten the 
United States, our allies, and other opponents, as well as to cement 
its long-term political influence throughout the Middle East. As we 
have observed in recent months from Tehran's attacks on international 
shipping and Saudi oil facilities, the regime is intent on escalating 
its efforts to intimidate and impose costs on its opponents, posing a 
growing direct and indirect threat to U.S. interests and personnel. 
Iran, through the IRGC-QF and other malign elements like the Ministry 
of Intelligence and Security (MOIS) maintains links to terrorist 
operatives and networks in Europe, Asia, and Africa that could be 
called upon to target U.S. or allied personnel.
    Iran can also call upon a wide range of proxy groups to support its 
terrorist and regional influence operations. Tehran is poised to use 
these entities to target U.S. personnel in the event that the regime is 
threatened. Iranian leaders also nurture these alliances in pursuit of 
long-term political advantage, similar to its decades-long partnership 
with Hizballah, which wields significant political influence within 
Lebanon and possesses a formidable military force including thousands 
of rockets. In Iraq, Iran has provided weapons and funding to a wide 
variety of powerful militia groups, whose influence and advanced 
terrorist capabilities threaten the U.S. presence there. Iran is also 
supporting Huthi forces in Yemen, whose increasingly bold attacks 
against Saudi Arabia could indirectly endanger U.S. personnel. Finally, 
Iran maintains ties to several Palestinian military groups including 
Palestine Islamic Jihad, which has killed numerous civilians in Israel.
           global trends increasingly impacting the ct fight
    Our ability to combat the diverse range of terrorist threats 
continues to be influenced, at times negatively, by broader military 
and political trends. Navigating these challenges will likely require 
leveraging a broad range of Government resources and capabilities 
across the interagency, given their scope and scale.
  <bullet> Emerging Technologies.--Terrorists continue to exploit rapid 
        technological advances in fields like encrypted communications, 
        social media, and unmanned aircraft systems (UAS). The speed at 
        which industry responds to consumer demands for newer, more 
        capable technologies also fuels terrorist innovation and, at 
        times, limits our ability to disrupt their operations. 
        Specifically, terrorists are continuing to explore the use of 
        increasingly ubiquitous, more secure modes of communications in 
        order to evade detection. While the amount of terrorist content 
        on mainstream platforms like Facebook has been curtailed, 
        terrorists have responded by using less-accessible platforms to 
        communicate and disseminate propaganda. Finally, commercially-
        available unmanned systems--like aircraft (UAS) and surface 
        vehicles (USV)--are enabling some groups to conduct tactical 
        surveillance, smuggling operations, and attacks against key 
        critical infrastructure targets like oil refineries or airports 
        that can result in significant economic damage.
  <bullet> Conflict and Instability.--Enduring conflicts in several 
        countries including Egypt, Mali, Nigeria, Libya, Syria, and 
        Yemen continue to serve as incubators for terrorist presence. 
        The intractable nature of these conflicts, their spillover into 
        neighboring countries, and the long-term impacts on 
        humanitarian conditions continue to provide terrorist groups 
        with new opportunities to carve out safe havens, bolster 
        operations, derive resources, and recruit the next generation 
        of fighters. As an example, several on-going conflicts and 
        insurgencies across Africa have enabled terrorists aligned with 
        al-Qaeda and ISIS to expand their influence and embed with 
        local militant groups, fueling an unprecedented rate of 
        jihadist growth across the continent.
  <bullet> Partner Complacency and Distraction.--Some partners' 
        perception that the terrorist threat has been sufficiently 
        reduced or eclipsed by other political or security concerns may 
        increasingly prompt them to allocate resources away from CT 
        efforts, potentially diminishing pressure on some networks.
  <bullet> Influence by Strategic Competitors.--The growing influence 
        and footprint of U.S. competitors--particularly China and 
        Russia--in key CT theaters could constrain our ability to 
        mobilize and direct local CT operations. Both Beijing and 
        Moscow have increased their security, military, and CT 
        assistance programs as part of their campaign to undermine and 
        supplant U.S. influence in parts of Africa, Asia, and the 
        Middle East--regions that also host preeminent terrorist 
        groups. In addition, our competitors often promote punitive and 
        anti-democratic CT strategies that could fuel further 
        radicalization to violence.
                            the way forward
    These challenges require a nimble, aggressive U.S. response that 
makes greater use of foreign partners and resources resident in both 
the interagency and private industry. An over-reliance on ``business as 
usual'' practices or kinetic efforts will increase the risks of being 
outpaced by our terrorist adversaries and marginalized by our 
competitors, particularly as competing demands on U.S. National 
security resources mount.
  <bullet> Bolstering Foreign Allies.--As the scale of the global 
        terrorism challenge grows, foreign partners will play an 
        increasingly central role in fighting it. Sustained U.S. 
        leadership, advisory, and capacity-building efforts in both the 
        military and non-military areas remain instrumental in ensuring 
        that partners implement effective, comprehensive, and balanced 
        CT measures, sufficiently resource them, and cooperate with 
        neighbors and other allies. As noted in the 2018 National 
        Strategy for Counterterrorism, proactively identifying and 
        focusing on those allies that are best positioned and able to 
        advance U.S. CT efforts will prove key in countering the 
        terrorist threat; this includes working with allies and 
        partners on preventing and countering terrorist radicalization 
        and recruitment in the first place--through not only strategic 
        communications but community engagement and other ``countering 
        violent extremism'' approaches.
  <bullet> Mobilizing Tech Sector Partners.--As noted previously, 
        terrorist actors continue to move aggressively to exploit new 
        technologies to communicate, appeal to new audiences, and 
        recruit adherents. Establishing and supporting relationships 
        with those companies that are driving these technological 
        changes remains critically important in countering such 
        efforts. These partnerships have already borne fruit: For 
        instance, private-sector action--enabled by Government 
        assistance--has greatly curtailed the accessibility of violent 
        extremist content from ISIS on the internet. However, 
        subsequent terrorist adaptations, including the increased use 
        of closed social media forums, only highlight the need to 
        sustain and build on these partnerships. U.S. Government 
        engagement with entities like the industry-led Global Internet 
        Forum to Counter Terrorism (GIFCT) could help combat a broader 
        spectrum of violent extremist content by using lessons learned 
        in countering ISIS's on-line presence, while also helping these 
        companies navigate free speech issues. This should be 
        complemented by support for local alternative narratives and 
        counter-messaging in key countries around the world.
  <bullet> Exploiting Data.--I have previously testified about the 
        growing data challenge the CT community faces. We continue to 
        see an ever-expanding corpus of pertinent data, an explosion in 
        social media information, and competing equities and 
        authorities, non-standardized data, and challenges with 
        incorporating biometrically-based screening systems. To 
        overcome these challenges, we must increase our focus on 
        expanding information sharing and improving our use of data-
        driven techniques to counter terrorists' attempts to evade CT 
        pressure. Given the wide range of U.S. stakeholders with 
        interests in data, broad reforms of our disclosure and 
        information-sharing processes will require a whole-of-
        Government approach that works to broadly reorient mindsets and 
        cultures. In addition, we will continue to move toward 
        standardizing our existing systems and developing common 
        guidelines for use in order to facilitate greater access for 
        relevant authorities.
    Mr. Chairman, thank you again for the opportunity to present NCTC's 
views and assessments this morning. I look forward to the committee's 
questions.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Under Secretary Glawe to summarize his 
statement for 5 minutes.

    STATEMENT OF DAVID J. GLAWE, UNDER SECRETARY, OFFICE OF 
INTELLIGENCE AND ANALYSIS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Glawe. Good morning, Chairman Thompson, Ranking Member 
Rogers, and distinguished Members of the committee.
    It is my honor to testify on behalf of the Department of 
Homeland Security and to address today's emerging world-wide 
threats.
    First, let me briefly touch on my role. I currently serve 
as the chief intelligence officer and under secretary at the 
Department of Homeland Security. I am responsible for ensuring 
the Secretary, our 22 DHS components and offices and our 
homeland security partners have access to intelligence they 
need to keep the country safe.
    My focus is to ensure the unique tactical intelligence from 
the DHA intelligence enterprise is shared with operators and 
decision makers across all levels of Government so they can 
more effectively identify and mitigate threats to the homeland.
    My office, as well as the rest of the U.S. intelligence 
community and our law enforcement partners, generate 
intelligence that is unbiased based on sound analytic judgments 
and tradecraft that meet the U.S. intelligence community 
standards. Regarding the threat landscape, I will speak today 
about the major shifts in the threat landscape.
    Specifically, I would like to speak about the threats we 
face from foreign terrorist organizations, domestic terrorism, 
cyber threats, foreign influence, and transnational organized 
crime.
    Underpinning these threats is increasing adversarial 
engagement from nation-states, such as China, Russia, and Iran.
    Regarding domestic terrorism and targeted violence, I want 
to address one of the most pervasive threats we face in the 
homeland, which is the threat from targeted violent and mass 
attack. Regardless whether it is considered domestic terrorism 
or a hate crime, there is no moral ambiguity on this issue.
    The extremists are often motivated by violent ideologies or 
perceived grievances, often targeting race, ethnicity, National 
origin, religion, sexual orientation, gender, and gender 
identity.
    We are focused on identifying the behaviors and indicators 
that are indicative of an individual at risk of carrying out 
targeted violence or mass attacks so that we can appropriately 
identify and mitigate any violent act before it occurs.
    My past experience of 24 years as a policy officer and 
special agent and part of the first responder metropolitan 
police department to the Columbine attack has made me uniquely 
postured to be a witness for you today. My first-hand 
experience has shaped my approach to dealing with this type of 
violence.
    Foreign terrorist organizations remain a core priority of 
DHS's counterterrorism efforts, and we continue to make 
substantial progress in our ability to detect and mitigate the 
threats that these groups pose. ISIS, al-Qaeda, and returning 
foreign fighters represent significant, persistent, and long-
term National security threats.
    Cyber threats and emerging technologies. Cyber threats 
remain a significant strategic risk for the United States, 
threatening our National security, economic prosperity, and 
safety.
    Nation-states and cyber criminals are increasing the 
frequency and sophistication of their attacks and other 
malicious cyber activity.
    Regarding foreign influence, the foreign influence has 
quickly evolved into one of our most significant threats to our 
country in decades. U.S. adversaries, including Russia, China, 
Iran, and North Korea, and other strategic competitors will use 
off-line influence operations to try to weaken democratic 
institutions, undermine U.S. alliances, threaten our economic 
security, and shape our policy outcome.
    Regarding transnational organized crime, transnational 
criminal organizations have a destabilizing effect on the 
Western Hemisphere by corrupting Government officials, eroding 
institutions, and perpetuating violence. They profit from a 
range of illicit activity, including human smuggling and 
trafficking, narcotics, extortion, and kidnapping.
    Transnational criminal organizations are motivated by power 
and money and have little regard for human life. They 
continually adjust their operations and supply chains to avoid 
detection and interdiction by law enforcement and, like 
legitimate businesses, are quick to take advantage of improved 
technology, cheaper transportation, and better distribution 
methods. In many ways, they are operating like a sophisticated 
intelligence organization.
    With that, I want to close, and I want to thank you for the 
opportunity, and also on behalf of the men and women of the 
Department of Homeland Security, and the honor to testify 
before you today.
    Thank you.
    Chairman Thompson. I thank all of the witnesses for their 
testimony.
    I remind each Member that he or she will have 5 minutes to 
question the panel.
    I now recognize myself for questions.
    Mr. Secretary, during your tenure here with the committee, 
were you provided all the resources you needed to do your job?
    Secretary McAleenan. I think the Department of Homeland 
Security has received strong support from Congress in a 
bipartisan fashion across multiple budget years and multiple 
administrations.
    We have used that funding and those resources to increase 
our security effectively across programs from the IT side, the 
intelligence side, the operational side in both our border 
security and our international partnerships.
    Are there more resources we could use? Certainly. There 
always are. I do not think you will ever meet a law enforcement 
leader who will say they have all the resources they need. But 
I do think we have been able to communicate our requirements 
and receive broad bipartisan support over my career.
    Chairman Thompson. So if you had what resources you do not 
have, that could give us a greater grasp on the terrorist 
threat to the homeland?
    Secretary McAleenan. On the counterterrorism side, one of 
the things that we have requested in this budget cycle and 
actually called you, Mr. Chairman, and other leaders on the 
appropriations side back in May to look at a resubmission of 
our grant capability so that we could focus on supporting 
efforts against domestic terrorism and targeted violence and 
readiness around the country so we could identify opportunities 
to move people off a pathway to violence and address, you know, 
their concerns and their disaffection early in that process.
    That is $17.5 million we requested. It is in the Senate 
mark-up for our appropriations, and we have also asked for 
investment in our Targeted Violence and Terrorism Prevention 
Office at the DHS headquarters. I created that my first week as 
Acting Secretary.
    We are looking for that office to help coordinate and 
galvanize efforts across multiple DHS components to support 
prevention and that whole-community effort we are looking for.
    So that is one specific investment, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    One of the issues in light of what you have talked about is 
this whole issue of domestic terrorism. Director Wray, can you 
share with the committee the challenges you have with your 
agency in addressing domestic terrorism?
    For there are some definitional issues from what I 
understand that continue to be a challenge.
    Mr. Wray. Well, Mr. Chairman, I think what you are 
referring to, which we have talked about a little bit, I think, 
in the past, is that there is not currently a domestic 
terrorism offense, as such, in the same way there is, for 
example, on the international terrorism side a material support 
to foreign terrorist organization.
    Having said that, we tackle the domestic terrorism threat 
through a wide variety of tools, explosive charges, gun 
charges, State and local charges, hate crimes charges. So we 
use a lot of different tools to go after it, and our folks have 
been pretty resourceful with our partners in making sure that 
we do not let anybody get away with it.
    We had, I think, 107 domestic terrorism arrests in fiscal 
year 2019, which is about the same number, a little less, but 
about the same number as our IT or international terrorism 
arrests.
    Chairman Thompson. So of your issues that you are 
addressing here, have you put a percentage on, of the cases you 
investigate, how many of them are strictly addressing domestic 
terrorism?
    Do you see it on the rise?
    Mr. Wray. Well, we see a couple things. We see domestic 
terrorism as a persistent, evolving threat. We have typically 
had about 1,000, and it fluctuates from time to time, but it 
tends to be about 1,000, sometimes closer to 900, sometimes a 
little over on the domestic terrorism side.
    The number has not dramatically changed, but it is made 
very troubling consistent. Certainly the most lethality in 
terms of terrorist attacks over recent years here in the 
homeland has been on the domestic terrorism side.
    One of the things we have started doing recently is I 
created a Domestic Terrorism and Hate Crimes Fusion Cell, which 
brings together both our efforts targeting a lot of the same 
conduct through our counterterrorism resources, you know, our 
Joint Terrorism Task Forces, et cetera, but also on the hate 
crimes side, through our criminal programs we are able to pick 
that up there.
    So we are starting to have less of a left hand/right hand 
issue internally, and I think that will make us even more 
effective as we go forward.
    Chairman Thompson. Thank you.
    The Chair recognizes the Ranking Member for 5 minutes.
    Mr. Rogers. I would like to ask any of the panel that want 
to take a swing at this. When we look at the deaths of al-
Baghdadi and Muhajir, what does that mean for the rest of the 
senior leadership?
    Do you see anybody in particular emerging to fill that 
void?
    Because that was the No. 1 and No. 2 ISIS leaders. How big 
of a leadership organization is below that tier of leadership?
    Director Travers. There is no question that the losses over 
the weekend were significant to ISIS. At the same time, it has 
a deep bench. Muhajir was one of the individuals that could 
have ascended to the top. Haji Abdullah is another one.
    We need to remember that the United States and the 
Coalition overall have had tremendous success in eliminating 
leadership over the years of both al-Qaeda and ISIS, and yet 
the bench tends to rise to the top.
    My guess is that we will, if history is any judge over the 
next somewhere between a couple of days and a couple of weeks, 
we will see a new leader caliph announced. There will be 
eulogies. Those eulogies will come even from al-Qaeda. I 
suspect Zawahiri will play elder statesman and issue his own.
    We will see calls for attacks against Western interests. 
Typically that does not amount to a great deal in the near 
term, and then we will see requests for the branches and the 
affiliates to swear allegiance to the new leader.
    That is what we will be watching very carefully to see how 
this individual consolidates control going forward.
    Mr. Rogers. During this period of time before that happens, 
how effective do you think ISIS will be at carrying out attacks 
or do you think they will be kind-of in a pause period?
    Director Travers. I actually do not think it will have much 
impact. If there were significant attacks that were in the 
planning, that planning will continue. It will not have that 
much effect.
    Mr. Rogers. Can you give the committee an idea about how 
large a number of fighters comprise ISIS and how many of those 
are in prisons?
    Director Travers. As I mentioned, there are 20-odd ISIS 
branches and affiliates around the globe. They may be as few as 
hundreds. They may have as many as thousands in the case of 
Khorasan.
    We believe that within Syria and Iraq, there are at least 
14,000 ISIS fighters, and that is an important number because 5 
or 6 years ago when ISIS was at its low point, they were down 
under 1,000.
    So to us this tells us that the insurgency has a lot of 
options.
    Within the prisons, the SDF had roughly 10,000 prisoners 
in, oh, 15, 20 prisons in Syria. Roughly 2,000 of those were 
foreign fighters.
    Mr. Rogers. OK. There was some faulty reporting recently 
about ISIS fighters being released from prisons and/or escaped. 
Can you tell us what is true and what is not true?
    Director Travers. Well, we know of no instance where ISIS 
fighters were released from prisons. There have been some 
prison breaks, not so much in the last few days. I think we 
were something over 100 individuals broke out of prisons.
    There is a lot of fog of war as individuals are being 
relocated. We think the SDF has been incredibly professional 
about this, trying to relocate prisoners, and they are trying 
to keep control of the prisons.
    It is going to be very interesting to watch over the coming 
weeks with the Turkish-Russian accord and the Syrian move into 
east of the river, how those prisons are being managed going 
forward.
    Mr. Rogers. Outside of al-Qaeda and ISIS, what affiliate 
organizations are you most concerned about?
    Director Travers. I am sorry, sir?
    Mr. Rogers. Outside of ISIS and al-Qaeda, what affiliate 
organization are you most concerned about?
    Director Travers. Well, the entire Shia side of the house, 
so certainly Iranian-backed Shia militia groups and Hezbollah 
and so forth.
    As I mentioned and as my colleagues have mentioned, the 
homeland violent extremist individual threat is amongst the 
greatest that we worry about.
    Mr. Rogers. Good. I will use my closing seconds to welcome 
our newest Member to the committee. Representative Bishop, Dan 
Bishop, won an election last month to represent North 
Carolina's 9th District. He will serve on the Emergency 
Preparedness and Transportation Security Committees.
    I know he is going to be a fine addition to the committee 
membership.
    I yield back.
    Chairman Thompson. The gentleman yields back.
    The Chair recognizes the gentlelady from Texas, Ms. Jackson 
Lee for 5 minutes.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    To you and the Ranking Member, this is a very crucial 
hearing. I appreciate the time given, although the time is 
short.
    Mr. Secretary, let me thank you very much for both your 
dedication and commitment to this Nation, as your fellow 
witnesses are likewise public servants, and we thank them for 
their service.
    Let me start with you, and my time is short. So I note in 
your testimony on page 4 of your testimony you state, ``Perhaps 
one of the most significant evolutions over the past 3 years 
has been domestic actors' adoption of FTO techniques to inspire 
individuals via the internet to carry out acts of terrorism.''
    Can you briefly explain that and what Homeland Security is 
doing about that briefly?
    Secretary McAleenan. Very briefly, if you go back a few 
years to look at what al-Qaeda and its affiliates were doing 
with Zarqawi in Yemen, for instance, really using the internet 
to appeal to disaffected youth and to try to radicalize from 
afar, that was the home-grown violent extremist phenomenon.
    We are seeing that unfortunately with other ideologies, and 
the ability to communicate with like-minded individuals and get 
validation.
    Ms. Jackson Lee. Right. So what is Homeland Security doing 
about that?
    Secretary McAleenan. We are doing several different things. 
First, the strategic framework outlines the whole-of-community 
efforts to build awareness, to identify opportunities to see 
risks being presented by individuals on a pathway to violence.
    But in terms of monitoring that internet space, especially 
if on the Dark Web, that is one of the serious challenges we 
face going forward. We want to work with private-sector 
entities to ensure they have good policies, to monitor content, 
and to address it.
    Ms. Jackson Lee. Thank you.
    Secretary McAleenan. If it is inciting violence, but the 
FBI----
    Ms. Jackson Lee. Thank you, Mr. Secretary.
    Secretary McAleenan [continuing]. Do not police ideology. 
We are trying to look at individuals who are on a pathway to 
violence.
    Ms. Jackson Lee. Thank you.
    This chart represents, I think, a dangerous phenomenon. The 
red indicates that these are vacant. They are acting persons.
    Do you find it difficult to secure the Nation when you have 
most of the positions held by temporary persons?
    Is that something that should be corrected?
    Secretary McAleenan. So it is very good to have confirmed 
leadership. That helps with interactions with Congress. It 
ensures the alignment with administration policy.
    Ms. Jackson Lee. Thank you.
    Secretary McAleenan. What I can tell you though is that our 
career leaders, our senior executives throughout the 
organization are tremendous and are men and women on the front 
lines----
    Ms. Jackson Lee. I appreciate that, Mr. Secretary. I need 
to go on to my other question.
    It has been reported that there are close to 3,000 children 
that were separated from their parents, and by the way, I 
appreciate your extensive answer. I just have a very short 
period of time.
    So my question is on the burden that it puts on your men 
and women at the border. Do you now view that as a failed 
policy and did not hold the deterrence that it should have 
held?
    Children as young as 9 months, I held Roger in my arms. He 
was 9 months old separated from his family.
    Can you give me a quick answer on that please? I have a 
question for Director Wray.
    Secretary McAleenan. Respectfully, Congresswoman, I have 
testified several times on this. I have spoken publicly and to 
media and press on this issue. It was an effort to prosecute 
people violating the law.
    We lost the public trust for that effort, and the President 
was right to end it.
    Ms. Jackson Lee. Let me, Director Wray--I take that as it 
was a failed policy, but I thank you very much for your 
service.
    Director Wray, let me quickly. I was at a meeting last 
evening dealing with biologic threats, threats of smallpox or 
Ebola being used by terrorists. Can you tell me what work the 
FBI is doing on this very difficult act of terrorism that might 
impact the American people, No. 1?
    No. 2, a specific question dealing with 2 individuals that 
are unidentified being sought by police for the assault of an 
unarmed black man in Charlottesville. These individuals are 
still at large.
    I am wondering if you are aware of them and whether the FBI 
is engaged with trying to find these individuals involved in 
Charlottesville.
    Would you please answer those questions, please?
    Mr. Wray. Just taking your second question first, I am not 
at least sitting here right now familiar with the specifics of 
that matter, but I am happy to take the information from----
    Ms. Jackson Lee. I would appreciate it. I will give it to 
you. Thank you.
    Mr. Wray. On the first question related to the biological 
weapons, as I think Mr. Travers mentioned, that is something 
that we are increasingly concerned about. We are trying to go 
about it through a number of different lenses working with our 
partners.
    No. 1, we are, of course, working with the rest of the 
intelligence community to try to gain more information about 
the capabilities, plans, and intentions of different 
adversaries in terms of their designs on different kinds of 
biological weapons.
    Second, we are working more and more closely with what you 
might consider non-traditional partners, whether it is labs, 
people in the medical industry, you know, research and 
development people to better understand what the capabilities 
are.
    A lot of that work happens through our Weapons of Mass 
Destruction Division, which is really single-mindedly focused 
on this kind of stuff.
    Then, of course, we have our Joint Terrorism Task Forces, 
which have investigated a number of attacks, and they are 
always on the lookout for information there, where we see any 
indication that a particular subject is looking into that kind 
of weapon.
    We do think it is something that is going to become 
increasingly hard to chase just because the internet, again, 
makes the recipes for these things more and more widely 
available to less and less sophisticated actors.
    Ms. Jackson Lee. Thank you.
    Chairman Thompson. The gentlelady's time has expired.
    The Chair recognizes the gentleman from New York--oh, I am 
sorry--from----
    Mr. King. How could you forget?
    Chairman Thompson. Yes. Well, you appeared to be off----
    Mr. King. I appear to be forgotten. I know.
    Chairman Thompson. Yes, well, I recognize the gentleman 
from New York for 5 minutes. Mr. King.
    Mr. King. Thank you, Mr. Chairman. I appreciate that.
    First of all, Secretary McAleenan, thank you for your 
service. It has been truly outstanding in some very difficult 
times. I really admire and appreciate that.
    Also, in my direct dealings with you, I have always found 
you to be totally straightforward. I want to again express my 
appreciation.
    Director Wray, let me say especially from a parochial point 
of view of the very close relationship between the FBI and the 
NYPD and local police. It was not always that way in New York, 
but the JTTF is really functioning very well right now, and as 
far as I am concerned, the level of cooperation has never been 
better. So I want to thank you for that.
    On some of these specific questions, Mr. Travers, you 
mentioned about the fog of war and we are not certain exactly 
how many ISIS prisoners may have escaped. Once that fog of war 
clears, and hopefully soon, what are our plans to get a reading 
on those 100, the chances of them going to Europe and coming to 
the United States or any attempt for them to become part of any 
coordinated effort against the United States?
    Again, how soon do you think we will know how many escaped 
and where they are?
    Are we working with our foreign partners, European partners 
especially, to track them going back into Europe?
    Director Travers. So we spent a great deal of time trying 
to work with the SDF over the past couple of years on 
biometrically enrolling individuals so that we can, as Acting 
Secretary McAleenan indicated, ensure that our vetting 
processes are such that individuals cannot come to the United 
States.
    I am actually feeling pretty confident certainly on the 
foreign fighter issue. That one has been worked very hard 
because over the last couple of years there was a concern about 
trying to get European countries to repatriate. We have not had 
a lot of success, and so we got somewhat fatalistic that we 
would eventually be seeing some of these individuals long 
before the Turkish incursion.
    As a result, the ability to catalogue who they are and get 
them into the appropriate databases is, I think, a good thing.
    The Europeans may have somewhat greater difficulty. They do 
not screen in the same way we do. The European Union processes, 
while they have improved dramatically since Paris and Brussels, 
they are still trying to deal with 28 countries, and so the 
Schengen system, I think it is fair to say, is somewhat more 
porous than ours.
    So for us, I think we are in pretty good shape, at least on 
the foreign fighter problem. For the Europeans, I think they 
still have some challenges.
    Mr. King. Again, I would tie those 100 or whatever number 
it is escapees into that foreign fighter category.
    How does that shape then? How does that change the picture?
    Director Travers. Well, our expectation is that the vast 
majority of the individuals that escaped more likely than not 
were Syrian and Iraqi and will be looking to stay in the 
region. They will be incorporated into the ISIS insurgency in 
all likelihood.
    We could still see them serve as suicide bombers, and so 
forth. I think it is fair to say that where we had the SDF 
locking down these prisons for a couple of years, the 
expectation is that we will probably see more releases.
    Just 3, 4 weeks ago, we had Abu Bakr al-Baghdadi indicate 
in a radio that he wanted to attack both prisons and IDP camps 
to get people out. I assume that we will see some of that. 
Those prisons are vulnerable.
    Mr. King. Director Wray, Secretary McAleenan, do you have 
any comment on that?
    Mr. Wray. I would just add in that, of course, the FBI has 
had our folks over there doing a lot of these biometric 
enrollments, and I do think that is an important part of the 
defense, and so I agree with Mr. Travers on that.
    We are concerned that some of these folks may exploit the 
visa waiver program ultimately and may not be an immediate term 
threat to us, but over time could find their way in in ways 
that we have to be vigilant about.
    I would also say that we know that ISIS has started to take 
advantage of using women in operational planning and trying to 
recruit youth more and more, some of them in these displacement 
camps that were in Syria. So it is a little bit hard to gauge.
    I know our European partners are very worried about this, 
part of the plan by ISIS to try to launch kind-of a 
multigenerational conflict, and that is going to present all 
kinds of challenges for us and our partners.
    Mr. King. Secretary McAleenan.
    Secretary McAleenan. I agree with both Director Wray and 
Acting Director Travers.
    Just 2 notes. We are working this on the multilateral level 
with the European Union and Europol, both providing our 
capabilities and reach-back to identify threats.
    I agree with Acting Director Travers on the work in the 
region. We have been there alongside the FBI and DOD helping 
identify people on the battlefield so that we can prevent them 
from accessing the homeland in the future.
    But also, we have on a bilateral basis, we have extended 
our capabilities, an automated target system, global, some of 
the techniques to identify watch-listed individuals or even 
those that present risky travel patterns. We have given that 
capability to our European partners, to our Southeast Asian 
partners, and extensively in the Western Hemisphere.
    So if individuals do try to travel toward us, we do have 
layers of international partner capability that will help 
identify and stop that movement.
    Mr. King. Thank you all. Again, Secretary, thank you for 
your service.
    I yield back.
    Chairman Thompson. The gentleman's time has expired.
    The Chair recognizes the gentleman from California for 5 
minutes, Mr. Correa.
    Mr. Correa. Thank you, Mr. Chairman.
    I want to thank our guest speakers for being here today.
    You know, an American life is an American life, whether it 
is in America or outside the U.S. Soldier, an American soldier 
is an American. An American front-liner, whether it is a 
firefighter or a police officer, is an American.
    So we talk a lot about foreign terrorists and domestic 
terrorists, and my concern is: Are we separating these into 
silos and treating them independently?
    I am hearing stories that we may have domestic terrorists 
going overseas to the Ukraine, getting trained on ISIS tactics, 
coming back to the United States prepared to do God knows what.
    Are we having enough coordination between domestic 
terrorist operations and international terrorist operations in 
terms of your defensive capabilities to make sure that we are 
not missing anything?
    Mr. Wray.
    Mr. Wray. I think you are onto a trend that we are watching 
very carefully. I know we have had conversations with NCTC 
quite a bit on this topic.
    We are starting to see racially-motivated violent 
extremists connecting with like-minded individuals overseas on-
line certainly. In some instances, we have seen some folks 
travel overseas to train and----
    Mr. Correa. Where?
    Mr. Wray. It varies. Different parts of Eastern Europe.
    Mr. Correa. OK.
    Mr. Wray. We have seen some connections between U.S.-based 
neo-Nazis and overseas analogues, and certainly a more 
prevalent phenomenon that we see right now is racially-
motivated violent extremists here who are inspired by what they 
see overseas.
    So, for example, the Christchurch attack in New Zealand, we 
have had, you know, folks that we have arrested here who were 
motivated by what they saw happening over there. So they are 
not working together, but they are just fueled by each other.
    Just to be clear on the silos point that you made, on the 
FBI end, our Joint Terrorism Task Forces, which bring together 
something like 50 different Federal agencies and like 500 State 
and local agencies, we tackle domestic terrorism and 
international terrorism both through the Joint Terrorism Task 
Forces.
    So I think that ensures less risk of that silo issue that 
we are talking about.
    Mr. Correa. So if I call my local Orange County Sheriff and 
ask him if his Fusion Center is coordinating with your Fusion 
Centers, the answer from him would be yes?
    The answer from him would also be yes if I asked him is 
there a two-way line of communication or is there only 
information on a need to know basis that he gets from your 
agency?
    Mr. Wray. Well, I do not want to speak for the Orange 
County Sheriff, but as I said in my opening, I have traveled 
out to California, to every field office, met with partners, 
including Orange County, LAPD, et cetera, and the feedback I 
get from our partners is that the chemistry and the information 
flow between the FBI and our State and local partners is better 
than it has ever been.
    In fact, just a few days ago I brought together, which was 
not happening before, all of the major city chiefs with our 
SACs in charge of all of our field offices in one room for a 
whole afternoon, Classified briefings, working together.
    So there is a lot going on on that front, and I would hope 
you would----
    Mr. Correa. It is very delicate when it comes to talking 
about Americans or privacy, and when you start to begin to talk 
about domestic versus international terrorism, you may run into 
some legal constraints in terms of what you do without a 
warrant when it comes to American citizens.
    Do you have any thoughts of how to address that issue?
    You are talking about somebody overseas. Then you are 
talking about an American citizen. How do you gather the proper 
intelligence to address those issues?
    Do you have the legal framework there to protect privacy 
and at the same time let you do your job?
    Is there anything we can do to help you do your job better?
    Director Travers. Well, we are very sensitive to the 
privacy concerns, especially when it comes to U.S. persons. We 
say all the time, every day, throughout the FBI our job is to 
protect the American people and uphold the U.S. Constitution.
    I will say in terms of things that we are concerned about, 
and you have heard it referenced, I think, by every member of 
this panel, the encryption issue is a real problem. I think a 
lot of people do not fully understand the impact that is 
already having on our joint efforts and, more importantly, what 
it is going to be another year or 2 years from now.
    More and more terrorists, domestic terrorists and 
international terrorists, are resorting to putting their 
communications on encrypted messaging platforms.
    Mr. Correa. If I may, Mr. Chair, just a couple more seconds 
here.
    I just wanted to emphasize to all of you gentlemen here 
that in my district, I think, and other districts across this 
country, the El Paso shooting brought us to a new level of 
consciousness in terms of our safety locally.
    So what I am trying to say is domestic terrorism on my list 
is No. 1 now.
    Thank you very much.
    Chairman Thompson. The gentleman yields back.
    The Chair recognizes the gentleman from Louisiana for 5 
minutes, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Secretary McAleenan, thank you for your service and your 
tenure. You shall be missed. You have testified many, many 
times. You will be missed by this committee. None of us shall 
miss attempting to pronounce your last name.
    [Laughter.]
    Mr. Higgins. So thank you for your service. I think you 
reflect the very highest standards of commitment to service to 
we, the people, and the law enforcement community, myself 
included, certainly recognize your professionalism in very 
difficult times.
    Now, regarding border security and the humanitarian crisis 
at the border, just to follow up on what my esteemed colleague 
stated earlier, in my opinion and the opinion of many 
Americans, the responsibility for failure primarily lies with 
Congress, not with the boots on the ground and not with the 
Executive.
    On June 27, after many months of delay, the Emergency 
Border supplemental to address the humanitarian crisis at the 
border was finally passed by this Congress. Important missions 
like providing Health and Human Services funds to carry out 
programs for unaccompanied alien children, many other very 
worthwhile investments, those funds specifically were meant to 
ensure for unaccompanied alien children, that minors received 
adequate care and services to address the humanitarian crisis 
at the border.
    I witnessed this, and my colleagues, first-hand. So I ask 
you, sir: Since funding was passed, have you seen improved 
conditions at the border with regard to the humanitarian aid?
    Secretary McAleenan. We have seen dramatic improvements, 
Congressman. We were able to apply that funding immediately to 
increase available bed space for unaccompanied children with 
Health and Human Services. That resulted in a dramatic drop 
from a peak of 2,700 unaccompanied children in border stations 
down to now on an average day, it is between 85 and 150.
    Those children are moving very quickly to a better setting 
for their care, usually in less than 24 hours.
    Mr. Higgins. Would you concur that this, of course, is a 
priority not just for the Department of Homeland Security, but 
for us as a Nation, as a compassionate and loving nation?
    Secretary McAleenan. There is no question, and the 
opportunity to provide a better situation for families arriving 
with the new facilities, the 6,000 additional temporary beds 
that we have provided that are not in border patrol, not in 
police stations, if you will, also----
    Mr. Higgins. Thank you for clarifying that.
    I bring that up because this committee has a responsibility 
to move forward the people's business in a bipartisan manner, 
and I ask you, Mr. Secretary, do you believe regardless of what 
party controls Congress, who is in the Majority or Minority, or 
who sits in the White House, that focus and funding from 
Congress on the continuing issues at our Southern Border, 
security and humanitarian; would you concur that regardless of 
politics in this bizarre realm of Washington, DC, that we 
should as a Nation focus on improving the conditions at our 
Southern Border?
    Secretary McAleenan. I would agree.
    Mr. Higgins. Thank you, sir.
    May I ask in my remaining time regarding cartel activity, 
there have been reports of increased cartel-to-cartel violence. 
How has that impacted Customs and Border Patrol at the border?
    What level of cooperation is DHS receiving from Mexican law 
enforcement?
    Has that cross-border cooperation been impacted greatly by 
the increased conflict among Mexican criminal cartels?
    In my remaining minute, if you will address those questions 
regarding the cartel activity in Mexico.
    Secretary McAleenan. So the extreme violence that the 
cartels or TCOs are mounting are really over control of 
territory, control of access to the border, the very valuable 
routes to conduct drug smuggling activities or human smuggling 
activities remains very intense, especially in Tamaulipas, 
which is the easternmost northern border state in Mexico.
    That creates challenges in our security environment at the 
border, but also for our Mexican counterparts. They have 
stepped up. They have identified 25,000 troops, if you will, 
that are----
    Mr. Higgins. You say ``they.'' Just to clarify, you mean 
Mexican law enforcement?
    Secretary McAleenan. The Mexican government. They have 
taken elements of their military, elements of their navy, and 
elements of their federal police and combined them into a 
national guard that is now helping patrol both their southern 
border between Chiapas and Guatemala, for all types of 
smuggling, especially human smuggling, and states in transit 
routes toward their northern border.
    Where we still want to collaborate further and try to gain 
control is working with them on joint patrols on our shared 
border so we can prevent access to those routes for any type of 
smuggling to these violent organizations, and that is an area 
we need to continue to partner and develop.
    Mr. Higgins. Mr. Secretary, again, thank you for your 
answer, your service.
    Mr. Chairman, my time has expired, and I yield.
    Chairman Thompson. The gentleman yields back.
    The Chair recognizes the young lady from New Mexico, Ms. 
Torres Small for 5 minutes.
    Ms. Torres Small. Thank you, Mr. Chairman. Thank you, 
Ranking Member.
    Thank you all for being here today, and particularly, 
Secretary McAleenan, thank you for your presence here on the 
eve of your departure. Thank you for your years of service to 
the Department of Homeland Security and to our country.
    On the eve of your departure, we are looking now at our 
fifth Secretary of Homeland Security, and I would like to hear 
how you think that lack of continuity in leadership might 
impact the ability for the Department to fulfill its mission of 
protecting National security.
    Secretary McAleenan. One of the things that has been very 
gratifying for me the last 6\1/2\ months serving as Acting 
Secretary. It was really getting exposed to parts of the 
Department that I knew about but had not had a chance to work 
directly with.
    You know, areas where we had partnered on counter-narcotics 
or, say, a response to a natural disaster like with the Coast 
Guard, but now it is kind of imbedding with them. I spent the 
night on a Coast Guard cutter 2 weeks ago off the coast of El 
Salvador, really understanding their mission, their 
capabilities.
    I mean, talking with our CISA professionals on how they are 
looking at the cyber landscape and working with the private 
sector, working with State and local, these 8,800 
jurisdictions, counties, and townships that are managing 
elections, thinking about the similarities between how at 
Customs we worked with the supply chain side, how they are 
working with State and locals.
    I am just very confident with the quality and caliber of 
leadership and front-line people across this entire Department. 
I have seen how effective they are. I have seen how clear they 
are on their mission, and I see how dedicated they are.
    Ms. Torres Small. Thank you, Secretary.
    Secretary McAleenan. Senior leadership is key. I am not 
going to disagree with you there, but I am not worried about 
continuity in our efforts to protect the American people across 
a whole range of threats.
    Ms. Torres Small. I think we both can agree that there are 
good folks working and that senior leadership is key.
    One of the concerns that I think you hit on that I share is 
when it comes to our cyber assets, when it comes to protecting 
our election infrastructure and when it comes to combatting 
transnational criminal organizations, all of those require 
careful relationships with private partners, with foreign 
partners, with our public sector. It requires careful 
coordination and leadership is key in that.
    Do you see how lack of leadership, especially when you have 
identified the need to bring Government, private sector, and 
international parties as well as the public together to combat, 
for example, or to protect our cyber assets?
    Do you see how having to go through another Secretary could 
impact our ability to do that?
    Secretary McAleenan. So I focused on 3 things during my 
tenure: The border security and immigration crisis, election 
and cybersecurity, and counterterrorism and domestic terrorism.
    One of the things I am very pleased with is we have very 
clear strategic intent and strategic framework on----
    Ms. Torres Small. I understand that. In terms of cyber 
assets, do you see the change in leadership, again, could 
impact our ability to maintain those essential partnerships?
    Secretary McAleenan. The main connection point on cyber 
with the communities, both interagency and the private sector, 
is the director of CISA. Chris Krebs is in place. He is well-
respected and regarded and has a tremendous relationship that I 
have seen in action across those areas.
    I do not think a different Secretary or Acting Secretary is 
going to affect that progress.
    Ms. Torres Small. OK. So when it comes to election 
security, again, one of the main focuses is making sure that 
you are working with foreign partners as well as with local 
election officials, State officials.
    Given that on the eve of Secretary Nielsen's departure she 
sought to warn the President about continuing Russian 
involvement, do you see a change in leadership impacting the 
potential for protecting our election security?
    Secretary McAleenan. I do not. In fact, with Director Wray, 
with the DNI, with Chris Krebs from CISA, with Paul Nakasone, 
General Nakasone from NSA, we briefed the House in July and the 
Senate on our joint efforts as a team to address election 
security from the foreign to the counties and townships, and I 
think we have a team effort, and very clear lanes that we are 
all working in concert against.
    Ms. Torres Small. Secretary McAleenan, I do not want to 
downplay the work that you have done. I just have a fear that 
some of it will be lost with continuing efforts to protect our 
election infrastructure, and that is my concern.
    You have expressed a need for this to continue into the 
work of 2020 for that election cycle. So do you see that 
impacting with now having to change leadership, given the steep 
learning curve that the next person will have?
    Secretary McAleenan. I do not think so because of the 
strength of Director Krebs and our partners across the cyber 
and election security efforts.
    Ms. Torres Small. Last, with transnational criminal 
organizations and the need to coordinate with Federal partners 
as well as foreign partners to alleviate some of the push 
factors that we are seeing in the Northern Triangle, do you see 
that the change in leadership, the lack of continuity will 
impact those relationships to help stem those push factors?
    Secretary McAleenan. That has been the entire focus of my 
tenure. Really, I mean, we have over a dozen agreements with 
Mexico and Guatemala, Honduras, El Salvador, respectively. We 
are now executing against those agreements, and I have high 
confidence with our international affairs team and our 
operators that we will be able to maintain that momentum.
    Ms. Torres Small. So it has been the main focus with you as 
Secretary to do that work, and how you are having to leave and 
someone else will have to face that learning curve.
    Secretary McAleenan. Well, the agreements are in place, and 
we are actually executing and operating against those 
agreements. So we do not have to do that front-line diplomatic 
effort again.
    So I do think we have momentum in place and the layers that 
we need to continue to make progress.
    Ms. Torres Small. Thank you, Secretary.
    I yield my time.
    Chairman Thompson. The gentlelady's time has expired.
    The Chair recognizes the gentleman from Texas, Mr. Taylor, 
for 5 minutes.
    Mr. Taylor. Thank you, Mr. Chairman. I appreciate that.
    I appreciate this hearing. I think this is important.
    I just wanted to start toward the Department of Homeland 
Security. I appreciate your leadership there, and in some ways 
in my short time here in Washington, it seems like an agency 
that is embattled. We are watching different groups advocating 
for different things.
    One of the things I have been most surprised by is the 
advocacy for disbanding Department of Homeland Security. It 
certainly almost goes without saying that that is bad for 
morale when Members of Congress are advocating to get rid of 
the entire Department of Homeland Security.
    Mr. Secretary, how would you respond to someone who says 
that we do not need a Department of Homeland Security?
    Secretary McAleenan. I guess fundamentally I would say they 
do not understand how the Department has matured and evolved to 
work in a cohesive manner to address the threats we face.
    I think it is an essential part of our homeland security 
fabric and enterprise. The synergy that we have developed 
across operating components with our Intelligence Analysis 
Directorate, with State and local partners, with international 
partners, that is because of the multi-mission capabilities 
that we bring, the authorities that are unique, the opportunity 
to have both civilian and military service with the Coast Guard 
under our umbrella.
    All of that is integral to protecting the homeland across 
the variety of threats that I outlined in my opening statement.
    Mr. Taylor. In addition to threats, you also have FEMA, 
which is the ability to respond. You have Coast Guard, which 
now deals with threats but also response to National disasters.
    I will say that I have not heard a Member of this committee 
who seem to have more expertise and understanding of what it is 
that goes into what you do and appreciation that we may 
disagree on how you are doing it or the complexity of how you 
do it; we can all agree that certain things need to be done, 
whether it is a disaster response or securing the border or 
having an immigration system that is orderly.
    So I just want to let you know that I do not think that we 
should be getting rid of the Department of Homeland Security, 
and I am somewhat taken aback with the suggestions from some of 
my colleagues that that is an idea.
    But, again, I have not heard that on this committee.
    Just I know that during your questioning, you were cut off 
a couple of times. Is there anything you wanted to add or you 
felt like you had not had a chance to express at this point, 
Mr. Secretary?
    Secretary McAleenan. Nothing to add right now. Thank you.
    Mr. Taylor. All right. Director Wray, just shifting over to 
your job, it seems like you are able to police into people that 
are inspired by international terrorist organizations; that 
that is easier to do because there is some web of ideology that 
you are able to integrate into, whereas home-grown violence 
seems to be a little bit more difficult to police.
    Can you talk about is that a correct perception?
    That is my perception from sitting on this committee, but I 
just wanted to hear from someone who is doing it on the ground.
    Mr. Wray. I think you are correct, Congressman. In 
particular, on the international terrorism side, because of the 
nexus to foreign persons and foreign threats and foreign 
terrorist organizations, we have the ability to use 
intelligence tools, counterintelligence tools, counterterrorism 
tools, FISA, in particular, which is absolutely indispensable 
to our effectiveness in protecting this country.
    We, of course, do not have that in a domestic, a purely 
domestic terrorist context. So that is one particular way in 
which we have less transparency sometimes.
    But I will say in general the domestic terrorism threat is 
increasingly, as I think Mr. Travers used the term ``diffuse,'' 
and I think that is why this issue of complacency becomes so 
important.
    You know, the post-9/11 era of sleeper cells, well-
structured, very disciplined, massive, large-scale attacks, 
that is still out there, but we have moved into this world 
where you have terrorists including domestic terrorists, who 
are not really that organized who are and some people use these 
terms ``lone actors.'' I do sometimes, but a lot of times they 
are communicating with each other in a more informal way, on-
line or in some other way, inspiring each other.
    The lack of a structure makes it more challenging for us, 
for example, to get human sources or undercovers inserted. If 
there is no organization to insert somebody into, that is a 
challenge. So that is part of the different nature of the 
threat.
    Mr. Taylor. Sure. I guess in my closing seconds, I would 
just like to thank the men and women of the FBI for what they 
do for our country. I am incredibly grateful, particularly for 
your counter-corruption efforts and what you have done to keep 
this country on the level in terms of Government.
    It has been depressing to me to watch how states are so 
unable to police themselves in terms of corruption, and I am 
very grateful for the people at the FBI that really provide 
that level of policing. They are really just a mission-critical 
thing for this for our democracy.
    So I am grateful for your service and the service of the 
men and women that you serve.
    Mr. Chairman, I yield back.
    Chairman Thompson. I thank the gentleman. The time has 
expired.
    For everybody concerned, we are trying to get the 
temperature adjusted a little bit. I just kind-of look at 
everybody, and they are kind-of drawn up.
    We understand.
    The Chair recognizes the gentleman from New York for 5 
minutes, Mr. Rose.
    Mr. Rose. Mr. Chairman, thank you. Ranking Member and to 
the gentlemen of the day, thank you all for your extraordinary 
service.
    I want to first just put out a few questions regarding our 
current efforts against the Jihadist threat and make sure we 
are on the same page.
    My understanding is today we have the correct levels of 
authority and resources at hand to tack foreign Jihadist 
fighters moving to ISIS or al-Qaeda and its affiliates and 
their efforts to come to the United States.
    That is correct?
    [No response.]
    Mr. Rose. OK. Currently we have the correct resources and 
authority at hand to track and use the tools of law enforcement 
to prevent or punish those American citizens who send resources 
to ISIS, al-Qaeda or its affiliates; is that correct?
    [No response.]
    Mr. Rose. Last, currently we have the correct resources----
    Chairman Thompson. Hold on just a minute.
    Say yes or no. That helps everybody for the record.
    Mr. Wray. I am answering the last question. My answer to 
the last question is yes.
    Mr. Rose. Thank you.
    Currently we have the authorities and the resources at hand 
should someone use the tools of social media to translate ISIS 
texts, al-Qaeda texts, disseminate that information, recruit 
people whether at home or abroad. The tools of law enforcement 
are available to us to punish those individuals; is that 
correct?
    What I am specifically referring to is providing material 
support to a foreign terrorist organization.
    Mr. Wray. Right. Certainly legally material support is a 
very valuable tool for the kinds of things you are talking 
about.
    You get into the technological dimension of it which is 
becoming increasingly challenged, which is that encryption 
issue I was talking about before, and that is a real phenomenon 
that is going to become a bigger and bigger legal issue.
    Mr. Rose. Of course. I just mean, sir, if we can identify 
what we are doing, there are charges associated with that.
    Now, you all described each in your own separate way this 
domestic terrorism threat that we are facing today, white 
nationalism, white supremacist threat that we are facing as 
transnational in nature and mirroring many of the tools of 
ideological persuasion that the Jihadist threat has used for 
the last 25, 30 years or more.
    So I just want to ask you the same exact questions as it 
pertains to some of these global white nationalist, white 
supremacist, neo-Nazi organizations that we currently see 
today, the Azov Battalion in Ukraine, which over 17,000 foreign 
fighters have streamed to; National Action in the United 
Kingdom; Nordic Resistance in Sweden, all entities that the 
Federal Government has already identified as hostile in nature.
    Do we currently have the authority and resources in place 
to track who has gone to these entities to train and work with 
them, and to make sure that they are tracked when they came to 
the United States?
    For you, Mr. Secretary.
    Secretary McAleenan. So that is one of the things we 
emphasize in our strategic framework, that for DHS our 
operational effectiveness and our authorities really apply to 
that border and cross-border movement of people, goods, money.
    Mr. Rose. It is a simple question, Secretary, and again, 
with respect to your service, someone goes and trains with the 
Azov Battalion.
    Secretary McAleenan. Right.
    Mr. Rose. Do we have them on the list in the same way that 
we would have someone on the list if they went to go train and 
fight with ISIS?
    Secretary McAleenan. So between our National Targeting 
Center under CDP, our Homeland Security Investigations, we have 
had multiple efforts, Hammerskins, Rise Above Movement, just in 
the last year where we have used that international cross-
border collaboration and movement to address and make arrests, 
take away visas, prevent that collaboration.
    So, yes, we have been focused on that.
    Mr. Rose. Good. Sir. Mr. Director.
    Mr. Wray. I think we use different tools than we do on the 
international terrorism side, but I think we have been 
effective much as Secretary McAleenan said. We just use 
different offenses and work with our foreign partners on it.
    Mr. Rose. Mr. Travers.
    Director Travers. I have probably talked to 15 of my 
counterparts around particularly Europe and Southeast Asia on 
this particular problem. Everyone is grappling with the same 
thing.
    There are experiments in terms of naming these 
organizations. In many cases our European colleagues find that 
these organizations are very close to political parties, and 
that confronts the free speech issue, and so this is something 
we are all grappling with as this question of designations 
comes up.
    Mr. Rose. Well, so is Hamas and Hezbollah, and that has not 
stopped us.
    My larger question here is that do we need to consider 
designating some of these entities as foreign terrorist 
organizations or is the current policy of the United States of 
America that we only designate Muslim organizations as FTOs?
    If white nationalist organization fits the criteria of an 
FTO, as I believe these do, should we consider designating them 
as such?
    You have the broad-based authorities. You currently do to 
fight ISIS and al-Qaeda and its affiliates.
    Director Travers. Designations is not an intelligence 
community function. It belongs to the State Department.
    Mr. Rose. Is that all of your answers here, that this is 
the State Department's purview?
    Mr. Wray. Designations is the purview of the State 
Department, yes.
    Mr. Rose. I understand. My time is running out. My question 
is that would this assist you because I am sure that if we took 
away the FTO designation for other terrorist organizations, you 
would protest. You would object to that.
    Mr. Wray. We would find that very operationally 
problematic, yes.
    I will say that as Secretary McAleenan said in response to 
a different question, we can always use more tools, right? You 
are never going to find a law enforcement or intelligence 
professional that would not like more tools, and I can imagine 
situations where what you are describing would be very helpful 
for us to have as a tool.
    I will also say though that more and more--and I referenced 
this in my opening statement--more and more the biggest threat 
we face here in the United States is these, whether it is 
domestic terrorists, like white supremacists, or international 
terrorism, people who are inspired by Jihadist movements, we 
have these self-radicalized actors here, and so the whole 
concept of going after organizations, which was a construct 
which was created about things like al-Qaeda, Hezbollah, et 
cetera, is still valid, but the threat that we face right now 
is not so much about organizations.
    That is why the approach that you are describing might be 
useful, but I do not think that it is going to necessarily hit 
what we consider the biggest threat that we are facing here, 
and that is why what Mr. Travers said is so important.
    Mr. Rose. Thank you.
    Chairman Thompson. The gentleman's time has expired.
    The Chair recognizes the gentleman from New York, Mr. 
Katko.
    Mr. Katko. Thank you, Mr. Chairman.
    At the outset I want to thank Mr. McAleenan for his career 
in public service and all he has done to help keep our country 
safe. We very much appreciate what you have done, and you have 
done an extraordinarily good job, and thank you for that.
    I wish I had an hour or 2 hours with all of you because 
there are so many questions I want to ask, but you know, 
Director Wray, something you said really struck me, and that 
was that on the cyber front we have a wider range of threats 
now than ever before.
    I could not agree with you more, and as the Ranking Member 
on Cybersecurity Subcommittee, I am constantly amazed at the 
complexity of the threats and the permutations of the threats. 
So I want to talk about that a little bit if I can.
    You mentioned a few of them, ransomware, supply chain, 
trade secrets, China. What else can we be doing as a committee 
to give you the tools to address this issue?
    I am going to ask some of the others the same thing.
    Mr. Wray. Well, certainly, we need to work more and more 
closely with the private sector, and so things that help 
facilitate that are always useful. You know, in this country, 
something like 90 percent of the critical infrastructure is in 
the hands of the private sector, and so the cyber threats, in 
particular, for the United States, unlike, say, a very 
centralized country like China where over half of the companies 
are state-owned enterprises, requires this partnership with the 
private sector.
    So this is a place that for me we need to see more and more 
resources, quite frankly, devoted because we are going to have 
to engage more and more with the private sector on that issue.
    I will also say that data analytics are an increasingly big 
problem. It is not a sexy topic, but it is incredibly 
significant in the cyber arena, particularly. In any one case, 
if you just stop and think about it for a minute, the volumes 
and volumes of them coming up with new kinds of bytes. You 
know, but your own prefix in front of it to capture the sheer 
volume of what we are getting in every case.
    The ability to exploit that fast enough is a real 
challenge, and so helping DHS and FBI and others with kind-of 
the tools to exploit that information is going to be a real 
step forward.
    Mr. Katko. Yes, and I do want to talk about that a little 
bit. You are right, and it is a different dynamic.
    I was a Federal prosecutor for 20 years, organized crime, 
and so we had different agencies. You worked together with 
them, and you go after the bad guys, and you are protecting the 
public.
    But here we have to work so closely with the private 
sector. I do not think we do a good enough job, and from a 
resource standpoint.
    So could you expound just a little bit on the resource 
standpoint, what specifically you think you would need in order 
to get this done?
    Mr. Wray. Well, we need more agents, computer scientists, 
data analysts, and tools, technological tools to be able to 
engage on more and more cases.
    We find that one of the biggest frustrations that we have 
from the private sector is how quickly we can engage on a lot 
of these things, and part of that is because of the point that 
you made, right, just the sheer volume. The attack surface is 
so broad now.
    We are trying to use our cyber task forces that we have all 
over the country that have a whole bunch of different agencies 
on them as well, and we are trying to look for ways to partner 
with the private sector.
    But, again, a lot of it comes down to people and tools and 
very specific kinds of people.
    Mr. Katko. Yes, I would like to follow up with you off-line 
about this and just try and get a better handle on what it is 
we need and so then we can maybe try and fulfill your requests.
    Mr. McAleenan, I know you want to add to this, but the 
centerpiece of the cybersecurity mission for Homeland is in 
CISA, and that has been stood up over the last year. How is it 
going? What else can we do better with them?
    Secretary McAleenan. I think it is going very well, and I 
just want to echo the director's point about people and tools. 
We do need more. The attack surface is very broad, and private-
sector engagement is obviously one of CISA's core 
responsibilities.
    But I would like to add at the State level, State and local 
government levels. We really do need to think about the right 
resourcing to support our States.
    We are going to have an election in 2020 with well over 90 
percent of voters casting ballots with good, auditable paper 
backups, but not every State is there where we need them. That 
is a resourcing issue.
    When we engage these counties, we are talking about 
updating their Windows software to eliminate vulnerabilities 
that have existed for years, and that is usually a funding 
problem, not necessarily a will problem, although we do have 
awareness challenges.
    So that kind of engagement is critical. The public utility 
side of this equation, I mentioned industrial control systems 
in my opener, you know, everything from pipelines to power. 
This is a critical area where we need those quasi-governmental 
and private-sector entities to take the cybersecurity measures 
they need to be successful, and that is what CISA is doing 
across the board.
    Mr. Katko. I am out of time, but, Mr. Glawe, is there 
anything else you want to add to that?
    Mr. Glawe. Just to follow what Director Wray said and 
Secretary McAleenan. Our engagement with the private sector is 
critical, and we have conducted since I took over in 2017 a 
real heavy emphasis on engagements through the corporate 
security symposiums, which I host with Director Wray's folks in 
the Bureau.
    But getting the collection requirements, show the private 
sector how to protect the brand, how to protect their 
customers, how to protect their clients is critical. We are not 
going to be able to win this fight on the foreign adversary to 
try to influence business on the homeland without a hand-in-
glove relationship, and it is a new dynamic.
    How we are using the State Fusion Centers and partner with 
the FBI is critical to have that hand-in-glove information 
sharing on what is their biggest risk.
    It is not about a competitive advantage. It is about an 
equal advantage with those foreign adversaries that are 
attacking our country through economics.
    Mr. Katko. Mr. Chairman, I yield back, but I just want to 
note and respectfully suggest this is an area that I think we 
should have a subject of a hearing and really try and figure 
out what the manpower requirements might be. Then maybe we 
could formulate something to try and assist them because it is 
a critically important area.
    Chairman Thompson. The Chair agrees with you. We have 
already had some discussions along that line.
    The Chair recognizes the gentleman from Missouri, Mr. 
Cleaver, for 5 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman.
    I would like to thank all of you. A thank you to Mr. 
McAleenan for your appearance before the committee and the fact 
that as far as I know, you have been a very straight shooter 
with us. So thank you very much.
    Are any of you concerned about what could happen and may be 
already happening as a result of the cryptocurrency issue?
    The thing that is frightening to me in looking at this is 
that the software is available to just about anybody, including 
people who would like to do some harm to us, and you know, you 
could do a transaction, you know, just like that.
    Unless we have some really low-IQ bad guys, in the future 
we are going to have to deal with people moving arguably 
millions of dollars, millions of invisible dollars going here 
and there.
    Is there a division? I know FinCEN is working under 
Treasury, but is there a division anywhere else that is 
focusing on this problem that is only going to grow?
    Director Wray.
    Mr. Wray. Congressman, I think you have put your finger on 
a very, very vexing issue for everyone in law enforcement and 
National security more broadly. At the FBI, we have an Office 
of Technology Division that is keenly focused on 
cryptocurrency, and we have a number of tools that we use with 
different forms of cryptocurrency to try to break past or get 
around the anonymization that occurs there.
    But every time we come up with a new tool, you know, there 
is a new type of cryptocurrency coming right behind it, and it 
is not just as you mentioned the low-IQ bad guys. 
Unfortunately, one of the phenomena that we are seeing 
increasingly is in effect crime is a service.
    So in other words, there are sophisticated forms of 
cryptocurrency out there, and on the Dark Web there are 
basically organizations that are now marketing it to the low-IQ 
bad guys. So it is now available to those people, too.
    So this is absolutely going to be a phenomenon going 
forward that we need to be concerned about.
    Secretary McAleenan. Can I just add quickly, Congressman, I 
agree with you 100 percent that traceability of financial 
transactions is a huge vulnerability as we emerge into 
different cryptocurrencies?
    For DHS, U.S. Secret Service has unique capability on both 
financial investigations and cyber, and this is kind-of the 
nexus of all Homeland Security investigations have this 
capability and is working these problems as well.
    I do not know if Under Secretary Glawe wants to add 
anything from the intel side.
    Mr. Glawe. Just to echo what the Secretary just said, the 
vulnerabilities we have for how we identify illicit activity 
with finance is critical, and how we have the infrastructure to 
track and identify the individuals in the United States and 
global is critical.
    We also have the policies and authorities in place to do 
that.
    Mr. Cleaver. Thank you.
    I wish we could probably have a whole hearing on this 
issue. I have spent a little time dealing with it.
    FinCEN, we probably need somebody from Treasury to talk to 
us about FinCEN, but there is also this proposal being kind-of 
floated around now by Treasury that the Secret Service should 
be transferred out of DHS into Treasury.
    I guess I am not sure if they want to connect it with 
FinCEN or what, but do any of you have a position on that, 
especially you, Secretary McAleenan?
    Secretary McAleenan. So I have talked about why and I 
certainly understand why Treasury would want to be associated 
with one of the finest law enforcement organizations in the 
world, the U.S. Secret Service, and they do have a nexus with 
the financial responsibilities, financial investigations of 
Treasury.
    They are also well-ensconced in DHS on National security 
special events and threats. Obviously, we will look at that 
with the administration and with Congress in the months ahead.
    Mr. Cleaver. OK. Since you are leaving, do you think that 
that should remain with Homeland Security?
    Secretary McAleenan. I think there are strong arguments on 
the placement for Secret Service in both departments, and I 
support the dialog that the administration is having with 
Congress at this time.
    Thank you, Congressman.
    Mr. Cleaver. You are a good man, Mr. Director.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentleman from Tennessee, Mr. 
Green, for 5 minutes.
    Mr. Green of Tennessee. Thank you, Mr. Chairman.
    Being a fellow Mississippian, I agree it is kind-of chilly 
in here.
    Mr. Secretary McAleenan, thank you for your service.
    As I understand your story, you were watching the towers 
fall at 9/11 and ran to the sound of the guns. So I appreciate 
that, and for those of us who were in service at the time those 
towers fell, we look at that degree of patriotism with great 
admiration. Thank you.
    To all of the witnesses here today, thank for your service 
to our great country. I really appreciate your being here today 
and for your candor.
    My question is really to all of you or whomever you think 
is best to answer it. I would still like to kind-of dig into 
this cooperation between ISIS and AQ and what you think their 
capacities are if they combine and how that impacts the 
homeland.
    Director Travers. I will start. There are places around the 
globe where ISIS and AQ definitely cooperate, West Africa, I 
think, being a classic case where JNIM, an AQ affiliate, and 
ISIS West Africa certainly cooperate on the ground.
    I think the general view is that we are very unlikely to 
see a strategic alliance between the two. There are issues 
associated. Al-Qaeda thought the caliphate itself was a 
mistake. The very issue of Abu Bakr al-Baghdadi being a caliph 
grated at AQ, to be sure.
    Mr. Green of Tennessee. Oh, sure.
    Director Travers. So my guess is that we are going to 
continue to see much like we do today, ISIS and AQ battle in 
places, Yemen, in East Africa, whereas in the homeland, and 
Director Wray can talk to this, we do see a bit of an 
idiosyncratic adoption of sometimes individuals will cite ISIS. 
Sometimes they will cite AQ ideology. We have certainly seen 
that in Europe, but in general, I do not think we are going to 
see a strategic alliance.
    Mr. Green of Tennessee. Switching gears a little bit to 
cyber, what are your thoughts on Blockchain and its impact on 
cybersecurity, and is there an increased vulnerability with 
Blockchain or is it decreased?
    Is that protective in any way, I guess?
    Secretary McAleenan. I think it has potential to decrease 
vulnerability by creating a distributed ledger where you can 
verify transactions across multiple entities. I think there are 
some really interesting applications being explored, supply 
chain being one of the critical ones, and I am speaking of the 
traditional cargo supply chain from a Customs and Border 
Protection background, being able to verify that shipment from 
stuffing in a manufacturer's facility all the way to unloading 
it at a Walmart in the United States.
    That is a very promising type of capability. So I think 
ultimately Blockchain will be a help as it is applied in 
various sectors.
    Mr. Green of Tennessee. How well do you think Government as 
a whole is accepting that?
    I mean, I agree with you. Are we moving toward Blockchain 
across the infrastructure?
    Secretary McAleenan. So I think the private sector is going 
to drive it as it usually does in adoption of new technology. 
What we are trying to do at CHS is play a productive role where 
we can partner in the financial sector, for instance, in 
movement of cargo in supply chains and in cybersecurity 
applications as well, to basically provide a platform and 
support standard-setting for Blockchain applications in 
different areas.
    I think there is a lot of work to be done, and frankly that 
is a dialog that needs to happen with Congress as well.
    Mr. Green of Tennessee. Agreed. Again, changing the 
subject, and this is for Under Secretary Glawe. I am 
pronouncing your name correctly, Glawe?
    Can you elaborate a little bit on the National Vetting 
Center, where we are, the memorandum that was recently issued, 
and kind-of give us an update on that?
    Mr. Glawe. Sure. Myself and the Secretary for many years in 
our prior capacity have been working on this, and I am happy to 
say the National Vetting Center is right on track with where we 
want to be, and that is really taking U.S. intelligence 
community data, law enforcement data, U.S. Customs and Border 
Protection data, and other data sources to find nefarious 
actors, criminal entities, work expanding it to looking at 
transnational crime, foreign intelligence operatives, and it is 
really a model that the Secretary led in his prior capacities 
in developing the business model to find bad things that are 
trying to come into the United States.
    This will be expanded to cargo, and it really is a model 
that is really important for the Department of Homeland 
Security. We are the last line of defense before bad things 
come in the country, and I would defer to the Secretary because 
he was really the architect behind this for many years, and he 
saw it to fruition before he left.
    Secretary McAleenan. I think you summarized it very well.
    This is a collaboration with the intelligence community and 
interagency parties that has expanded, that has been done from 
the beginning with inclusion of privacy from across the 
interagency to make sure we are doing this right with every 
additional data set with every comparison that we have the 
right safeguards in place.
    It is already identifying individuals that could pose a 
threat to the United States that we would not have seen before 
this capability was brought on-line.
    So I think it is absolutely headed in the right direction, 
building off the National Targeting Center framework.
    Mr. Green of Tennessee. I just want to thank you for that 
work. Thank you both.
    Chairman Thompson. The gentleman from Mississippi and 
Tennessee yields back.
    The Chair recognizes the gentleman from Texas, Mr. Green, 
for 5 minutes.
    Mr. Green of Texas. Thank you, Mr. Chairman.
    I thank the witnesses for appearing.
    I would like to juxtapose, if I may, 2 children. We have 
seen the photographs of the babies coming from south of the 
border, but I have also seen as of late a photograph of a child 
3 years of age born in Ukraine, came to this country with his 
father after his mother died, grew up in Brooklyn, Master's 
degree from Harvard, serves in the military, Purple Heart 
recipient.
    There was no way to prognosticate at the time this child 
sought to enter the United States that he would become the 
person he is today. No way. One can but only imagine the number 
of children we have turned away who may have been of great 
benefit to our country.
    Immigrants have made America great, not by themselves, but 
they have been a part of the greatness of this country.
    When I see the photograph of this baby being separated from 
a parent crying, there is just no way to know what we have done 
when a person is seeking lawful asylum.
    In my research, I do not find any place where the colonel, 
whom I have great respect for, by the way, do not believe he is 
being treated fairly, but I have not found in my research any 
indication that he was required to wait in a third country for 
some period of time before he could enter this country.
    My research does not indicate that at that time persons who 
were coming from Europe or Ukraine in this case, any of them 
had to wait in cages. I just have to ask myself why are we 
treating persons coming from south of the border so 
differently, wait in a third country, working out agreements 
such that if they do not do certain things in other countries, 
they are going to be denied the opportunity to traverse to this 
country.
    Why are we treating them so differently, if you would, 
Honorable Mr. McAleenan?
    Secretary McAleenan. Congressman, under the U.S. refugee 
programs, people do apply and wait in third countries while 
they go through the process with, first of all, the United 
Nations, the International Organization of Migration, with the 
State Department Population Refugees and Migration, and then 
DHS, U.S. Citizenship and Immigration Services.
    So it is a multi-agency process that happens abroad for 
refugees that come to the country today, to the most welcoming 
country in the world.
    Mr. Green of Texas. Is it your indication to me for the 
record that this is what occurred with the colonel?
    Secretary McAleenan. I do not know the colonel's individual 
case, Congressman. I am sorry.
    Mr. Green of Texas. All right. Well, I do not know it in 
totality, but I know enough about it to suggest that it appears 
to me that we are not being even-handed in terms of our 
approach.
    At the turn of the century, we had many people to come to 
this country, not into the 21st Century but the 20th Century, 
from Europe. They came here on boats. They went through Ellis 
Island, and they did not have the requirements that we have for 
the people coming from south of the border.
    A lot of these changes are changes that were made on your 
watch. This happened on your watch. You have some 
responsibility for what is happening.
    This is not to disrespect you, dear friend, but it is to 
say that some of this could have been abated. You did comment 
and indicate that it was terminated because of the way it was 
impacting people. I hope I said that correctly. I am not trying 
to demean you or the President.
    But it should not have started. It should not have started. 
Why? What made us decide that these people should be treated 
the way they were treated?
    Secretary McAleenan. I do not think we have the time today 
to have a fulsome conversation on this, but let me try to 
answer your question.
    The laws have changed dramatically since the turn of the 
century and the prior arrival of mass migrations. We are trying 
to apply those laws.
    We are also trying to ensure that individuals who need 
protections, protections for asylum, and these categories are 
political, racial, religious, membership in a social group, 
they are able to receive those protections as close to home as 
possible without entering in a dangerous smuggling cycle.
    We cannot have an immigration system that is based on a 
Darwinian principle, of anyone who arrives at the U.S. border 
should be allowed to enter. We have to have more integrity in 
the international system. We have got 70 million in vulnerable 
populations of----
    Mr. Green of Texas. My time has expired.
    I must state and say this, dear sir. Nowhere in the law do 
we have language such as what you just used. That was done to 
inflame.
    If you were in court and being questioned, you would be 
taken to task for trying to use that type of inflammatory 
language.
    Darwinian? There is nothing in the law that says Darwinian, 
and you know this. That was done intentionally to inflame.
    Secretary McAleenan. I am not inflaming anything, 
Congressman.
    Mr. Green of Texas. But that is what that language does.
    Secretary McAleenan. I am explaining that under----
    Mr. Green of Texas. But you are using inflammatory 
language. I was very careful to try as best as I could to be 
fair to you and the President, but the truth is this.
    They are people of color, and with people of color, we have 
a different standard. If these were babies coming from the 
north, we would not have treated them the way we treated these 
children.
    Secretary McAleenan. I disagree. We apply the law equally 
to people, refugees of all colors.
    Mr. Green of Texas. Well, it does not evidence itself in 
what we see.
    Secretary McAleenan. Migrants from all colors----
    Mr. Green of Texas. It does not evidence itself in what we 
see.
    I yield back.
    Chairman Thompson. The gentleman yields back. The time has 
expired.
    The Chair recognizes the gentleman from Texas for 5 
minutes.
    Mr. McCaul. Thank you, Mr. Chairman.
    I want thank Secretary McAleenan for your service to our 
Nation and to the American people and protecting the American 
people in I think very difficult times.
    When I was Chairman of this committee, I saw the rise and 
fall of ISIS and the so-called caliphate. We just had recently 
the killing, the death of Abu Bark al-Baghdadi.
    I would like to know just from the Secretary and the two 
Directors, FBI and NCTC, what impact that has on the morale of 
ISIS. How much of a threat are they today?
    Secretary McAleenan. So I believe just starting quickly, 
and passing to my colleagues, I believe they do continue to 
present a threat, and as Russ Travers noted, the inspiration of 
their ideology persists.
    One of the things we have done recently with DHS, with the 
FBI, we put out a joint intelligence bulletin just ensuring 
there is awareness of the potential even though it has not 
happened in the past after the death of a senior leader, the 
potential for someone to be inspired and to commit an attack in 
the immediate aftermath.
    We do think it is going to affect their ability to 
reorganize and to direct, but we maintain our concern about the 
diffuse and dispersed ISIS affiliates and their ability to 
continue to mount threats to U.S. interests world-wide.
    Mr. McCaul. Director Wray.
    Mr. Wray. I would agree with Secretary McAleenan. Certainly 
it is an important blow, a successful blow for which we are all 
grateful, but it is also clearly the case that they anticipated 
at some point that they would need to have successors, and to a 
large extent what we are most worried about here on the 
homeland is what I would call the virtual caliphate, which is 
people who are inspired on-line, which is a lot easier to do 
and not just all tracing back to one leader.
    Mr. McCaul. Director Travers.
    Director Travers. I would just add that they have been 
thinking about the demise of the caliphate for a couple of 
years. Adnani talked about it and the need to prepare for an 
insurgency.
    They have lost a lot of leaders. This is a bureaucracy that 
is pretty good at doing succession planning. I think it is 
absolutely fair to say that it will be a morale hit. I think 
you can largely attribute many of the decline in attacks in 
Europe over the last couple of years to the demise of the 
caliphate.
    But nevertheless, the ideology continues. The resonance 
continues, and that is a strategic concern for us.
    Mr. McCaul. I think that is all accurate, and I do think 
the threat level has gone down a little bit. I mean, 2015, 2016 
was like one external operational plot per month it seemed 
like.
    Domestic terrorism seems to be on the rise, but, Director 
Wray, I just want to ask you about in terms of just numbers and 
arrests.
    How many domestic terrorism arrests were effectuated in 
2019?
    Mr. Wray. Sir, in 2019, we had 107 domestic terrorism 
arrests, and we had, I think, 121, give or take, international 
terrorism arrests.
    Mr. McCaul. So in terms of international terrorism, there 
were more international terrorism arrests than domestic 
terrorism?
    Mr. Wray. Yes. Pretty close in number, but yes.
    Mr. McCaul. Pretty close. How does that compare to the 
previous year?
    Mr. Wray. The previous year was both hovering around 100 
arrests, both of the prior years as well.
    I will say on the international terrorism side in terms of 
number of investigations that we have on-going, we have both 
the home-grown violent extremists, which are these people here 
inspired by various parts of the jihadist movement. We have 
about 1,000 give or take investigations of that sort.
    But then that is not counting the foreign terrorist 
organizations or directed, structured international terrorist 
organizations which, you know, probably have about another 
1,000 or so of those.
    So while domestic terrorism is absolutely something that is 
very much top of mind and we at the FBI recently elevated to be 
a National threat priority along with HVEs and ISIS, 
international terrorism is very much alive and well and 
something we need to stay focused on, too.
    Mr. McCaul. I think that is correct. You know, we talk a 
lot about domestic terrorism being on the rise, but I do not 
think we can let our eyes off the ball with foreign terrorist 
organizations and international terrorism.
    I introduced a bill with some colleagues. You know, you 
have a domestic terrorism definition that was created after 9/
11. Congress passed, you know, laws pertaining terrorism and 
both the international terrorism and domestic terrorism.
    International terrorism had charges associated with it. 
Domestic terrorism did not. The FBI opens cases of domestic 
terrorism and international terrorism. However, the U.S. 
Attorneys, and I was one of them, cannot charge a domestic 
terrorism case. There is no specific charge related to that.
    I introduced that bill working with the FBI, and it was 
endorsed by the FBI association. Do you have any comments on 
that bill and what value that would give to the FBI and U.S. 
Attorneys?
    Mr. Wray. Well, I think as I had mentioned in response to a 
different question, certainly we can always use more tools. As 
you say and as you experienced first-hand in the U.S. 
Attorney's Office, we do not have a domestic terrorism crime as 
such.
    What you probably also saw and probably practiced while you 
were in the U.S. Attorney's office is our folks at the FBI, 
just like the AUSAs they work with, do not give up, and so they 
find work-arounds.
    We have been very good at using everything else in Title 
18, including creative things like most recently we used the 
Federal rioting statute to go after some of the terrorism that 
occurred in connection with Charlottesville, for example, and 
the Rise Above Movement there.
    We also work with our State and local authorities, and 
especially in places like Texas. We have had some very 
successful work with State and local law enforcement, and you 
can get some pretty good hits at some State and local charges.
    Mr. McCaul. Yes, the State charge has the death penalty.
    But I think, Mr. Chairman, in closing, you know, whether it 
was the Austin bomber, which is clearly terrorism, to El Paso, 
to Odessa, I think this is something we should take a look at.
    I yield back.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from New Jersey, Mrs. 
Watson Coleman.
    Ms. Watson Coleman. Thank you, Mr. Chairman.
    Thank you to the witnesses for coming today, and good luck 
to you, Mr. McAleenan. Good luck to you with whatever it is you 
are going to do next.
    I have got a number of questions. I would be here, like Mr. 
Katko said, forever. I want to start with either Mr. Glawe or 
Mr. Travers said that there are 15,000 ISIS members in Syria 
and other places and Iraq, versus 1,000.
    Who said that?
    Director Travers. I did, ma'am.
    Ms. Watson Coleman. OK. So what is the time frame that you 
are talking about? From when to when?
    Director Travers. This is 5 years ago, before the build-up 
of ISIS and the caliphate was formed. ISIS was down to about 
1,000 people. Even after the demise of the caliphate, the low 
end of the estimate is 14,000 ISIS members in Syria and Iraq, 
mostly in Iraq, which for us suggests that there is a great 
fertile ground for a long-term insurgency.
    Ms. Watson Coleman. OK. Do you think that given the recent 
betrayal of our Kurdish allies and uproar and chaos that is 
taking place over there now become fertile ground for ISIS to 
grow there as well?
    Mr. Wray. Ma'am, I did not get the question.
    Ms. Watson Coleman. The President of the United States 
pulled away the troops that were supporting the Kurds and 
fighting with the Kurds against ISIS. Now, we have Turkey has 
infiltrated. There have been alliances now with Russia, our 
other really trusted friend. ISIS, some of their prisoners are 
escaping. There seems to be really chaos and fear and 
elimination happening over there.
    I am wondering does that make it more fertile territory for 
ISIS to grow as well? That is just yes or no.
    Mr. Wray. It is a very fluid situation. Sure. We do not 
know exactly what the Syrian military is going to do east of 
the river. I believe both the President and the Secretary of 
Defense have indicated that we remain committed with our forces 
there to a counter-ISIS campaign.
    Ms. Watson Coleman. Really? I thought we were just going to 
protect the oil.
    Do we have any idea how many members of al-Qaeda exist?
    Director Travers. Numbers are difficult to come by. Again, 
we are looking at a command-and-control structure that exists, 
and then there are a half-dozen or so affiliates, and they have 
thousands of individuals each.
    Ms. Watson Coleman. So are we talking about another 15,000, 
20,000? I am trying to figure out how safe I feel.
    Director Travers. I would say that numbers themselves are 
not a particularly good indicator of capability.
    Ms. Watson Coleman. So this is what I heard, and you can 
tell me if I am wrong. I am hearing that we are doing pretty 
good at keeping bad people, really bad people, out of the 
United States of America. Even in cybersecurity, we are doing a 
decent job with trying to protect our infrastructure and those 
things that are important to us, whether it is China for 
monetary reasons or Russia for disruption of our 
infrastructure.
    I am hearing that, right? That is basically what I am 
hearing. Just anybody just tell me.
    Director Travers. I can only speak to terrorism, but I 
think this country has done a great job pushing borders out and 
establishing a comprehensive vetting system.
    Ms. Watson Coleman. So I kind-of want to go into for a 
minute, real fast, this whole issue of domestic terrorism, and 
I want to direct my questions to Mr. Wray.
    Mr. Wray, first of all, I am sorry. Honorable Mr. Wray.
    You had collapsed. You have taken away this horrible 
category of black extremity, extremists, whatever it was 
called, and the report that went with it.
    You have now collapsed what is white supremacism, 
replacement supremacism, and black separatism into a racially-
motivated category of terrorism.
    Do you then make a distinction as to who commits what 
infractions, and do you have any indication are we having a 
greater percentage of those incidents happening with white 
supremacists, white replacementists, or black extremist; and if 
so, can you tell me your breakdown?
    Mr. Wray. Well, I cannot give you exact numbers sitting 
here right now, but what I can tell you is that the 
reorganization of our categories, our nomenclature was based on 
a lot of I think very helpful dialog that I had with 
Congressional Black Caucus, with Noble, with lots of other 
people, and was part of a much broader reorganization of the 
way we counted.
    Within the racially-motivated violent extremist category, I 
think it is fair to say from what we see internally that a huge 
chunk, the majority of the racially-motivated violent 
extremists, domestic terrorism, the majority of that is at the 
hands of what I would call white supremacists.
    Ms. Watson Coleman. Are we aware of the linkages that may 
take place internationally, the inspiration that comes from 
things we saw in Christchurch and things of that nature?
    Mr. Wray. We are very actively looking at that. We spend a 
lot of time trying to discern trends and leads on that front.
    Ms. Watson Coleman. If we identify those connections, would 
we then be able to identify the groups as terrorist groups?
    Mr. Wray. Where there are groups, as such, I think we have 
been pretty effective at identifying them, but I will say, as I 
think I may have mentioned to one of your colleagues, more and 
more on the domestic terrorism side, including this white 
supremacist violence category, it is not really about groups in 
the same way we used to think of groups with al-Qaeda and 
Hezbollah. It is more diffuse, more unstructured and 
undisciplined.
    Ms. Watson Coleman. So I think you have a really huge task. 
All of you have a huge task to keep us safe, and I thank you 
for the work that you do.
    I am concerned about the FBI having its resources taken 
away from doing some of this really important stuff and put 
into a position to have to investigate itself as to whether or 
not there was a treasonous investigation done as it related to 
the 2016 involvement of Russia in our election, and I pray that 
your resources are not taken away so that you can continue to 
focus on that which is really a threat to us and the safety and 
security, and Congress can concentrate on the other.
    Thank you. I yield back.
    Chairman Thompson. The gentlelady's time has expired.
    The Chair recognizes the gentleman from Texas, Mr. 
Crenshaw, for 5 minutes.
    Mr. Crenshaw. Thank you, Mr. Chairman.
    Thank you all for being here.
    What a great discussion today, and I will try to hit some 
different topics. This question regarding Hezbollah and the 
recent decision of the Lebanese president to step down, I will 
direct this to you, Mr. Travers.
    How do you think that affects the Iranian threat, the 
Hezbollah threat, globally?
    Then maybe you can expand upon what the nexus is between 
Hezbollah and some of the groups south of the border in South 
America and Mexican drug cartels, if any.
    Director Travers. Well, the unrest in Lebanon and Hariri's 
decision largely is a local issue having to do with a WhatsApp 
tax, I think, and so it has been fascinating to watch. I am not 
sure that it has a great deal to do with the Hezbollah threat 
itself.
    My guess is that Hezbollah was a fan of Hariri and would 
like him to stay put. So we will have to see how that plays 
out.
    Hezbollah itself, you are quite right, is an extraordinary 
organization, and it does have global connections. It is a very 
mature organization. It is very careful in its decision-making 
process.
    We are watching very carefully its activities in the Middle 
East right now, how if it would respond to Iran. In our view it 
has no interest in going to war with Israel, for instance. It 
has a high bar for any attacks against the United States. 
Nasrallah is a pro. He has been doing this for a very long 
time.
    Mr. Crenshaw. There is a high bar for attacks, but what is 
its capability?
    Have you seen any nexus between them and groups south of 
the border?
    I mean, there was long thought to be a relationship between 
them and the tri-border areas in South America. What about 
closer to our border? Is there any potential for that kind of 
relationship?
    Director Travers. In this session, sir, I just do not think 
we can get into that. I need to go into closed session.
    Mr. Crenshaw. Fair enough. But let's talk directly about 
the Mexican drug cartels that we do see south of our border. I 
will direct this to you, Mr. Secretary.
    One thing that stands out to me especially from a tactical 
perspective is how capable the Mexican drug cartels are, with 
their weaponry, with their training, with their brutality, and 
with their endless amount of funding.
    I mean, if you look around the world as far as threats at a 
very tactical level, they are probably one of the most capable 
groups, and right now they have no interest in conducting 
attacks against the United States, right? Their interests are 
more business-related.
    But how can we do better working with the Mexican 
government to quell this threat, and what should we be worried 
about in the future?
    Secretary McAleenan. It is a really challenging one. I 
outlined it in my opening as one of the major threat vectors we 
see affecting the homeland, and not necessarily a direct act of 
violence, as you alluded to. They focus that on each other 
primarily and, unfortunately, on the government of Mexico and 
other allies' police forces in the region.
    But really their ability to smuggle hard narcotics into the 
United States, we have seen the impact of the fentanyl and 
synthetic opioid epidemic. Methamphetamine is really the main 
concern in scale if you talk to our State and local law 
enforcement partners right now.
    But there are 4 or 5 very violent, very capable 
organizations that impact the safety of Mexican citizens in a 
number of states.
    Mr. Crenshaw. Is there more we can be doing with the 
Mexican government?
    Is there a better relationship that could be had or is that 
at a good place right now?
    Secretary McAleenan. So I think both the Department of 
Homeland Security and Department of Justice and other IC 
partners are really supporting the government of Mexico law 
enforcement. I do think we need to continue to work on the 
weapons flowing south, on the money flowing south that is 
helping support cartel activities in Mexico and in the region 
more broadly.
    That has got to be a concerted effort across the USG.
    Mr. Crenshaw. Thank you.
    Director Wray, I will point this last one to you.
    You mentioned before thwarting various attacks, domestic 
and foreign terrorist attacks, over the last few years. You did 
not give any numbers. Maybe those are Classified. That is fine. 
I do not need the numbers right now.
    I want to know if we have been more successful than we were 
20, 30 years ago and why. Is it because stovepiping has ceased 
to be such a problem?
    The interagency relationships, are those working better?
    Do we have better tools?
    Is our presence overseas helpful? Is it hurting?
    The eyes and ears on the ground, is the intelligence 
collection, is our view of the networks helping us out there?
    Are we keeping them busy so that they are not planning 
attacks here?
    What is it?
    I am out of time after that question. So I will let you 
take it.
    Thank you.
    Mr. Wray. Well, in the interest of time, what I would say 
most of the reasons for the success boils down to one word, 
which is partnerships, partnerships between Federal agencies, 
partnerships, in particular, between Federal agencies and State 
and local law enforcement, partnerships within the intelligence 
community, partnerships with our foreign partners.
    All of those things have led to a greater flow of 
information, greater connecting of the dots, greater ability to 
get ahead of the threat, and a greater recognition that there 
is no one disruption strategy. There are a lot of different 
ways in which you can disrupt a terrorist attack.
    It could be a kinetic strike. It could be criminal law 
enforcement action. It could be some, you know, visa action. It 
could be some foreign government taking action. There are a lot 
of different ways, a lot of different tools in the toolbox if 
everybody is talking to each other.
    I will say, having been in the FBI building on 9/11 and 
been intimately involved in the War on Terror during those 
years and then coming back into this role now, the difference 
between how closely everybody is working together, I know this 
sounds a little Pollyannaish. It is like night and day, and it 
could not come a moment too soon.
    Chairman Thompson. The gentleman's time has expired.
    The Chair recognizes the gentlelady from California, Ms. 
Barragan, for 5 minutes.
    Ms. Barragan. Thank you.
    So, Mr. Secretary, under your tenure we have seen an 
expansion of human rights abuses under this administration 
specifically named ``migrant protection protocols,'' or the 
``remain in Mexico policy.''
    The name almost assumes that this program will actually 
protect migrants when it does the complete opposite. Instead of 
allowing asylum seekers to remain safely in the United States 
as they wait for their cases to be heard, as has been done by 
law under the U.S. Refugee Act, you have forced nearly 50,000 
asylum seekers, including vulnerable individuals like those 
with serious medical conditions, pregnant women, LGBTQ people 
to wait in areas plagued by violence, like the state of 
Tamaulipas, Mexico, which is a Level 4 threat.
    This is the same warning that countries like Afghanistan, 
Iraq, Syria, and North Korea have.
    I am going to say this again. We are sending people, 
pregnant women, back to dangerous places in Mexico that have a 
Level 4 threat that is the equivalent of Afghanistan, Iraq, 
Syria, and North Korea.
    Before you decided to return families with children and 
other asylum seekers to wait in these very dangerous places in 
Mexico, did you conduct any type of an analysis, any type, to 
assess the potential harms that these asylum seekers might 
suffer?
    Secretary McAleenan. So the migrant protection protocols is 
a program in partnership with the government of Mexico.
    Ms. Barragan. I am asking if you have any kind of an 
assessment on the potential harm of where they are being sent. 
Did we do that?
    Secretary McAleenan. There was a month-long dialog with the 
government of Mexico on the----
    Ms. Barragan. I am asking the United States. It is a yes or 
no. Did you assess the threat level before you sent them there?
    Secretary McAleenan. Between the Department of Homeland 
Security, Department of State which jointly negotiated this 
program with the government of Mexico, assessments were done on 
Mexican's ability to manage this program jointly with the 
United States, yes.
    Ms. Barragan. OK. So you did assess this, and you thought 
it was perfectly fine.
    Do you know that there are public reports of kidnappings, 
assaults, and other attacks on families and other asylum 
seekers that are returned to Mexico?
    Are you reading these reports? Are you hearing about them?
    Secretary McAleenan. Certainly we carefully monitor reports 
of violence in the northern border states of Mexico for lots of 
reasons.
    Ms. Barragan. So have you heard about people being 
kidnapped? Yes or no?
    Secretary McAleenan. Yes, we have heard----
    Ms. Barragan. Have you heard about people being assaulted? 
Yes or no?
    Secretary McAleenan. Please let me finish the answer.
    Ms. Barragan. I do not have that much time, and I want to 
know what you are aware of.
    Secretary McAleenan. But sometimes it is not a yes or no 
question.
    Ms. Barragan. Because my colleagues over here are talking 
about how we are a compassionate and loving Nation, but sending 
a deaf child back to Mexico and to a Level 4 area is not 
compassionate to me.
    Sending pregnant women back to these areas to be raped, 
killed, and abused is not a compassionate Nation.
    So I am trying to assess whether you----
    Secretary McAleenan [continuing]. Families to pay smugglers 
and put themselves at risk on a dangerous journey is not 
compassionate either.
    Ms. Barragan. Correct, and let's talk about those.
    Chairman Thompson. Just a minute, Mr. Secretary. She is 
still talking. Let her finish, and you will get your chance to 
respond.
    Ms. Barragan. So, Mr. Secretary, let's talk about those 
cartels. In the press conference yesterday, Acting CBP 
Commissioner Mark Morgan remarked that the Mexican cartels 
could really teach a business class at Harvard. These are the 
same cartels that dominate the several areas of the border 
where your agency is currently sending tens of thousands of 
vulnerable asylum seekers to wait for weeks and maybe months 
under this so-called protection program.
    In August, cartel members came to a shelter in Nuevo 
Laredo, a city where your agency has returned 10,000 asylum 
seekers. They demanded that the minister in charge of the 
shelter hand over Cubans who were sheltered there for ransom.
    When he refused, do you know what happened? The cartels 
kidnapped him. That pastor has not been seen or heard of since 
then.
    Have you heard of this incident with the pastor?
    Secretary McAleenan. I have not heard of that incident.
    Ms. Barragan. OK. Well, in September, Vice News reported 
how many numerous people who are subjected to MPP have been 
delivered to the hands of these very dangerous cartels--we at 
least can all agree are just very dangerous--just miles away 
from their being forcibly returned by CBP officers.
    One migrant described how the Mexican immigration officers 
who were transporting them turned them directly over to the 
cartels.
    Are you aware that Mexican officials are turning these 
people directly over to these very dangerous cartels? Are you 
aware of this?
    Secretary McAleenan. I am not aware of any verified 
incident where that occurred.
    Ms. Barragan. Well, it is clear to me that the MPP program 
is creating a business opportunity for cartels who now have 
tens of thousands of vulnerable people and desperate people who 
are being exploited. It is unbelievable to me that we believe 
that this is OK, that because it is not happening on U.S. soil, 
that it is just OK.
    But as my colleague said, it is on us, and one day we will 
have to go to heaven and go face those who judge us, and we 
will have to live with the decision on what we did and whether 
we stood up for human rights or whether we let them happen 
under our watch.
    I have to tell you it is heartbreaking that this country is 
closing the door on people who are fleeing violence and sending 
them back to dangerous places that have a Level 4 threat where 
even U.S. citizens are told not to go.
    With that I yield back.
    Chairman Thompson. The gentlelady yields back.
    The Chair recognizes the gentlelady from New York, Miss 
Rice, for 5 minutes.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. McAleenan, I, too, want to join my colleagues in 
thanking you for your service and wish you luck on your future 
endeavors.
    There have been several reports that President Trump is 
considering appointing Acting U.S. CIS Director Ken Cuccinelli 
or Acting CBP Commissioner Mark Morgan, even though the Justice 
Department's Office of Legal Counsel has determined that they 
are ineligible under the Federal Vacancies Reform Act. Are you 
aware of that?
    Secretary McAleenan. So I am not going to discuss any pre-
decisional personnel efforts, but I will note that the 
administration will follow the law in naming a successor for 
the Department of Homeland Security.
    Miss Rice. OK. I am glad to hear that.
    In your final hours as Acting Secretary, do you have any 
plans to change the current line of succession at DHS?
    Secretary McAleenan. Again, I am not going to discuss any 
pre-decisional personnel actions.
    Miss Rice. Well, I am just asking if you are planning on 
doing that. I mean, there is only 24 hours left.
    Secretary McAleenan. I have no present plans to do that.
    Miss Rice. Have you discussed nominating someone to be the 
assistant secretary of the Countering Weapons of Mass 
Destruction Office with the President?
    Secretary McAleenan. I have not.
    Miss Rice. Have you spoken to anyone in the administration 
about that?
    Secretary McAleenan. Again, I am not going to discuss pre-
decisional personnel matters.
    Miss Rice. I was just asking you. You said you did not 
discuss it with the President. Have you discussed that specific 
thing with anyone in the administration?
    Secretary McAleenan. I am not going to discuss pre-
decisional personnel matters.
    Miss Rice. OK. Last week Facebook announced that it had 
removed a network of Russian-backed accounts that posed as 
local citizens to support President Trump and attack former 
Vice President Joe Biden.
    Multiple reports, including the 2017 intelligence community 
assessment, Special Counsel Robert Mueller's investigation, and 
a bipartisan report released earlier this month from the Senate 
Intelligence Committee, have all confirmed that Russia 
attempted to interfere in the 2016 election and will do so 
again in 2020.
    Do you accept that conclusion, Mr. McAleenan?
    Secretary McAleenan. Yes, our entities, CISA is leading 
that effort along with our Intelligence and Analysis 
Directorate and others, are focused on threats posed to our 
elections, including from Russia.
    Miss Rice. Mr. Wray, do you agree with those conclusions?
    Mr. Wray. We believe that Russia--we assess that Russia 
continues to have designs on interfering and influencing our 
electoral system.
    Miss Rice. Have either of you spoken with President Trump 
or anyone in the administration about Russia and what they are 
planning on doing in the 2020 election?
    Mr. Wray. Well, I have had, along with others, numerous 
meetings with folks in the White House, including the 
President, on election security and on the threats they face.
    Miss Rice. Do you conclude that they appreciate Russia's 
interference in 2016 and the likelihood that they are doing it 
now to affect the 2020 election?
    Yes or no. You do not have to tell me who you spoke to. 
Just do you have confidence that someone, that there is someone 
in the administration that appreciates that?
    Mr. Wray. Let me say it is crystal clear, I think, to all 
of us involved in protecting our elections, FBI--and I do not 
want to speak for the other agencies, but from all my 
interactions with our partners, it has been the same--crystal 
clear that this is a top priority that we intend to take very 
seriously and throw every tool in the toolbox against.
    Miss Rice. OK. Thank you.
    So I just want to make reference to an article that 
literally just posted on the New York Times, and I understand 
some people's feelings about the New York Times, but let's just 
accept for a fact that what I am going to talk about is 
actually fact.
    Russia has been testing new disinformation tactics in an 
enormous Facebook campaign in parts of Africa as part of an 
evolution of its manipulation techniques ahead of the 2020 
American Presidential election. The campaign underlined how 
Russia is continuing to aggressively try different 
disinformation techniques, even as it has come under scrutiny 
for its on-line interference methods, by spreading the use of 
its tactics to a region that is less closely monitored than the 
United States and Europe.
    It is said that it was highly likely that Russian groups 
were already using the same model of working. What they did in 
Africa was actually work with local people so that it was not 
immediately detectible that these were Russian-backed accounts.
    So the Russian groups have already started using that model 
of working with locals right here in the United States to post 
inflammatory messages on Facebook, and by employing those 
local, the Russians did not need to set up the fake accounts as 
they had done in the past or create accounts that originated in 
Russia, which is making it easier to sidestep being noticed.
    This is just an enormous, enormous problem. Director Wray, 
were you aware of this, using local people, not just in Africa, 
and its disinformation about being critical of various American 
and French policies?
    But they are doing that now in anticipation of the 2020 
election. Can you tell me are you able to address this?
    Are you finding Facebook and other social media platforms 
helpful?
    If you could just expound on that.
    Mr. Wray. Sure. So obviously, I have not read the article 
that you mentioned, and I have to be a little bit careful about 
what I can say that I know through other sources.
    But I am generally aware of the phenomenon or the tactic, 
if you will, that you are describing. I would say that we 
expect that the Russians will and already have continued to up 
their game from, you know, what they did in 2016.
    Of course, we have upped our game, too, and in particular, 
you mentioned Facebook. We've worked very closely with a lot of 
the social media companies. That is one of the big steps 
forward that happened in the midterms and that has continued 
right on up to this day, is a lot of engagement with those 
companies to underscore to them that they bear, that they bear 
a significant responsibility in this area.
    There are a lot of things that they can do under their 
terms of use, terms of service that would be harder for anybody 
in the government to do in a country like ours.
    So we have made a lot of progress. There is a lot more 
sharing of information back and forth and getting synergies 
from working together.
    There is still progress to be made, and we are going to 
need to keep the pressure on because, as I think I said, the 
bar is just going to keep going up, and you pointed to a good 
example of that.
    Miss Rice. I would like to continue this conversation with 
you off-line, if that would be possible.
    I want to thank you all for being here, and I hope that we 
can all agree that this issue of election security is not a 
political issue. We are talking about saving democracy as we 
know it, and I know all of you gentlemen, I think I can speak 
for you in saying that I know and I am grateful that you 
appreciate that fact, too.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    The gentlelady yields back.
    The Chair recognizes the gentleman from Mississippi, Mr. 
Guest, for 5 minutes.
    Mr. Guest. I want to thank you and your staff for visiting 
Mississippi in August. I had a chance to visit with you as you 
all were conducting some field hearings there, meeting with 
members of the community about working together, the private 
sector/public sector, to see that we are making and creating a 
great place to live and worship and raise a family, and I want 
to thank you for that visit, and more importantly, thank you 
for your service to our country.
    Earlier this month, President Trump signed into law House 
Resolution 1590, a bill that was authored by my office, the 
Terrorist and Foreign Fighter Travel Act. This law would 
require your successor to develop and exercise and evaluate the 
effectiveness of our Nation's ability to identify and deter 
terrorists before they travel through our State, into our 
States and into our Nation.
    My question is: Do you believe that bills such as 1590, 
bills that create exercises are helpful for the Department of 
Homeland Security so that we are able to identify, close gaps, 
and so that Congress is better able to determine the necessary 
weaknesses within our system?
    Secretary McAleenan. Certainly, I think it is the kind of 
activity we undertake really every day to make sure that there 
are no vulnerabilities or gaps in our information sharing 
between agencies, between foreign partners, and that we are 
applying that at every opportunity to identify a potential 
threat trying to enter the United States or even head toward us 
through our foreign partner nation's borders.
    So I do think being very focused on it and highlighting the 
effort to exercise it and test those capabilities is a valuable 
approach.
    Mr. Guest. You have testified several times before this 
committee and before other committees in Congress. We have 
talked a great deal about Southwest Border apprehensions. I 
believe that in fiscal year 2019, it has reached nearly 1 
million apprehensions.
    Do you believe that illegal immigrants are encouraged by 
loopholes in our immigration laws to make the dangerous journey 
and to try to cross the border illegally?
    Secretary McAleenan. I do not think there is any question 
about that. We had 977,000 crossings. We are in our fifth month 
now here in October of a 15 to 20 percent reduction month-over-
month, and that is because we have been able through our 
National partnerships to address some of the vulnerabilities 
presented by those loopholes, the No. 1 being that if you bring 
a child with you, you could have been released into the United 
States.
    That is why we had that crisis in the spring. We have asked 
Congress to address that in November 2017, in January 2018, and 
throughout my tenure as CBP commissioner and Acting Secretary, 
Congress has not acted on those vulnerabilities.
    We have been in partnership with international partners and 
using existing legal frameworks, including 235(b)(2)(C) of the 
Immigration Nationality Act, which is the migrant protection 
protocol program, to try to create the ability to get 
immigration results elsewhere in the system since we cannot do 
it here in the United States.
    Mr. Guest. Mr. Secretary, what do we need to do as Congress 
to close these loopholes?
    Secretary McAleenan. We have asked for 3 very specific 
legislative changes that would have addressed the drivers of 
this crisis before it occurred.
    One is the ability to keep families together in an 
appropriate setting through an immigration proceeding. That is 
what the prior administration was able to do at the end of 2014 
crisis. A district court in the Ninth Circuit took that away 
from us in 2015, and we have not had that authority.
    We have asked for Congress to reestablish it, and we are 
now trying to pursue it by regulation, also held up in the 
courts.
    Second, we have asked for the ability to treat 
unaccompanied children coming from non-contiguous countries the 
same way we do with Canada and Mexico and provide them access 
to protections from their home countries so they do not make 
these dangerous journey, but if they do, have the ability to 
repatriate them so they are not incentivized to try.
    Then third, we have asked for Congress to address the 
vulnerabilities in our asylum system and the huge gap between 
the ultimate rulings by immigration judges where only 10 to 20 
percent are giving an affirmative asylum recognition, but at 
the credible fear stage, which happens at the border, 80 
percent-plus have been allowed to proceed with their cases that 
could take 5 to 7 years while they are released in the United 
States.
    Those are the 3 changes in law that we have asked for 
consistently for over 2 years.
    Mr. Guest. If Congress were to act and implement the 
requests that you have made, what impact do you believe that it 
would have upon what we are seeing as far as the humanitarian 
crisis along our Southwest Border?
    Secretary McAleenan. I think it would provide us the 
ability to have integrity in the system here in the United 
States and not rely solely on foreign partnerships to address 
the loopholes in our law that caused the crisis over the last 
year.
    Mr. Guest. Mr. McAleenan, this may be your last time as 
Acting Secretary to address this committee in this setting. Is 
there anything that you would like to leave with us as a 
Committee of Homeland Security? Anything that you see moving 
forward that we need to address and prioritize as Members of 
Congress that would be able to keep the American public safe?
    Secretary McAleenan. So I think we have seen a lot of 
evidence of nonpartisan, bipartisan discussion on critical 
threats facing our country. You heard all 4 panelists outline 
really the same 3 to 5 top concerns that we are facing.
    But we have had really important dialog, I think, on some 
of the emerging aspects that are going to be challenging in the 
future, things like foreign influence, things like 
cryptocurrency. Those are conversations that we need to have 
with Congress in a bipartisan basis and come up with solutions, 
and this committee is properly placed to support those dialogs.
    Mr. Guest. Mr. Secretary, thank you for your service.
    Mr. Chairman, I yield back.
    Chairman Thompson. The gentleman yields back.
    The Chair recognizes the gentlelady from Illinois, Ms. 
Underwood, for 5 minutes.
    Ms. Underwood. Thank you, Mr. Chairman.
    I want to begin by thanking the departments and agencies 
represented here today and our entire intelligence community. 
In addition to protecting us from underseen threats, your 
continued work contributed to the successful operation this 
weekend that killed ISIS leader Abu Bakr al-Baghdadi. I am 
really grateful for your diligence, your commitment to the 
mission, and service to our country.
    Thank you.
    Director Wray, you said that when it comes to foreign 
interference in American elections, 2018 midterm elections were 
a, ``dress rehearsal for the big show in 2020.'' In the 2019 
Worldwide Threats Assessment report, we expect our adversaries 
and strategic competitors to refine their capabilities and add 
new tactics as they learn from each other's experiences, 
suggesting the threat landscape looks very different in 2020 
and in future elections.
    So, sir, as much as you can share in this public setting, 
can you detail what those new tactics might be and increasingly 
sophisticated capabilities that our adversaries are developing?
    Mr. Wray. Well, I think you anticipated part of what I am 
going to say, which is most of what I would say in response to 
that question really cannot be done in an open setting.
    I will say that as I have mentioned in response to 
Congresswoman Rice, some of the things that the Russians have 
tried in other countries we expect them to try to do here as 
well. You know, it is pretty common to test it out in other 
jurisdictions.
    Thankfully, we do not have elections every year. So that 
gives us a little bit of time to plan ahead.
    Certainly technological tools keep evolving. So their 
ability to come up with different kinds of false personas, the 
trolls, the bots, all those things become more vexing and more 
challenging, which puts the premium on the point that I was 
making before about our working, on the foreign influence side, 
working with the social media companies, in particular, to 
really get them to keep upping their game as part of the 
defense.
    Ms. Underwood. OK. The 2019 Worldwide Threats Assessment 
also reports that Russia, China, North Korea, and Iran 
currently have the ability to carry out a sophisticated cyber 
attack on our elections. We know that they have the capability. 
In addition to that, would you say that these countries have 
the motivation or the intent to attack our election?
    Mr. Wray. Again, I want to be a little bit careful what I 
can say in this setting, but I do not think we have seen an 
intention by those other three countries to attack election 
infrastructure. That does not mean they are not looking 
carefully at what the Russians attempted to do and trying to 
learn lessons from that.
    But all of those countries in different ways are clearly 
interested in engaging in maligned foreign influence.
    Ms. Underwood. Right.
    Mr. Wray. The difference from interference in election 
infrastructure, and they all have different ways of going about 
it, but they are all kind of taking pages out of each other's 
playbooks. As we project forward, it is something that we have 
to be vigilant about.
    Ms. Underwood. Now, are you worried about copycats from 
smaller actors, non-state actors, on our elections?
    Mr. Wray. Absolutely. Cyber actors, and where that becomes 
particularly challenging is one of the phenomena that we see in 
the cyber crime arena these days is what we call the blended 
threat, which I where nation-state actors essentially hire 
cyber mercenaries.
    So you used to be able to separate the world into the cyber 
criminals and the nation-states. Well, now if you see what 
might be a cyber criminal actor, he could be acting on his own 
for a financial benefit or for his own----
    Ms. Underwood. For hire.
    Mr. Wray. Or he could be hired by some nation-state.
    Ms. Underwood. Thank you.
    Mr. McAleenan, earlier this morning this committee had a 
field hearing on election security in my district in Northern 
Illinois, and during the hearings, State and local election 
officials spoke so highly of their work with CISA senior 
cybersecurity advisor Matthew Masterson. These officials 
coordinate with Mr. Masterson and his team to prepare and 
respond to emerging threats to our election infrastructure, and 
they testified that this coordination was incredibly helpful 
and valuable.
    So what can Congress do to support and expand CISA's 
resources in this area as we prepare for growing threats in 
2020 and beyond?
    Secretary McAleenan. Thank you, Congresswoman, for that 
feedback. Mr. Masterson is a tremendous professional and well-
regarded in the field.
    I had the opportunity to speak with State and local 
election officials in Illinois when I was in Chicago a few 
months ago, and I had that same sense of partnership with CISA.
    What can we do to expand it? We do want to increase our 
presence, our protected security advisor presence, conveying 
the capabilities of CISA to support counties, townships that 
are running elections Nation-wide. We would like to be out and 
present in more places because it is that direct interaction 
when you have a partner that you know that has that expertise 
that can really change your capabilities and your readiness.
    So that is a key area that CISA is looking for additional 
reach and resources.
    Ms. Underwood. Awesome. So I am about out of time. I wanted 
to talk about domestic terrorism a little bit. So we are going 
to send over some questions. I know it is your last day, sir, 
but I would hope that the Department would respond.
    Our committee is continuing to explore how we can protect 
our country from these emerging threats of the violent 
extremists and appreciate your on-going work in that area.
    Thank you so much.
    I yield back.
    Chairman Thompson. Thank you very much.
    Would the gentlelady want to mention a report that you were 
trying to find?
    Ms. Underwood. Thank you so much, sir.
    So we had the opportunity to get a briefing from an FBI 
briefer over the last couple of weeks. He came in last week on 
Wednesday, in the Classified setting came in this week, and in 
response, they mentioned that on CapNet that there would be 
weekly reports about social media findings taken from the IC 
and distributed to State and local partners, and that it would 
be available to us each week.
    We attempted to log in and access that report to track what 
the Russians are doing in real time. It is my understanding 
that that report is being developed somewhere between your 
agencies, but we do not have access to that currently.
    I am a little bit concerned, sir, to be honest, Mr. Wray, 
because if that report is developed, we would like to see it, 
and if it is not, you know, worried that perhaps the briefer 
was not completely truthful in his update to us.
    Chairman Thompson. Well, I think we were promised access to 
what we thought was a report that had been generally produced 
on a regular basis, and we will get to you in writing what that 
is because the Vice Chairwoman went down to look for it, and it 
was not there.
    Ms. Underwood. Yes, sir. Thank you.
    Mr. Wray. If I can get the information from your staff, I 
will be happy to have my staff drill into it and figure out 
what is going on there.
    Chairman Thompson. Sure. Thank you.
    The Chair recognizes the gentleman from Louisiana for 5 
minutes.
    Mr. Richmond. Thank you, Mr. Chairman.
    I will start with you, Mr. McAleenan.
    Let me ask you about the parole directive. Is it still in 
effect and in force?
    Secretary McAleenan. I am sorry. Which one, the significant 
public benefit parole directive?
    Mr. Richmond. Well, no, the one with ICE detainees about 
parole or holding them, and my specific concern is the New 
Orleans ICE office, the field office that has released I think 
last year not 1 person. This year they still keep about 98 
percent of the people.
    So I am asking you is that parole directive still in force.
    Secretary McAleenan. So I am not aware of any policy 
changes at the National level for ICE making determinations on 
parole, variety of different categories, whether people arrive 
at a port of entry, between ports of entry, whether it is an 
interior enforcement action, whether it is a mandatory 
detention context under Congressional statute.
    Mr. Richmond. Well, let's just go to a specific part where 
they determine whether the person is a flight risk, whether 
they have substantial connection to the community, whether they 
have family that are U.S. citizens.
    It is just amazing to me that no one in a particular field 
office in a whole year had any substantial ties to the 
community that they were not determined to be not a risk factor 
and released pending their hearing.
    So does that stand out to you, 100 or 98 percent of people 
being held?
    Secretary McAleenan. I would have to follow up with ICE and 
the acting director on that question. I am not aware of a 
different approach by field office because it is a National 
policy, and you have listed some of the factors that are 
considered in a case-by-case manner.
    Mr. Richmond. Well, then let me just make this as a formal 
request, and you can pass it off to whoever you deem necessary 
that I would like an analysis of the New Orleans field office, 
how many people were granted parole over the last 3 years and 
the different categories of why they were not granted.
    Also, do you remember the case of Yoel Leal? He was in New 
Orleans. He was very sick. He was housed in Louisiana and in 
Mississippi, and we were discussing, No. 1, his medical 
treatment, and we realized that there is a language barrier 
many times for the people that we are holding in our custody 
and care, and that he refused treatment, but he did not 
understand what he was doing. So that was a big question for 
us.
    Then we also asked to have a specific conversation with 
you, the Chairman and I, and in the mean time you all deported 
him. My question would be: No. 1, did you know about it?
    No. 2, if you did, why would you all deport him when the 
Chairman and I were requesting a specific meeting about his 
status and whereabouts?
    Secretary McAleenan. So I am personally not aware of the 
details of this case or a decision to remove him while the 
Chairman was asking about the case. I will be happy to go back 
over the time line and get you any information we can about 
that decision making process.
    Mr. Richmond. Would you please do that?
    Then let me just on a different note, and I would really 
appreciate just a candid answer if you could, our TSA officers 
play an incredible part in securing our country and our 
airports, and especially in New Orleans where they stopped a 
guy trying to board a plane. One officer was shot. One was 
stabbed, I believe.
    Do you think we are paying them what they are worth?
    Secretary McAleenan. So I do think the pay structure for 
our TSOs has to be looked at. They are incredible 
professionals. We want to maintain that cadre, that expertise 
as much as we can. They do a tremendous job.
    I had a chance to meet some of the team in New Orleans who 
was involved in that incident, and we are extraordinarily proud 
of the work they do.
    Mr. Richmond. Do you have a suggestion on what it should 
look like?
    Secretary McAleenan. I do have a referral because our 
acting deputy secretary to TSA Administrator Dave Pekoske is 
working intimately on this issue, and we can get you the exact 
details on our recommended path forward for TSO pay.
    Mr. Richmond. If you could get that to the Chairman and I, 
I know the Chairman has a bill, but if you can get us that, 
that would be very helpful.
    Then with the last remaining seconds, Director Wray, you 
and I talked several times about the term ``black identity 
extremists.'' Over the last couple of weeks, we were alerted 
about something called ``Iron Fist.'' Is that on-going?
    Does it exist, No. 1?
    No. 2, is it still on-going?
    Our information tells us it was to target individuals it 
classified as black identity extremists.
    Mr. Wray. Well, I am not familiar with the name that you 
just used. So I cannot engage specifically on that question.
    I will say, as I think we have discussed before, we have 
moved away from that categorization, and I will add, as I think 
I mentioned to you in one of our earlier conversation--and this 
is very important to me personally--we do not open 
investigations into anyone on the domestic terrorism side 
unless we have, No. 1, credible evidence of a Federal crime; 
No. 2, credible evidence of a threat of violence; and, No. 3, 
in furtherance of an ideology.
    If we do not have those 3 things, there is no 
investigation. So we do not investigate ideology, rhetoric, 
peaceful protests, anything like that.
    Mr. Richmond. Well, let me just ask unanimous consent to 
enter into the record an October 6, 2017, article from Foreign 
Policy entitled ``FBI's New U.S. Terrorist Threat, Black 
Identity Extremists''; an October 13, 2017, letter from the CBC 
to Director Wray asking for a briefing; an August 8, 2019, 
article by the Young Turks entitled ``Leaked FBI Documents 
Reveal Bureau's Priorities under President Trump.''
    But I will just conclude by asking your commitment to meet 
with us again to give us an update of where we are, what it 
looks like, if, in fact, there have been arrests, surveillance, 
investigations on anybody under the old black identity 
extremists and now what it is consumed in.
    So I would just ask that you commit to briefing us again on 
that particular issue.
    Mr. Wray. We would be happy to keep the dialog going.
    Mr. Richmond. Thank you.
    With that, Mr. Chairman, I yield back.
    Chairman Thompson. Thank you.
    Without objection we will enter those into the record.
    [The information referred to follows:]
           Article Submitted by Honorable Cedric L. Richmond
    the fbi's new u.s. terrorist threat: `black identity extremists'
Law enforcement calls it a violent movement. Critics call it racist.
By Jana Winter, Sharon Weinberger/October 6, 2017, 11:42 AM
    As white supremacists prepared to descend on Charlottesville, 
Virginia, in August, the FBI warned about a new movement that was 
violent, growing, and racially motivated. Only it wasn't white 
supremacists; it was ``black identity extremists.''
    Amid a rancorous debate over whether the Trump administration has 
downplayed the threat posed by white supremacist groups, the FBI's 
counterterrorism division has declared that black identity extremists 
pose a growing threat of premeditated violence against law enforcement.
    ``The FBI assesses it is very likely Black Identity Extremist (BIE) 
perceptions of police brutality against African Americans spurred an 
increase in premeditated, retaliatory lethal violence against law 
enforcement and will very likely serve as justification for such 
violence,'' reads the report, marked for official use only and obtained 
by Foreign Policy.
    The August 2014 shooting of Michael Brown in Ferguson, Missouri, 
was the catalyst for widespread anger and violence, the FBI report 
says, concluding that continued ``alleged'' police abuses have fueled 
more violence.
    ``The FBI assesses it is very likely incidents of alleged police 
abuse against African Americans since then have continued to feed the 
resurgence in ideologically motivated, violent criminal activity within 
the BIE movement,'' the report states.
    Some 748 people have been shot and killed by police so far in 2017, 
including at least 168 African-Americans.
    The report, dated Aug. 3--just 9 days before the white supremacist 
rally in Charlottesville turned deadly--appears to be the first known 
reference to ``black identity extremists'' as a movement. But former 
government officials and legal experts said no such movement exists, 
and some expressed concern that the term is part of a politically 
motivated effort to find an equivalent threat to white supremacists.
    A former senior counterterrorism and intelligence official from the 
Department of Homeland Security who reviewed the document at FP's 
request expressed shock at the language.
    ``This is a new umbrella designation that has no basis,'' the 
former official said. ``There are civil rights and privacy issues all 
over this.''
    The concept of ``black identity extremists'' appears to be entirely 
new. FP found only five references to the term in a Google search; all 
were to law enforcement documents about domestic terrorism from the 
last 2 months. One of those on-line references is to law enforcement 
training on identifying ``domestic terror groups and criminally 
subversive subcultures which are encountered by law enforcement 
professionals on a daily basis.''
    Among the six acts of premeditated violence linked to black 
identity extremists--it excludes violence toward police carried out in 
the normal course of their duties--the reports cites the July 2016 
shooting of 11 police officers in Dallas. The shooter, Micah Johnson, 
was reportedly angry at police violence.
    ``Based on Johnson's journal writings and statements to police, he 
appeared to have been influenced by BIE ideology,'' the FBI report 
states. The attack took place during a Black Lives Matter protest of 
police shootings, though the BLM movement is not mentioned by name in 
the report.
    Yet those involved in the Black Lives Matter movement have voiced 
concerns about FBI surveillance.
    DeRay McKesson, an activist involved in the Black Lives Matter 
movement, told FP that the FBI visited his house in the run-up to the 
Republican National Convention. ``I spoke about the FBI visit to my 
house and the houses of other activists in our final meeting with 
[President Barack] Obama,'' he said.
    ``There is a long tradition of the FBI targeting black activists 
and this is not surprising,'' McKesson said.
    The FBI declined to comment on the report itself and did not 
respond to specific questions, but in an emailed statement to FP, the 
bureau defended its tracking of ``black identity extremists,'' saying 
that ``the FBI cannot initiate an investigation based solely on an 
individual's race, ethnicity, national origin, religion, or the 
exercise of First Amendment rights.''
    In its August report, the FBI said it expects further attacks by 
black identity extremists, driven by both the perception and the 
reality of unfair treatment at the hands of police officers.
    ``The FBI further assesses it is very likely additional 
controversial police shootings of African Americans and the associated 
legal proceedings will continue to serve as drivers for violence 
against law enforcement,'' the report says.
    Some experts and former government officials said the FBI seemed to 
be trying to paint disparate groups and individuals as sharing a 
radical, defined ideology. And in the phrase ``black identity 
extremist'' they hear echoes of the FBI's decades-long targeting of 
black activists as potential radicals, a legacy that only recently 
began to change.
    ``They are grouping together Black Panthers, black nationalists, 
and Washitaw Nation,'' said the former homeland security official. 
``Imagine lumping together white nationals, white supremacists, 
militias, neo-Nazis, and calling it `white identity extremists.' ''
    The FBI is linking the people discussed in the report based only on 
them being black, rather than on any sort of larger ideological 
connection, the official said. ``The race card is being played here 
deliberately.''
    Michael German, a former FBI agent and now a fellow with the 
Brennan Center for Justice's liberty and national security program, 
said manufacturing this type of threat was not new. He has criticized 
earlier FBI reports on ``black separatists,'' arguing that they 
conflated radical groups operating in the 1970's with attacks in 2010 
and later, even though there was no obvious connection.
    The use of terms like ``black identity extremists'' is part of a 
long-standing FBI attempt to define a movement where none exists. 
``Basically, it's black people who scare them,'' German said.
    Even former officials who view the government's concerns about 
black separatists as legitimate balked at the term ``black identity 
extremist,'' and point out that the threat from individuals or groups 
who want to establish their own homeland is much less than from the far 
right.
    In 2009, Daryl Johnson, then a Department of Homeland Security 
intelligence analyst, warned of the rise of right-wing extremism, 
setting off a firestorm among Congressional critics. Johnson, who left 
the department in 2010, said he could think of no reason why the FBI 
would create a new category for so-called black identity extremists. 
``I'm at a loss,'' he replied, when asked about the term.
    ``I have no idea of why they would come up with a new term.''
    There have been concerns about rising violence among black 
separatist groups in recent years, he said, but it does not approach 
the threat of right-wing extremism. ``When talking about white 
supremacists versus black supremacists, there are way more white 
supremacists,'' Johnson said.
    For historians and academics who have looked at the history of FBI 
surveillance of black Americans, the report also smacks of the sort of 
blatant racism the bureau has worked hard to leave behind. From the 
time J. Edgar Hoover took over the anti-radical division in the FBI at 
the height of the first ``red scare'' in 1919, the bureau began 
systematically surveilling black activists.
    ``Black protests get conflated for the bureau [with communism], and 
it begins there,'' said William Maxwell, a professor at Washington 
University in St. Louis, who has researched the FBI's monitoring of 
black writers in the 20th century.
    What followed, according to Maxwell, was decades of FBI pursuit of 
black radicals in the belief, often mistaken, that they were part of a 
larger subversive movement. ``It's deep in the bureau's DNA,'' he said.
    Lately, that seemed to be changing. As FBI director, James Comey 
famously kept a copy of the Martin Luther King Jr. wiretap order on his 
desk as a reminder of the bureau's past abuses and made new agents 
learn the history of the FBI's pursuit of the civil rights leader.
    The FBI also appeared to be focusing more attention on the threat 
of white supremacists. In May, the FBI warned that white supremacist 
violence was growing, according to a report obtained and published by 
FP. That same report noted that white supremacists were responsible for 
more attacks in the United States than any other extremist group, 
including Islamic extremists.
    Critics, however, accuse President Donald Trump of shifting 
attention away from right-wing violence. This year, the Trump 
administration decided to focus the Department of Homeland Security's 
``countering violent extremism'' program on Islamic terrorism and 
deprioritized funding to counter white supremacist groups.
    ``To hear there is a new initiative targeting black identity 
extremists is surprising given that shift,'' said Alvaro Bedoya, the 
executive director of the Center on Privacy & Technology at Georgetown 
Law.
    Maxwell, the Washington University professor, had an even darker 
view. ``It's classic Hoover-style labeling with little bit of 
maliciousness and euphemism wrapped up together,'' he said. ``The 
language--black identity extremist--strikes me as weird and really a 
continuation of the worst of Hoover's past.''
    In a sense, the FBI's desire to identify a unifying ideological 
underpinning to what are often individual violent acts is not 
surprising, said David Garrow, a historian who wrote a Pulitzer Prize-
winning biography of MLK. ``Security agencies want to perceive a threat 
that is political, a threat that ideological,'' Garrow said, ``but what 
we're actually witnessing is men, almost entirely men, acting out in 
violent criminal ways and grasping at some chimera of political 
justification.''
    But the document itself smacks of incompetence more than 
conspiracy, according to Garrow, who reviewed a copy of the report 
provided by FP. ``The immediate instinct is to think [the FBI] are a 
threat,'' he said. ``My immediate instinct is to wonder whether they 
are minimally competent.''
    Garrow, who has reviewed decades' worth of FBI documents for his 
work, warned against seeing this report as proof that the FBI is 
illegally targeting black Americans.
    ``They are often so clueless,'' he said of the FBI. ``I don't find 
them a threat.''
    But the former homeland security official said the report's 
tendency to lump together different groups that have no obvious 
connection will make it harder for law enforcement to identify real 
threats. ``It's so convoluted--it's compromising officer safety,'' the 
former official said.
    And even though the report mentions in a footnote that ``political 
activism'' and ``strong rhetoric'' by themselves don't amount to 
extremism and ``may be constitutionally protected,'' it identifies 
anger with police or ``anti-white rhetoric'' as indicators of a 
potential ``violent threat.''
    ``Just the term `black identity extremist' is protected,'' the 
former official said. ``You can identify all you want.''
    The FBI, however, defended the classification in its statement to 
FP.
    ``Domestic terrorism groups differ from traditional criminal groups 
in that they take action for a different purpose, to bring attention to 
a social or political cause,'' the FBI wrote.
    ``Therefore, their existence as a group has a legitimate purpose, 
at least in part. Their legitimate activity may include acts of 
protest, advocacy, and civil disobedience.''
    The FBI says there are ``nine persistent extremist movements'' in 
the United States at present. Those include ``white supremacy, black 
identities, militia, sovereign citizens, anarchists, abortion, animal 
rights, environmental rights, and Puerto Rican nationalism.''
Jana Winter is an investigative reporter based in Washington, DC. 
Twitter: @janawinter Twitter: @weinbergersa
                                 ______
                                 
   Letter From the Congressional Black Caucus Submitted by Honorable 
                           Cedric L. Richmond
                                  October 13, 2017.
Director Christopher Wray,
Federal Bureau of Investigation, 935 Pennsylvania Avenue, NW, 
        Washington, DC 20535-0001.
    Dear Director Wray: We write to express our concern over the 
Federal Bureau of Investigation's (FBI) recent ``Intelligence 
Assessment'' dated August 3, 2017, entitled ``Black Identity Extremists 
Likely Motivated to Target Law Enforcement Officers.'' We also request 
a briefing on the origins of this research and the FBI's intended next 
steps now that this assessment has been performed and disseminated.
    As you are no doubt aware, the FBI has a troubling history of 
utilizing its broad investigatory powers to target black citizens. 
During the 1960's, Director J. Edgar Hoover used the Counter 
Intelligence Program (COINTELPRO) to surveil and discredit civil rights 
activists and members of the Black Panther Party, For example, the FBI 
falsified letters in an effort to blackmail Martin Luther King, Jr. 
into silence. Given this history, and given several concerning actions 
this Administration has taken on racial issues, Members of the 
Congressional Black Caucus (CBC) are justifiably concerned about this 
FBI Assessment.
    Unfortunately, this Administration has developed a pattern of 
statements and actions that are hostile to African Americans. The 
President and his advisors have at times failed to condemn Neo-Nazis 
and white supremacists. The President encouraged law enforcement 
personnel to use less restraint in dealing with individuals suspected 
of crimes. Last, the Attorney General has rolled back criminal justice 
reforms--a move that will disproportionately harm African Americans.
    Against this backdrop, the Members of the CBC cannot help but be 
concerned about the aforementioned intelligence assessment. The FBI is 
responsible for investigating criminal activity and referring its 
findings to Department of Justice attorneys for prosecution. The 
intelligence assessment, citing only a handful of incidents since 2013, 
has concluded with ``high confidence'' that ``Black Identity 
Extremists'' are likely to target law enforcement based on 
``perceptions of police brutality against African Americans.''
    The assessment and the analyses upon which it is based are flawed 
because it conflates black political activists with dangerous domestic 
terrorist organizations that pose actual threats to law enforcement. It 
relies on a handful of obviously terrible incidents to paint black 
Americans who exercise free speech against witnessed police brutality 
as possible violent extremists. These broad characterizations can only 
serve to further erode trust between law enforcement officials and many 
of the black communities they serve, further inflaming an already tense 
and complicated dynamic. Local law enforcement may erroneously target 
non-violent but politically-engaged persons or groups because of this 
assessment. Our constituents continue to express their frustration 
about being ignored and being attacked for exercising their 
constitutionally-protected right to free speech to protest inequities 
across American institutions.
    We are concerned that this assessment could lead the FBI to target 
black communities, and it is imperative that you come to meet with the 
49 Members of the CBC to address our concerns. Please respond to this 
letter in wtiting by October 23, 2017, as many of our Members and 
constituents will interpret a lack of response as confirmation that the 
FBI intends to unfairly target African Americans. Thank you for your 
personal attention to this critical matter, and we look forward to your 
response.
            Sincerely,
                                        Cedric L. Richmond,
                                 Chair, Congressional Black Caucus.
                                         John Conyers, Jr.,
                  Ranking Member, House Committee on the Judiciary.
                                        Bennie G. Thompson,
              Ranking Member, House Committee on Homeland Security.
                                        Elijah E. Cummings,
Ranking Member, House Committee on Oversight and Government Reform.
                                 ______
                                 
           Article Submitted by Honorable Cedric L. Richmond
      leaked fbi documents reveal bureau's priorities under trump
By: Ken Klippenstein, Aug 8, 2019.
    Under President Trump, the FBl's official counterterrorism 
priorities have included ``Black Identity Extremists,'' ``anti-
authority'' extremists, and ``animal rights/environmental extremists,'' 
according to leaked Bureau documents obtained exclusively by The Young 
Turks. The documents, many of which are marked ``Law Enforcement 
Sensitive'' and ``For Official Use Only,'' also reference a mysterious 
plan to mitigate the threat of ``Black Identity Extremists'' with a 
program code named ``IRON FIST'' involving the use of undercover 
agents.
    Each fiscal year, the FBI headquarters updates its Consolidated 
Strategy Guide, which lists the Bureau's priorities in numerous domains 
such as counterterrorism, counterintelligence, and cyber crime. When an 
August 2017 internal FBI report referencing the counterterrorism threat 
posed by ``Black Identity Extremists'' was published by Foreign Policy, 
the FBI became the subject of intense criticism for adopting what 
critics alleged was a racially loaded term.
    What was not publicly known, however, was that not only had the FBI 
adopted the term; it specifically listed it as a top counterterrorism 
priority in its 2018 strategy guide, referring to the group as a 
``priority domestic terrorism target,'' and even established a program 
to counteract the supposed threat.
    While the documents depict concerns about violent black extremist 
attacks, they do not cite a single specific attack--unlike white 
supremacist attacks, of which several prominent examples are provided.
    Furthermore, although the FBI last month reportedly assured Senate 
Democrats that it had dropped the term ``Black Identity Extremist'' in 
favor of one that isn't race-specific, the documents suggest that this 
was misleading. Despite changing the name, the Bureau retained much of 
the original definition and still targeted black people.
    So grave did the Bureau consider the threat of black extremists 
that from 2019 to 2020, using new designations, it listed the threat at 
the very top of its counterterrorism priorities--above even terror 
groups like al-Qaeda.
            ``Black Identity Extremists'': What's in a Name?
    By 2019, the FBI had indeed replaced its 2018 counterterrorism 
priority ``Black Identity Extremists'' with the vaguer designation 
``Racially Motivated Extremism,'' according to the Bureau's fiscal year 
2018-20 counterterrorism strategy guides obtained by TYT.
    In addition to the strategy guides, TYT also obtained FBI threat 
guidances associated with many of the counterterrorism priorities. 
These guidances detail the nature of the threats as well as how the 
Bureau plans to counteract them.
    Despite the new term, ``Racially Motivated Extremism,'' a 2019 
threat guidance defines the new priority as including ``Black Racially 
Motivated Extremism,'' a term that appears repeatedly in the document 
and includes much of the same definition of the 2018 ``Black Identity 
Extremist.''
    ``Racially Motivated Extremism . . . generally includes White 
Racially Motivated Extremism, previously referred to as White Supremacy 
Extremism, and Black Racially Motivated Extremism, previously referred 
to as Black Identity Extremism,'' the FBI document states.
    The FBI's new 2020 counterterrorism priorities changed the 
designation yet again, this time to ``Racially Motivated Violent 
Extremism.''
    However, the new term also includes much of the same definition of 
the 2018 ``Black Identity Extremist.''
    The 2020 threat guidance states, ``RMVEs [Racially Motivated 
Violent Extremists] use force or violence in violation of criminal law 
in response to perceived racism and injustice in American society, or 
in an effort to establish a separate black homeland or autonomous black 
social institutions, communities, or governing organizations within the 
United States.''
    The 2018 threat guidance defines Black Identity Extremists in 
nearly identical fashion, saying members ``use force or violence in 
violation of criminal law in response to perceived racism and injustice 
in American society; some do so in furtherance of establishing a 
separate black homeland or autonomous black social institutions, 
communities, or governing organizations.''
    ``The FBI judges some RMVE perceptions of police brutality against 
African Americans served as justification for premeditated, retaliatory 
violence against law enforcement in 2016,'' the document states.
            Origins of the `Threat'
    The 2018 threat guidance strongly suggests that the ``Black 
Identity Extremist'' term emerged from the Black Lives Matter 
movement--specifically, the 2014 shooting of black teen Michael Brown 
in Ferguson, Missouri, and its aftermath.
    ``The FBI judges BIE perceptions of police brutality against 
African Americans have likely motivated acts of pre-meditated, 
retaliatory lethal violence against law enforcement,'' the document 
states. ``The FBI first observed this activity following the August 
2014 shooting of Michael Brown in Ferguson, Missouri, and the 
subsequent acquittal of police officers involved in that incident.''
    The threat guidance goes on to attribute the threat in part to 
violent rhetoric on social media as well as media attention generally.
    ``The threat to law enforcement from BIE . . . is likely to remain 
elevated, and may continue to expand, driven in part by continued calls 
for violent action on social media,'' the document says. ``The FBI 
assesses racially charged events, coupled with the wide-spread media 
attention of the events . . . remain contributing factors to the 
emergence of violent lone offenders within the BIE movement.''
            Countering the `Threat'
    The documents also shed light on the FBI's plans to counter the 
perceived threat of black extremists. Methods alluded to include 
undercover employees, confidential informants and, cryptically, IRON 
FIST.
    The 2018 threat guidance states, ``It is challenging to get sources 
into BIE groups, due to security measures these groups employ. The 
vetting process and time investment to gain access to leadership in BIE 
groups is very lengthy. The use of undercover employees and on-line 
covert employees in BIE investigations would provide valuable 
intelligence to assist in mitigating the threat.
    ``Field offices will evaluate their need for an open Type 3 
assessment file in regards to BIE. An open assessment file allows for 
greater proactive collection techniques should the BIE threat emerge in 
the wake of a police-involved incident that sparks potential BIE 
activity.''
    The Bureau appears particularly interested in ascertaining BIE 
groups' organizational structure as well as their alleged ties to 
criminal organizations.
    ``The FBI needs a better understanding of the hierarchy and 
structure of BIE groups, and how these groups train/work with one 
another, and criminal organizations,'' the guidance states.
    Although the document says that ``many recent lethal BIE incidents 
have been conducted by BIE lone offenders,'' it does not cite any 
specific cases.
    The guidance also references legal and seemingly innocuous 
activities as ``key threat indicators,'' including attempts to identify 
the names or vehicles of law enforcement officers.
            Threat Mitigation Strategy `IRON FIST'
    IRON FIST, an FBI program not known to the public prior to the 
publication of these documents, was a strategy implemented by FBI 
headquarters to ``mitigate'' what it considered to be a ``threat'' 
posed by the ``BIE movement.''
    ``IRON FIST is designed to evolve and adapt to the ever-changing 
threat posed by BIEs, to proactively address this priority domestic 
terrorism target by focusing FBI operations via enhanced intelligence 
collection efforts,'' a 2018 FBI threat guidance document states. (At 
the same time, the Bureau also considered white supremacist extremists 
a priority domestic terrorism target.)
    ``IRON FIST will accomplish this by identifying actionable 
intelligence to directly support the initiation of FBI investigations 
and augment current efforts directed against BIEs . . . In addition, 
FBIHQ works to develop potential CHS [Confidential Human Sources] and 
conduct assessments on the current BIE CHS base.''
    IRON FIST also includes a tactic by which the FBI would use the 
felony status of many Black Identity Extremists against them.
    ``Many BIEs are convicted felons who are prohibited possessors, 
therefore the FBI will continue to use their prohibited possessor 
status as a tactic to assist in mitigating the threat for potential 
violence,'' the document states.
    Little else is revealed about IRON FIST in the documents.
            `White Supremacy Extremists'
    The same documents show that the FBI also defines racially 
motivated extremists as inclusive of white supremacist groups, which it 
describes as a ``medium threat.''
    Until 2019, ``White Supremacy Extremists'' was a term listed on the 
FBl's counterterrorism priorities before it was categorized under 
racially motivated extremists, the documents also reveal.
    ``Some RMVEs are driven by a belief in the superiority of the white 
race and a perception that the U.S. Government is conspiring with Jews 
and minority populations to bring about the race's demise,'' the 2020 
threat guidance states.
    While the 2020 threat guidance alludes to violent black extremist 
attacks, each of the specific attacks referenced were carried out by 
white supremacists: The October 2018 attack on a synagogue in 
Pittsburgh, which killed 11, the March 2019 attack on two mosques in 
Christchurch, New Zealand, which killed 51, and the April 2019 attack 
on a synagogue in Poway, California, which killed one.
    In July, FBI Director Chris Wray told Congress that the majority of 
terrorism cases the Bureau has investigated in 2019 ``are motivated by 
some version of what you might call white supremacist violence.''
    The head of the FBI's counterterrorism division testified that 40 
percent of domestic terrorism cases were racially motivated extremists 
and that most of them were white supremacists.
    Despite the apparent rise in attacks, the documents show that, in 
2018, the FBI anticipated a decline in national white supremacist 
groups.
    ``The FBI further judges ongoing attrition of national organized 
white supremacy extremist groups will continue over the next year, 
yielding a white supremacy extremist movement primarily characterized 
by locally organized groups, small cells, and lone offenders,'' the 
2018 threat guidance states.
    ``Infighting and lack of leadership have made it difficult for 
groups to organize nationally and to sustain their memberships and 
influence. The internet and the emergence of social media have also 
enabled individuals to engage the WSE movement without joining 
organized groups,'' the 2019 threat guidance says.
    A PDF of the FBI documents obtained by TYT can be viewed here.
Ken Klippenstein is a senior investigative reporter for TYT. He can be 
reached securely via Signal at 202-510-1268, on Twitter 
@kenklippenstein or via email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="147f717a7f54606d603a777b793a">[email&#160;protected]</a>
Follow TYT Investigates on Twitter, Facebook, and YouTube to stay on 
top of exclusive news stories from The Young Turks.
TYTNETWORK  Copyright 2019 The Young Turks, Inc. All Rights Reserved.

    Chairman Thompson. Mr. McAleenan, let me join the chorus of 
people who have thanked you for your service to this Department 
for quite a long time. You have been a consummate professional. 
I personally thank you for that.
    Going forward, the question is if nobody is appointed by 
tomorrow, are you prepared to stay on until somebody is 
appointed?
    Secretary McAleenan. It is an important question, and in my 
letter of resignation, I did offer to the President to ensure a 
smooth transition in that arranged my position and want to make 
sure that happens to the Department.
    Chairman Thompson. So you are, if asked to stay on, 
prepared to do it until someone is nominated for your position?
    Secretary McAleenan. I hope the plan for a successor is 
imminent, but if necessary, I will absolutely ensure a smooth 
transition.
    Chairman Thompson. Thank you very much.
    I thank the witnesses for their valuable testimony and the 
Members for their questions.
    The Members of the committee may have additional questions 
for the witnesses, and we ask that you respond expeditiously in 
writing to those questions. Hearing no further business, the 
committee stands adjourned.
    [Whereupon, at 12:47 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              


        Questions From Honorable Dina Titus for Kevin McAleenan

                             CLIMATE CHANGE

    Question 1. How can the United States strengthen our 
counterterrorism approach to better link the impacts of climate 
change with countering violent extremism and terrorist 
recruitment?
    Answer. Response was not received at the time of 
publication.

                              WOMEN & ISIS

    Question 2a. How should the United States address the 
emerging threat of attempted radicalization of women by ISIS 
and other terrorist organizations?
    Answer. Response was not received at the time of 
publication.
    Question 2b. Are there U.S. programs or strategies 
targeting this specific concern?
    Answer. Response was not received at the time of 
publication.

                              SYRIA & ISIS

    Question 3a. Recently, hundreds of ISIS affiliates escaped 
from a Kurdish-run prison in northeast Syria after bombing by 
Turkish military forced the Kurds to divert resources to 
counter the Turkish threat.
    Where are they now?
    Answer. Response was not received at the time of 
publication.
    Question 3b. Could conditions on the ground allow ISIS to 
reconstitute and undermine 8 years of counterterrorism 
operations by U.S. and allied forces?
    Answer. Response was not received at the time of 
publication.
    Question 3c. Which ISIS affiliates, if any, are capable of 
conducting attacks beyond their borders? Which pose the 
greatest threats to U.S. National security, and why?
    Answer. Response was not received at the time of 
publication.
    Question 3d. What is the state of ISIS' cyber capabilities? 
How sophisticated are they?
    Answer. Response was not received at the time of 
publication.

                                  TPS

    Question 4a. In September 23, 2019, a Federal Register 
announcement to extend Syria's TPS designation for 18 months to 
March 31, 2021, the Department stated that, ``following the 
defeat of the self-described Islamic State of Iraq and Syria 
(ISIS) in March 2019, ISIS sleeper cells have stepped up 
insurgency operations in cities controlled by the Syrian 
Democratic Forces.'' However, the President has bragged 
multiple times that his administration is responsible for 
defeating ISIS ``100 percent.''
    Please explain the discrepancy between the Department's 
findings and the President's declarations?
    Answer. Response was not received at the time of 
publication.
    Question 4b. Do you believe that conditions will have 
improved sufficiently in 18 months to safely return Syrian TPS 
recipients to Syria? What effect will the President's recent 
decision to turn his back on the Syrian Kurds have on the 
conditions supporting Syria's TPS designation?
    Answer. Response was not received at the time of 
publication.

      Question From Ranking Member Mike Rogers for Kevin McAleenan

    Question. Acting Secretary McAleenan testified before the 
House Appropriations Committee in April that the Department 
would like to quickly establish a permanent central processing 
center in El Paso. Can you please give the committee insight 
into the status of that project? What concrete steps have you 
taken to establish this facility and when do you expect it to 
be completed?
    Answer. Response was not received at the time of 
publication.

        Questions From Honorable Dina Titus for Christopher Wray

                              WOMEN & ISIS

    Question 1a. How should the United States address the 
emerging threat of attempted radicalization of women by ISIS 
and other terrorist organizations?
    Answer. Response was not received at the time of 
publication.
    Question 1b. Are there U.S. programs or strategies 
targeting this specific concern?
    Answer. Response was not received at the time of 
publication.

                              SYRIA & ISIS

    Question 2a. Recently, hundreds of ISIS affiliates escaped 
from a Kurdish-run prison in northeast Syria after bombing by 
Turkish military forced the Kurds to divert resources to 
counter the Turkish threat.
    Where are they now?
    Answer. Response was not received at the time of 
publication.
    Question 2b. Could conditions on the ground allow ISIS to 
reconstitute and undermine 8 years of counterterrorism 
operations by U.S. and allied forces?
    Answer. Response was not received at the time of 
publication.
    Question 2c. Which ISIS affiliates, if any, are capable of 
conducting attacks beyond their borders? Which pose the 
greatest threats to U.S. National security, and why?
    Answer. Response was not received at the time of 
publication.
    Question 2d. What is the state of ISIS' cyber capabilities? 
How sophisticated are they?
    Answer. Response was not received at the time of 
publication.

        Questions From Honorable Dina Titus for Russell Travers

                             CLIMATE CHANGE

    Question 1. How can the United States strengthen our 
counterterrorism approach to better link the impacts of climate 
change with countering violent extremism and terrorist 
recruitment?
    Answer. Response was not received at the time of 
publication.

                        RELATING TO WOMEN & ISIS

    Question 2a. How should the United States address the 
emerging threat of attempted radicalization of women by ISIS 
and other terrorist organizations?
    Answer. Response was not received at the time of 
publication.
    Question 2b. Are there U.S. programs or strategies 
targeting this specific concern?
    Answer. Response was not received at the time of 
publication.

                              SYRIA & ISIS

    Question 3a. Recently, hundreds of ISIS affiliates escaped 
from a Kurdish-run prison in northeast Syria after bombing by 
Turkish military forced the Kurds to divert resources to 
counter the Turkish threat.
    Where are they now?
    Answer. Response was not received at the time of 
publication.
    Question 3b. Could conditions on the ground allow ISIS to 
reconstitute and undermine 8 years of counterterrorism 
operations by U.S. and allied forces?
    Answer. Response was not received at the time of 
publication.
    Question 3c. Which ISIS affiliates, if any, are capable of 
conducting attacks beyond their borders? Which pose the 
greatest threats to U.S. National security, and why?
    Answer. Response was not received at the time of 
publication.
    Question 3d. What is the state of ISIS' cyber capabilities? 
How sophisticated are they?
    Answer. Response was not received at the time of 
publication.

         Questions From Honorable Dina Titus for David J. Glawe

                             CLIMATE CHANGE

    Question 1. How can the United States strengthen our 
counterterrorism approach to better link the impacts of climate 
change with countering violent extremism and terrorist 
recruitment?
    Answer. Response was not received at the time of 
publication.

                              WOMEN & ISIS

    Question 2a. How should the United States address the 
emerging threat of attempted radicalization of women by ISIS 
and other terrorist organizations?
    Answer. Response was not received at the time of 
publication.
    Question 2b. Are there U.S. programs or strategies 
targeting this specific concern?
    Answer. Response was not received at the time of 
publication.

                              SYRIA & ISIS

    Question 3a. Recently, hundreds of ISIS affiliates escaped 
from a Kurdish-run prison in northeast Syria after bombing by 
Turkish military forced the Kurds to divert resources to 
counter the Turkish threat. Where are they now?
    Answer. Response was not received at the time of 
publication.
    Question 3b. Could conditions on the ground allow ISIS to 
reconstitute and undermine 8 years of counterterrorism 
operations by U.S. and allied forces?
    Answer. Response was not received at the time of 
publication.
    Question 3c. Which ISIS affiliates, if any, are capable of 
conducting attacks beyond their borders? Which pose the 
greatest threats to U.S. National security, and why?
    Answer. Response was not received at the time of 
publication.
    Question 3d. What is the state of ISIS's cyber 
capabilities? How sophisticated are they?
    Answer. Response was not received at the time of 
publication.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
